<html>
<title> - COMMITTEE FUNDING REQUESTS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                 HEARING ON COMMITTEE FUNDING REQUESTS

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

         HEARING HELD IN WASHINGTON, DC, MARCH 12 AND 13, 2003

                               __________

      Printed for the Use of the Committee on House Administration



89-055              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                 George Shevin, Minority Staff Director

 
                       COMMITTEE FUNDING REQUESTS

                              ----------                              


                       WEDNESDAY, MARCH 12, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:50 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Larson, Millender-
McDonald, and Brady.
    Staff present: Paul Vinovich, Staff Director; Fred Hay, 
Counsel; Reynold Schweickhardt, Technical Director, Jeff Janas, 
Professional Staff Member; George Shevlin, Minority Chief of 
Staff; Charles Howell, Minority Chief Counsel; and Keith 
Abouchar, Minority Professional Staff Member.
    The Chairman. The committee will come to order.
    The purpose of this committee hearing is to consider 
funding requests of the committee of the U.S. House of 
Representatives for the 108th Congress. We will have several 
panels of Members testifying before this committee both today 
and tomorrow as the hearing progresses.
    I would like to outline the procedure that we will follow 
during the hearings. The Chair and the ranking minority member 
of each committee will come before the committee and present 
their budget request for the 108th Congress. The Chair and the 
ranking minority member will each have 5 minutes to testify. 
The Committee on House Administration members will have 5 
minutes each to ask questions of the Chair and/or the ranking 
minority member.
    In this Congress, committees have requested significant 
increases in funding, which is to be expected. Requests total 
approximately $252 million, almost $49 million more than the 
authorization in the 107th Congress of $203 million. This is an 
average overall increase of 23.99 percent, similar to the 22.4 
requested increase in the 107th. The committee, of course, was 
able to tailor a bipartisan mark that is in fact where the 
House wanted to be on spending.
    The total amount of the request was driven by a special 
circumstance this time. The creation of the Select Committee on 
Homeland Security accounts for 22.4 percent of the total 
increase requested by committees. So Homeland Security itself 
is 22.4 percent of that. Of the $48 million in new requests, 
over $11 million is being requested by the Committee on 
Homeland Security alone, which is a brand new committee. So 
this Committee on House Administration will have one new entity 
to deal with which, at the end of the day, will still have a 
rather large budget because it has significant duties, 
especially dealing with security.
    Committees have also asked for an increase in staff, for a 
total of 110 new staff overall. Keep in mind, however, that 52 
of the staff requests come from the Committee on Homeland 
Security alone.
    As Chair, I want to do all we can for the committees to 
ensure they get the funds and do the job for their 
constituencies across the United States that depend on the 
action of these committees for many things. I am also sure the 
other committee chairmen, as they know, and, if not, everybody 
will not get exactly everything they requested.
    But it is important to remember that, over the years--when 
I came here in 1994, the Republicans took control of the House. 
Committee budgets were cut by about 30 percent, or over $66 
million alone. Had we continued the current levels back at that 
time, we would be about $299 million more in spending. So, as a 
result of that period of time, we have saved, I think, a 
considerable amount of money as a House.
    On the issue of minority resources, I am pleased to say we 
worked with Steny Hoyer to make sure two-thirds/one-third 
became reality. We appreciate the Chairs working with us. I 
support the one-third/two-thirds. That is an issue I don't 
think we will have to debate. I am glad we have been able to 
put that to rest, but it is still an appropriate question to 
ask of all the Chairs; and I believe that we can work together 
to get a funding proposal to be fair and balanced.
    As far as our committee, Committee on House Administration, 
we allocate one-third of our total budget to the Ranking 
Member, Mr. Larson. The Committee on House Administration, of 
course, encouraged everybody else to do the one-third. I 
realize chairmen allocate differently. Our choice has always 
been to give the minority in this committee money, and they 
spend it as they see fit on where to spend it.
    In the 107th Congress it was decided to remove requests for 
funding for hearing room upgrades from the committee budget 
process as requests were costly, inconsistent and do not 
accurately represent the true costs of funding committees. We 
sought to reach the goal of the technology of these committees, 
and we will have a separate funding measure to do that so that 
we can complete upgrades within the rooms and with equipment 
for the committees.
    Since the 107th Congress, the Committee on House 
Administration, in conjunction with the Office of the Chief 
Administrative Officer, Mr. Eagan, and the Architect of the 
Capitol, in cooperation with the committees, has made upgrades 
in several full and subcommittee hearing rooms; and we have 
more upgrades planned in 2003 and 2004.
    With that, we will basically end general statements.
    I would want to mention that we have our own budget here, 
which I will be glad to go over. But since we have two Chairs, 
I will recognize our Ranking Member, Mr. Larson.
    Mr. Larson. Thank you very much, Chairman Ney.
    I believe it was President Woodrow Wilson, in his book on 
congressional government, who recognized--and it is not far 
from the truth--a Congress in session is a Congress on public 
exhibition. While a Congress in committee rooms is a Congress 
at work; and today this committee begins that work in earnest.
    With that, let me first praise Chairman Ney's budget and 
staffing recommendations for the House Administration's 
Committee, because they honor what he has referred to as the 
two-thirds/one-third principle. Chairman Ney has recommended 
giving the minority a minimum of one-third of the total funds, 
one-third of the total staff positions and the freedom to 
expend those funds within the committee's administrative 
guidelines with no gimmicks or tricks which reduced minority 
resources or discretion.
    I also want to praise the chairman for using his fairness 
towards the House Administration minority as a model for all 
committee funding in the 108th Congress and for setting an 
outstanding example of how the minority party, be it Democratic 
or Republican, should always be treated.
    After consulting with our ranking members, I am satisfied 
that minority committee staffs expect to receive the minimum 
resources they need to do their work over the next 2 years, 
with few exceptions. I was told that minority staffs are 
generally well pleased with their one-third allocation of the 
committee budgets and staff slots.
    It is also encouraging that virtually all committee Chairs 
are seeking cost-of-living adjustments for their committee 
staffs on par with COLAs, the Senate and the executive branch. 
If House committees are to attract and retain the best and 
brightest staffers that market has to offer, committees must 
appropriately compensate them. The work this institution's 
employees conduct on behalf of the American people is no less 
important than the work conducted by their peers in the Senate 
and the executive branch. Their monthly paychecks should 
reflect that.
    Again, I applaud the chairman for that effort.
    It is not to say everything is perfect. One consistent 
complaint expressed to me concerns inadequate office and 
storage space for minority committee staffs. In several 
instances, I was told by ranking members that they are unable 
to hire their full staff authorizations because they lack 
adequate working space in which to put their personnel. In 
other instances, I learned of cramped working conditions, 
making it very difficult for minority staff to accommodate 
disabled visitors who come to the Capitol to see them in 
wheelchairs.
    Space problem obviously is not one that comes under the 
specific jurisdiction of this committee, but it does need to be 
addressed. And, Mr. Chairman, I recognize that the allocation 
for the space is outside our jurisdiction. With that said, I 
hope over the next months we might join together to appeal to 
House leadership to make a more equitable use of space in 
Cannon, Longworth, Rayburn, Ford and the other office buildings 
to address legitimate needs of minority committee staffs and 
their visitors.
    With that, thank you, Mr. Chairman; and you may proceed.
    The Chairman. I will have some comments later. I don't want 
to hold up the Chair and the Ranking Member.
    Ms. Millender-McDonald. Mr. Chairman, I would also like to 
state, as my Ranking Member, that we applaud you for setting a 
positive example and evenhandedness.
    And if I could submit my statement for the record.
    Mr. Brady. Just to say thank you and hope that one day we 
can reciprocate.
    The Chairman. Having choked on my coffee--friendly 
committee, but not that friendly, though--we will go to the 
Chair of the Education Committee, Mr. Boehner, and Ranking 
Member, Mr. Miller.

    STATEMENT OF THE HON. JOHN BOEHNER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Boehner. Mr. Chairman and members, thank you for the 
opportunity to come and talk to you about the committee budget 
for the Education and Workforce Committee.
    As a former member of your committee, going back some 10 
years ago, I fought diligently through all of these hearings 
with committee chairmen and the ranking members for an 
equitable distribution of committee funds. I can't tell you how 
much enjoyment I had as a new Member of Congress beating up on 
some former chairmen over committees who were getting 18 and 20 
percent of the budget and those weren't even very accurate 
numbers. I believed and fought that the minority ought to have 
one-third of the resources and one-third of the committee 
slots; and, as I committed to all of you last year, as the 
chairman of this committee, I would settle for nothing less.
    So let me say thank you for your help last year and the 
support that you gave us during the 107th Congress. The support 
allowed us to go from a committee with two cell phones to one 
of the most technologically advanced and accessible committee 
rooms on the Hill.
    As we did last Congress, myself and my colleague, the 
Ranking Member, George Miller, developed our budget proposal 
together; and it certainly meets the goal of providing the 
minority with one-third of the resources and one-third of the 
committee slots with full autonomy over how they expend their 
resources.
    Our budget submission reflects, I believe, an accurate and 
fiscally responsible representation of what our committee needs 
are during this Congress. We are requesting a 9.9 percent 
increase over the last Congress's allocation; and this increase 
will allow us to maintain our technological edge, bring our 
issues before the American public through official travel, web 
casting and to allow us to keep our salaries competitive.
    We hope to maintain the sophisticated technology system 
that we enjoy today. Our budget allows us to upgrade our 
software, our hardware, our communications and our web 
streaming equipment.
    Our request allows us to purchase off-site disaster 
recovery equipment as a backstop until the House-wide policies 
are instituted with regard to what would happen in the case 
these buildings were not accessible.
    We will also maintain a practice that we began in the 107th 
Congress which is to share information technology staff. We 
have very good technology staff working with Mr. Miller. There 
is no reason why they shouldn't work for both of us, be shared 
employees, and no reason why the minority and majority 
shouldn't have the same type of capabilities in their offices.
    As you may notice from the documents in front of you, we 
didn't spend all of our allocation last Congress; and there are 
a few key reasons for that. One, we experienced a significant 
amount of staff vacancies and turnover reflecting a new 
chairman and a new ranking member. So during the course of 
those 2 years, there were vacancies that existed more often, 
certainly, than what we see today. Those slots are now by and 
large full, so that will have an impact. If that had been the 
case over the last 2 years, we wouldn't have had those extra 
funds left over.
    Secondly--and I think this is the most significant factor 
in us not spending all of our allocation. We planned for costs 
related for committee room upgrades that in the end were paid 
for by separate resolution. But that money did, in fact, get 
spent in terms of technology upgrades with regard to software 
and hardware for both majority and minority staffs.
    Our budget request, thirdly, represents our actual spending 
practices from this last session, rising costs associated with 
inflation, wage rates and continued demand for updated 
technology.
    So we believe that our request is in keeping with the 
spirit of this committee to ensure that Congress is accessible 
to the American people and to push the envelope of technology 
and to hire and retain a high-quality staff.
    Let me just say thank you for the opportunity to be here 
and turn it over to my colleague and friend from California, 
Mr. Miller.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman; and let me begin by 
congratulating our new Ranking Member, Mr. Larson, on his 
position and look forward to working with him. I appreciate the 
opportunity to appear before you and the other members of the 
committee in support of Chairman Boehner's request for our 
committee budget.
    While we disagree from time to time on a number of policy 
issues, there can be no disagreement about the fairness with 
which the minority has been treated in this committee and by 
the Committee on House Administration. It is an important 
change, and I think it is a change that is fundamental to how 
both sides are able to work with one another.
    You have made it easy and Mr. Boehner has made it easy to 
support these budgets now that we have that kind of allocation 
of resources. We have the autonomy over those resources to use 
them as we see fit, and that has been the experience of the 
minority in the Education and Workforce Committee.
    We appreciate this committee allowing for the technological 
upgrades. This is not a committee that has spent a lot of time 
on those issues over the past 20 years, and Mr. Boehner was 
willing to discuss those and recognize the needs, but it was 
certainly beyond our immediate budget at that time. But they 
have made a difference in the committee.
    It also allows us to inform our constituents in our home 
districts when the committee will be taking up legislation. 
They are able to view it as it is streamed and participate in 
those deliberations.
    I believe that the workload of this committee supports the 
budget request. This is a committee whose jurisdiction goes to 
the core of both parties. We will be dealing with and are 
currently dealing with welfare reform, with special education, 
with pension reform, higher education, Head Start, child 
nutrition and a host of additional issues; and I believe that 
workload and the interest by other Members in the Congress of 
that workload and our ability to respond to those Members 
supports this request.
    I am one of those who has talked to our ranking member 
about the question of space. We are one of those committees 
where the minority side of our committee is unable to fill our 
slots. We do not have a place to put people. We would hope we 
would use this committee as a conduit to talk to the leadership 
on behalf, if the majority has the same situation, but I know 
there are other minority members of the committee that have 
this situation, to see if there is a way to find additional 
space. We realize that most of the desirable space is gone, but 
this is just a simple question of housing these people so they 
can go to work and we can bring our staffing levels up to the 
full complement necessary to address the agenda of this 
committee. So I am here in support of it.
    I appreciate the manner in which this committee has treated 
our committee and I appreciate the manner in which Mr. Boehner 
has treated not only me but all of the members on the minority 
side, both in addressing their immediate needs as service on 
the committee but also with their attention to the issues of 
concern to those members. I look forward to supporting this 
request.
    The Chairman. Before we open up to questions, I do want to 
make a note on that space.
    Under the House rules, we have the authority over space; 
and, in all reality, we don't. We have some input. Those 
decisions are made at the leader level.
    It is a crisis point on space. There is no question about 
it, I mean, in these offices and other offices. And people are 
two and three to a room. We have had to take a back anteroom we 
used to be able to use for Members, and it is filled with not 
only people working there but a table that is used for other 
meetings.
    I know everybody is going through this, and I think we do 
need to have some discussions probably with the leaders to try 
to find something. I don't know where we go. These buildings, 
as you know, were designed years ago when there were far less 
people, people didn't necessarily interact with Washington, 
D.C., that much, didn't have Internet. So it is something we do 
need to convey to the leaders, to find at least something 
temporarily until some space is acquired.
    Mr. Larson. Thank you, Mr. Chairman; and, clearly, I think 
you are right on the mark with that.
    Let me also applaud the two Chairs before us for their 
stellar example of how a committee should conduct its business. 
We are particularly interested as well in the shared technology 
approach that you have utilized within your committee. I think 
it perhaps could be instructive for other committees as well in 
the long run, to save on resources as well.
    My only question again would be, that I would have for the 
two of you--and, obviously, you are supportive of the budget 
and have been a great committee. If you don't get the total 
number of your increase, I just assume that the same spirit of 
one-third/two-thirds will still stay in effect.
    Mr. Boehner. You probably shouldn't assume that, but you 
are right.
    Listen, as I said before, I sat in this room and in the old 
committee room over in the Capitol and fought tooth and nail 
for fairness. And I recall--and I mentioned this 2 years ago 
when I was here--that there was a raging debate in late 1994 
and early 1995 over how we were going to treat the new 
minority. I thought then, that we needed to allocate for the 
minority one-third of the resources and one-third of the slots 
and if we were to do anything less it would not be the mark of 
a gentleman.
    So that is when the process started of the minority to one-
third. Regardless of how well we do with the committee, I am 
not going to treat my colleague any differently. Whatever the 
numbers are, we will get two-thirds, he will get one third, and 
he'll always be fighting to get the two-thirds, I am sure.
    Mr. Larson. I appreciate your historic perspective and the 
great integrity you bring to the process.
    Mr. Ehlers. Thank you, Mr. Chairman. I just wanted to 
comment.
    I have the pleasure of serving on the Education and 
Workforce Committee. I pulled the chairman aside last week and 
said that I served on a number of committees in the House and I 
have never seen a committee that was so well run, so well 
administered as the Education and Workforce Committee has under 
this team. They both do a good job, and everything runs like 
clockwork. We have our huge debates, our distinct differences, 
but in terms of all the operations, everything flows smoothly, 
everything is done properly. It was the first committee that I 
am on to organize this year. So I have full confidence that 
what they have submitted is worthy of being funded. I can't say 
it strongly enough that it is a real pleasure to serve on a 
committee that is so well administered.
    The Chairman. Do you have any questions?
    One question I just might ask in closing, I would assume 
that if the two-thirds/one-third allocation is there that we 
would expect a bipartisan vote out of the Committee on 
Education on the floor?
    Mr. Boehner. I would expect that you can count on Mr. 
Miller and me to vote for it, and you can probably count on the 
fact that we will work the members of our committee. But there 
is no reason for this not to be a bipartisan effort, given that 
the agreement that we have come to on the two-thirds/one-third 
over the years.
    You know, if you all recall, for those of you who weren't 
here--Mr. Miller was here--this used to be a big, ugly fight 
every year. We went to a biannual process; and once we, by and 
large, got to the two-thirds/one-third, it really became a 
nonevent. But I don't expect any troubles in terms of 
bipartisan support for this effort. I used to always ask. We 
had over 360 votes last time for this, and I think the two-
thirds/one-third agreement helped things along.
    Mr. Miller. I don't think there is any question, Mr. 
Chairman, that that agreement has changed the whole demeanor 
around this side when it comes to the floor. It used to be 
viewed as an opportunity to settle a lot of other agendas. I 
think most of that has gone by the wayside.
    I would just say that at the end of your legislative 
hearings I am sure the ranking members will be meeting with Mr. 
Larson; and if people are being treated as we are being 
treated, it is our expectation that we would support this bill 
when it comes to the floor.
    The Chairman. Thank you both, gentlemen.
    While we are waiting for the next two, how about if we 
can--while we are waiting for Mr. Waxman, I wanted to mention 
our own budget proposal.
    We have submitted a budget request that totals $10,374,000 
for the 108th Congress. That is over a 2-year period. That was 
a 39 percent increase over the 107th. We currently have a total 
of 45 total slots, with the minority receiving exactly a third 
of the staff slots. So it is 30 and 15. We have requested an 
increase of nine new staff. It would be six and three--six 
majority and three minority; and, of course, the one-third 
allocation. We are the only committee that totally allocates 
all of it freely, I believe.
    I do want to mention that we have asked for increases for 
personnel, equipment, travel and administrative accounts. The 
reason I believe they are justified, in the wake of September 
11, there has been increased focus on the continuity of House 
operations, emergency planning, other security-related issues. 
It has greatly increased the workload of both the majority and 
the minority, and an increase of staff would be appropriate and 
would be required.
    We will continue to serve our Members. This is a Members' 
committee. And there is no question--as you all are finding out 
every time you go to vote on the floor of the House, more 
people will regularly come up to you and ask you for something. 
So we service the members. Maybe not always the answer they 
want, but we provide an answer to them and also with the 
tracking of the committees.
    But 9/11 created--and the staff knows who were here at that 
time--created work hours until 2 and 3 o'clock in the morning; 
and it was constant with the security. We don't hope we have a 
situation like that again. But now ideas on security issues are 
being brought to this committee that we never, ever dreamed 
that we would deal with. Again, that is part of expected 
amounts of money that would be needed.
    With that, Mr. Davis.
    Mr. Davis. Mr. Waxman is on his way and asked if I would go 
ahead, if it is okay with you.
    Mr. Larson. If I might comment by way of saying that we are 
fully supportive of the chairman's recommendation and to 
underscore what he has said with respect to the security 
concerns that have been raised both by individual staffs, by 
committee members, et cetera, just further underscores the 
importance of the committee's role.
    As the chairman points out, this is and should be and under 
his leadership has very much become the Members' committee, 
where they get to come and voice their concerns and express 
their desires to make sure it enhances the quality of work 
environment and the security that each and every one of our 
offices have come to expect. I compliment the chairman and his 
staff for the hard work that they have done in putting this 
together. Our staff has completely reviewed it and is satisfied 
with the mark.
    Thank you.
    The Chairman. I want to thank the gentleman.
    We will proceed with chairman Tom Davis and ranking member 
Mr. Waxman.

 STATEMENT OF THE HON. TOM DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Davis. Thank you very much for the opportunity to 
testify here.
    Just a little perspective on this committee. In the 103rd 
Congress, this was three separate full committees in the 
Congress. It was the Government Operations Committee, Post 
Office and Civil Committee and the District of Columbia 
Committee which, combined, had over 200 staff members. In the 
105th Congress, after combining, went to 141 staff members. We 
were down to 131 staffers in the 107th, and then down to 118 is 
where we are today.
    I want to thank you for the opportunity to testify today. 
As a new chairman, I greatly appreciate the advice and 
assistance provided by Chairman Ney and his staff in preparing 
our primary expense resolution. I also want to thank our 
Ranking Member, Henry Waxman, for his insights and suggestions 
in crafting the committee's reform agenda and our request for 
the 108th Congress. Whether under Democratic or Republican 
leadership, for the first time in the history of the Committee 
on Government Reform our minority will receive 33 percent of 
staff and budget.
    Today, 44 Members of Congress comprise the House Committee 
on Government Reform. The committee has put together a very 
aggressive agenda that includes both oversight and increased 
legislative responsibilities. Reform of the Federal Government 
is a monumental task and can appear overwhelming at first 
glance. However, I think you will see that we have put together 
a comprehensive but achievable agenda that will bring us a long 
way toward improving the efficiency and effectiveness of the 
Federal Government.
    We have reorganized our seven subcommittees and their 
jurisdictions in an attempt to focus on long-term reform 
challenges. As our oversight plan suggests we will focus on the 
following:
    As the government and our country shifts its focus in order 
to tighten our borders and increase our vigilance, this 
committee will be doing everything it can to enhance the 
government's computer and information security, something we 
have been lacking in the past. Last year's passage of FISMA, 
the Federal Information Security Management Act, was only the 
first step. We plan to closely oversee implementation of FISMA, 
including development of new OMB guidance, the establishment of 
agency testing and evaluation plans and the development and 
promulgation of information security standards.
    We are also committed to improving government procurement 
and contracting practices. Government spends $140 billion a 
year on services. We save 10 percent of that. That is real 
money as we look at the way that we procure and buy items, 
particularly in the services sector.
    I was a government contracts lawyer before I came to 
Congress. I was general counsel for a billion dollar company. 
Our staff has considerable expertise in this area as well. We 
have brought over some of the leading procurement attorneys 
from the Senate side to help us, and we intend to utilize this 
exercise to realize real reform in the procurement area.
    One of the first things we need to do is educate agencies 
about procurement practices, and our Services Acquisition 
Reform Act is intended to do just that. This bill will provide 
agencies greater access to commercial markets, particularly in 
the fields of services and technology, by educating agency 
acquisition workforces, creating chief acquisition officers and 
emphasizing performance-based contracting.
    This is so important because, today, government computer 
systems are stovepipes that within an agency can talk to each 
other but don't speak across platforms to other agencies and to 
State and local governments with whom they interact. This is a 
major problem in government; and if we can solve this and get 
to procurement practices that make this viable, we are doing I 
think a tremendous service to governance. It is not a headline-
grabbing thing, but very important for governance.
    The Homeland Security Act has a number of provisions that 
this committee intends to monitor closely, including the 
personnel reforms and the procurement flexibilities in the 
legislation. Successful implementation of these provisions 
could lead to similar reforms government-wide in subsequent 
legislation, and we intend to make sure that this happens.
    Reauthorization of the Office of National Drug Control 
Policy and international interdiction policies are also a 
factor in our legislative and oversight agenda.
    Also, we will invest considerable time and energy into 
integrating performance and accountability into the management 
practices of the Federal Government. The Government Performance 
and Results Act of 1993 celebrates its tenth anniversary this 
year. We are working with our Senate counterparts and the GAO 
to evaluate the impact of the legislation in improving 
government performance.
    We also have a number of postal items in front of us. When 
you take a look at the Post Office, it is almost 9 percent of 
the U.S. economy. The President has a commission right now on 
postal reform that should report back in the next few months, 
and we will pursue and look at the direction that is taking and 
work with Mr. Waxman in a bipartisan manner.
    And this is an issue we will have to tackle. We have major 
legislation coming to the House floor in the next few weeks 
that will ensure that we do not have a postal rate increase for 
the next 4 years.
    The oversight and investigative activities I have just laid 
out represent a drastic change from previous activities of this 
committee, but if we can handle our funds carefully, I think we 
can accomplish our goals with only a 3.8 percent increase from 
last year's allotment. From the first session to the second 
session, our request is for a 4 percent increase. Along with 
standard cost of living benefits that are required to keep an 
experienced staff, I think our expense requests adequately 
reflect the financial needs of the committee for both years. 
Mr. Waxman and I both jointly request a five slot staff 
increase for 2004 to satisfy subcommittee ranking members' 
desire for more staff.
    The request for funds in the areas of equipment, telecom 
and others is to update and enhance communications that we have 
now.
    Just to sum up, in the 107th Congress, we had 200 hearings 
in Washington, 42 field hearings. In the 108th Congress, with 
the active oversight agenda, we plan to hold even more 
hearings; and our travel budget request reflects this. Rather 
than resigning to an Inside the Beltway perspective, we feel 
that many of the committee's oversight and investigative 
activities can much more effectively be conducted through field 
investigations and hearings. A broad-based witness pool will 
give us the chance to hear testimony from Americans that are 
not affiliated with a special interest group and doing this, 
again, with close cooperation of the minority.
    In summary, I ask the members of the committee to recognize 
our agenda is more comprehensive and more vital than ever 
before. We have taken a conservative approach. I have given you 
the history. The funding of this committee has gone steadily 
down, but we think we can--with what we have we think we can 
adequately manage a very ambitious agenda.
    On behalf of the members of the committee and along with my 
distinguished colleague, the Ranking Member, Henry Waxman, we 
would appreciate your consideration. Thank you.
    The Chairman. Thank you.
    The gentleman from California.

  STATEMENT OF THE HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you Mr. Chairman, Mr. Larson, members of 
the committee. I join with Chairman Davis in supporting the 
funding request for our committee.
    In the past, I have expressed concern regarding the 
fairness of the budget process in our particular committee. In 
1995, upon taking control of the House, the Republicans said 
they were going to give each of the committee minorities one-
third of the resources. Yet for several consecutive Congresses 
following this pledge, the Government Reform Committee majority 
requested only a 25 percent share of the budget for the 
Democratic minority. The majority then used accounting gimmicks 
to inaccurately inflate its minority budget allocation.
    In the last Congress there was a shift--and I think to a 
great extent because of the work of this committee--in the 
majority budget practices, and the minority allocation 
increased. I am pleased that Chairman Davis is continuing this 
trend by asking for a 33 percent minority allocation. Moreover, 
he has been working closely with the minority in developing the 
committee agenda and conducting committee business; and I 
appreciate chairman Davis' professionalism and bipartisan 
efforts.
    But, by the way, when we talk about professionalism, that 
means consultation. It means trying to work things out and 
putting partisanship aside. I was just informed a while ago 
that the Budget Committee is looking at asking our Government 
Reform Committee to come up with $70 billion in savings. Now I 
was never consulted by the Budget Committee. I don't know if 
Mr. Davis had been consulted by them. I don't know where we get 
$70 billion of savings. Are we going to take it out of the 
pensions of Federal employees? Are we going to take it away 
from the Postal Service? It seems to me that our job is going 
to be impossible if that budget proposal goes through.
    Full funding of Chairman Davis' request is imperative. We 
are facing tremendous challenges in our committee. We have an 
ambitious legislative agenda which includes reforms of the laws 
governing civil service, property management, procurement and 
the Postal Service; and, with the exception of the Postal 
Service, these laws have not received serious congressional 
consideration in years. If we receive the resources we need and 
do our job right, we will improve the effectiveness of 
government and save the taxpayers literally billions of 
dollars, but I will tell you it is not going to be $70 billion 
unless we act and eliminate essential services.
    Besides this ambitious legislative agenda, we have vital 
oversight responsibilities. Chairman Davis has planned more 
oversight on a broad range of topics than the committee pursued 
in previous years. Hearings over the next month, for example, 
explore the risk of the file-sharing programs like Kazaa, 
contract mismanagement at the Department of Energy, on-line 
distribution of dangerous pharmaceuticals, and homeland 
security coordination in the Capital region. Each of these 
topics is vitally important and each requires significant staff 
resources.
    Besides strongly supporting the Chairman's budget request, 
I also want to bring to your attention one other issue, the 
need for additional office space for the minority staff. While 
we are now being allocated 33 percent of the staff slots, we 
are actually having difficulty filling all of the slots because 
we are running out of space to put the people. Anything that 
this committee can do to improve this situation would be very 
helpful.
    I appreciate this opportunity to come before you. I must 
tell you, it is a good feeling for me to be able to come on a 
bipartisan basis and urge this committee to adopt what I think 
is a reasonable, fair and conservative budget proposal for our 
committee to operate just to do the job that has been assigned 
to us.
    The Chairman. I thank the Chair and the Ranking Member.
    I want to make a note, we told Education and Workforce, 
space is at a crisis point in this Capitol; and, of course, 
some of the space right now is being taken due to the 
construction at the Visitors Center. Even with that, these 
buildings were designed years ago. As I pointed out to the last 
Chair and Ranking Member, you know, 30, 40, 50 years ago, 
people didn't necessarily travel to D.C. as much. There wasn't 
an Internet. And now America, thank goodness--these are open, 
they are televised, Internet. It also causes a definite need 
for staff and a certain workload for all the committees because 
they do important things that people care about across this 
Nation, frankly, and part of the world.
    We have got some jurisdiction, but, technically--on a 
technical basis, the decisions are made at the leaders' level. 
I think Members of this committee on both sides of the aisle 
will try to find some kind of space, because it is bad 
everywhere. So it is well noted.
    Mr. Larson. Let me echo the sentiments of the chairman. I 
don't believe there are too many staff people from whom we 
haven't heard where space is an issue. And what the chairman 
has articulated, this is an effort we will take up with 
leadership, though not completely under our direct 
jurisdiction, although it says so in the rules.
    Let me also applaud the two of you for your outstanding 
work in Congress, and Mr. Waxman, especially. Sometimes we are 
humbled by your experience and depth of experience and also the 
historic perspective that Tom Davis brings to every encounter 
he is in and your bold agenda. Moving that agenda outside the 
Beltway is one that I think would be commended. Hopefully, more 
committees, though they don't have quite the agenda you have, 
follow that example as well. There, again, that points to the 
need for more funding and the need for staff and spending as 
well. So, you know, we certainly concur with your efforts.
    I especially want to applaud you for the issue of 
commonality of communication, which I know is near and dear to 
your heart, especially within the Beltway, and the homeland 
security issues that represents, as we hear from Eleanor on a 
regular basis with regard to that as well. I thank you both in 
that spirit. I have been asking all the chairmen this, without 
being too redundant, again, we are so grateful for the work of 
this chairman and the way that he has established and been firm 
on the one-third/two-thirds rule, but in the event that we 
don't get what we want, I assume----
    Mr. Davis. That allocation number will be the same.
    Mr. Larson. What President Kennedy used to say when he 
quoted Peter Finley Dunne, said, trust everyone but cut the 
cards. So those are the kind of questions that have to be asked 
in those situations.
    But thank you, Mr. Chairman, for your integrity and Mr. 
Waxman for appearing here today.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. It is 
indeed a pleasure to know that the contentious aura by which 
the Government Reform Committee has once been seen across this 
country has now abated and that we come together in the 
commonality of serving the people through the Government Reform 
office--or Committee, I should say.
    I am interested to--and I must applaud you, Mr. Chairman 
and the Ranking Member, for saying that you have had so many 
field hearings. Because it is important that folks who are 
unable to travel to Washington get an opportunity to speak on 
issues that are so relevant to this committee, and it is 
important for you to be in the field. I would like to recommend 
that one of your first hearings be in my district so that we 
can have the people draw from the expertise of both of you, the 
collegiality that they have not seen in the previous 
committees.
    I also thank you for informing us that the Postal Service 
increase--we will not service Postal Service increases, and I 
hope not, because----
    Mr. Davis. We will see service increase but no rate 
increase.
    Ms. Millender-McDonald. Well, that is good news, because 
each time we try to go about getting anything through Postal--
our post office, there are certain increases that are done, and 
so we are hopeful--grateful for that.
    Mr. Chairman, it seems that if this is going to become a 
sweet refrain with both the Chairs and the Ranking Members 
coming forth on this office space, would it be in our purview 
to send a letter to leadership saying that this has been a 
constant request by the Chairs and Ranking Members? Is that 
something we can possibly do?
     The Chairman. To answer the gentlelady's question, I think 
it is something we can definitely note to them. There are some 
ways that we can get together as committee members to discuss 
some options, at least some temporary relief.
    Homeland security is coming up. Not only is that brand new 
to our entire budget process that we have been given that 
duty--which is important--where are they going to be at? Where 
are they going to put them? So that has to be settled.
    But I think some temporary measure. I understand these 
buildings are full. Maybe we can, Congresswoman, come up with 
some ideas and bring it to the leadership.
    Mr. Brady. Just a thought out loud that the Chairman and 
the Ranking Member are a little happy about with the 
cooperation of the Budget Committee. I think they really have 
arrived when they asked you for their cooperation when they 
have a $70 billion surplus.
    Mr. Waxman. If they are going to give us instructions, 
which is what happens under the budget process, for a committee 
to make cuts, I can't see why they wouldn't have talked to even 
the chairman of the committee, let alone the Democrats on the 
committee, to get some sense of what that might mean. No postal 
increase--well, I don't think we are going to have a post 
office if we have to make cuts of that magnitude. I want to 
find out more what they have in mind. But the idea they would 
be putting something out like that without talking to us is to 
me the most troublesome aspect.
    The Chairman. Any other questions?
    I thank you.
    Next up is--we can take Mr. Young.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Mr. Oberstar is on his way, but I am going to 
suggest--I am not sure if you are interested in it or not, but 
some of you may want to have your pictures taken at 1 o'clock.
    Mr. Oberstar has cleared this. We have worked together, and 
I believe we are on the same wave length, and I won't speak for 
him. We just left a press conference.
    But, Mr. Chairman, I do thank you and members of this 
committee. I am honored to be before you.
    The Committee on Transportation and Infrastructure, as you 
know, is the largest committee in Congress. Members of Congress 
want to serve on this committee because it addresses the needs 
of their constituency and helps build a modern transportation 
system for our Nation which I think is crucially important for 
the continued growth of this Nation.
    In recent years, we have seen the quality of life slowly 
eroding, like paint peeling from a girder of a rusted, time-
weary bridge. Our State and local governments are straining 
under the burden of growing population and congested roadways. 
We lose approximately $70 billion a year because of congestion, 
down the drain; and if we don't try to improve this 
transportation system, we will lose more and the economy will 
in fact be hurt.
    All our transportation systems are crucially important, 
including water, air and highways, train, mass transit; and, of 
course, the ability for moving passengers on fast rail is very, 
very important.
    Our committee also handles the water and sewer systems in 
this country. We are going to pass a water bill this year which 
is crucially important; and, very frankly, if we don't do it, 
we are losing more water today than we are consuming, again 
because we have not kept up with this program.
    We need the resources. I am not going to sit here and say 
we have the ability to do these things without these resources. 
We are going to reauthorize the highway and transit, aviation, 
water resources programs. That means field hearings.
    We have six subcommittees: Subcommittee on Aviation, 
Subcommittee on Coast Guard and Maritime Transportation, 
Subcommittee on Highways, Transit and Pipelines; Subcommittee 
on Economic Development, Public Buildings and Emergency 
Management; Subcommittee on Railroads; Subcommittee on Water 
Resources.
    We also have oversight and investigations efforts underway 
again.
    Additional resources are essential to maintain our long 
history of providing excellent service to our Members, of 
producing thoroughly researched and effective legislation, and 
of attracting and maintaining highly qualified staff.
    I know you have heard this many times before, but I think 
we have one of the finest staff on both sides of the aisle of 
any committee. And this is a very bipartisan committee. I think 
you can check with Mr. Oberstar. We work well together. We 
don't always agree on all things, but we work things out. 
Rarely have we had a vote that has really been contentious. We 
try to solve problems ahead of time.
    Last year we have been through things we never foresaw.
    As far as legislation, we had to pass the TSA legislation 
which is not my shining light, by the way, but it was required; 
and we are trying to review that under Homeland Security, the 
new select committee which I serve on. But we also passed the 
Airline Stabilization Act, the Port Security Act, the Railroad 
Retirement Act; and we were really busy last year because we 
didn't know that some of these things were coming up. But the 
committee rose to the occasion, the staff rose to the occasion, 
and I believe we have a fine outfit.
    Our increased funding request for travel as a result of 
planned field hearings again is very, very important. Our 
respect for $8.7 million in 2003 and $8.9 million in 2004, for 
a total of $17 million, is what we need to carry out our 
legislative and oversight functions of this Congress.
    And I want to thank our good friend and colleague--he will 
come here eventually--Jim Oberstar. We continue again, as I 
said, to work very close in a bipartisan effort. Congressman 
Oberstar and his staff have been helpful in developing the 
proposed budget, and I appreciate his assistance.
    While I cannot foresee the future, the next 2 years offer 
the twin promises of great progress and great challenge. We 
expect them to be busy, productive and ask that when you will 
be considering our funding request, also consider the 
additional resources required for the largest committee in the 
108th Congress. I believe this has been submitted to you. I 
won't go over it. You have seen the request, and I want you to 
consider it.
    This is a committee that has an outstanding record of 
achieving goals in a bipartisan way. I had another committee 
such as this committee in the old Merchant Marine and Fisheries 
Committee. That was a committee that never lost a vote on the 
floor. We always solved the problems prior to coming to a vote 
in the committee. We did have people dissenting, but there was 
a bipartisan majority of both Democrats and Republicans. When I 
was in the minority, Democrats treated me very well. This is 
sort of carrying on the tradition of the Committee on 
Transportation and Infrastructure.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. I want to thank the Chair; and then what we 
will do is, after questions, move on to Small Business. When 
Mr. Oberstar comes in, we will just have him come up.
     Mr. Young. If he says anything different than what I have 
said, let me know.
    The Chairman. You are also my chairman, and I enjoy serving 
on your committee. I think you do a fine job. And it is getting 
a little more difficult. Some of my roads are a little more 
bumpy in Ohio, and maybe we can make out a smoother ride to 
D.C.
    Mr. Young. I am willing to listen to everybody's 
suggestions.
    The Chairman. And everybody will have one. It is a well-run 
committee, and it has been a pleasure to be on it.
    Mr. Larson. Thank you, Mr. Chairman; and let me as well 
applaud Mr. Young and Mr. Obserstar for your long-standing 
reputation of working in a bipartisan manner to accomplish the 
collective goals of the United States of America and forwarding 
what are important infrastructure issues for this country.
    Your plate, as you indicate, is full. Your agenda is both 
ambitious but laudatory, especially given these times of 
national concerns and infrastructure concerns as it relates to 
getting our people to and from their destinations and keeping 
the flow of commerce at a level that will only help to assist 
and propel our economy as we move forward.
    We have spoken with Mr. Oberstar who also sings your 
praises for the kind of cooperation and work. We may disagree 
on some issues, but, as you say, you work it out. So that 
stands as a model for a way to get things done here.
    The question I have asked all the Chairmen--and Chairman 
Ney is to be credited for, as you point out, the way you were 
treated. He is treating all committees fairly with the two-
thirds/one-third allocation.
    The concern is and the question we have asked--and I hope 
you appreciate the spirit of the question--if for some reason 
we don't get all the funding that you like and request, is it 
your intent to still keep the one-third/two-thirds 
distribution?
    Mr. Young. It is my intent to keep the one-third/two-thirds 
allocation.
    Mr. Larson. I thank you for the continued integrity you 
bring to the process.
    Ms. Millender-McDonald. Mr. Chairman, I would just like to 
speak highly of Chairman Young and Ranking Member Oberstar, of 
which I serve on this committee, for their bipartisanship. Not 
all the time do we agree on everything, but it appears to be--
and from the standpoint of the public and the public's interest 
in transportation, they are very pleased.
    I can speak from California, because we have lots of 
Californians this week. I can say the staff on both sides, when 
the Californians come to town, they take the time to visit with 
them. So that is really an asset that we have in the 
Transportation Committee, that you take the time to meet with 
Californians who are coming here to seek some type of guidance 
as we prepare for the reauthorization of T-21 and also AIR-21.
    I thank you so much, Mr. Chairman; and whatever they want, 
give it to them.
    Mr. Young. If I could make one side comment. Keep in mind 
this is going to be a very interesting challenge, because there 
are those who don't want to have the appropriate amount of 
moneys to do the program.
    I am pleased. I believe that the budget committee has 
reached agreement with us that they will give us the ability to 
go out and try to sell our program to raise the money. That is 
going to take heavy lifting, but this is a necessity for this 
country. Our transportation system is in a deplorable state. We 
have made progress, but we have a lot further to go.
    We throw away $70 billion a year just in congestion alone. 
At four tanks of gas for every car that should never be spent 
for just sitting still, you have four tanks of gas at $2 a 
gallon, and are talking about $300 wasted. That is not good 
economics. That is not the right thing to do, and we have to 
address that.
    The Chairman. Any other questions?
    We will move on to Small Business. Welcome.

 STATEMENT OF THE HON. DONALD A. MANZULLO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Manzullo. Mr. Chairman, Mr. Ranking Minority Member and 
members of the Committee on House Administration, I am pleased 
to testify in support of our funding request to cover the 
expenses of legislative initiatives, studies, technical 
upgrades and oversight investigations of the Committee on Small 
Business for 2003 and 2004 in the amounts of $3,006,329 and 
3,211,884 respectively.
    The committee will be working on critical issues impacting 
small business. The committee will continue its role as an 
advocate for small businesses, ensuring small business 
interests are defined and taken into consideration during all 
stages of development of public policy and legislative 
initiatives.
    Legislatively, the committee will work on reauthorizing the 
programs of the SBA this year. In addition, the committee plans 
to look at other critical issues including but not limited to, 
increasing small business participation in Federal procurement, 
reigning in the spiraling cost in health care for small 
businesses, tax and regulatory relief for small businesses and 
opening up more avenues for small businesses to access capital.
    In addition, we are going to have a series of at least six 
hearings involving the loss of manufacturing base in America 
staring with the hearing on March 26th, as to why the Air Force 
is buying titanium from Russia as opposed to the three American 
firms--two in Ohio and one in Western Pennsylvania causing the 
destruction of hundreds, if not thousands, of jobs. It is going 
to be a series of very contentious hearings. But it is 
absolutely necessary because if we don't try to reestablish the 
manufacturing base in this country, we are not going to have 
much of a country left. And that is why we are asking for an 
increase because of the tremendous amount of work is being done 
in preparation for these hearings.
    Finally, the committee will have a particular focus on 
revitalizing our Nation's small manufacturing base. Despite our 
increased legislative pace and our aggressive agenda, the 
committee funding resolution represents a serious effort to 
keep committee spending in line without compromising our 
mission. As in previous years, the minority's requests have 
been incorporated into the committee budget proposal.
    The committee has a history of bipartisan cooperation, a 
tradition that has been continued ever since I became chairman. 
The committee has passed its rules, its oversight plan and 
adopted views and estimates of the President's fiscal year 2004 
budget request. Since the Republicans gained the majority, the 
minority has received one-third of the committee staff slots 
and control over third of the personnel budget. I intend to 
maintain these ratios during the 108th Congress. By comparison, 
during the 103rd Congress Republicans, then the minority, 
received 22 percent in 1993 and 25 percent in 1994 of the 
personnel budget.
    Of the majority staff positions, there are three 
administrative, nonpartisan in nature: The chief clerk, who 
handles hearing arrangements; the systems administrator, who 
oversees the maintenance of the committee Web site; the finance 
clerk, who looks after all committee finances. Unlike some 
other committees, we count these positions against the majority 
staff allocation. As in the past, the committee will see the 
resource needs of minority are met. In fact, all their 
requested needs have been incorporated into this budget 
resolution, including a long-standing request for an additional 
staff slot.
    My predecessor ran this committee in a fiscally responsible 
manner in the 106th Congress, and I intend to carry on the 
traditions to ensure the resources are available to support the 
committee's mission. With the proposed spending increase in H. 
Res. 83 may appear large at first, this committee is still the 
second smallest in terms of personnel and funding in terms of 
any standing committee in the House. Yet this committee 
oversees and has direct responsibility, not just for the $800 
million spend by the SBA, which leverages over $20 billion in 
lending to small businesses, but also for the $50 billion spent 
by all Federal agencies to purchase goods and services from 
small businesses across the country.
    As the committee will recall it was the Small Business 
Committee that held 4\1/2\-hour hearing, wherein the Army had 
contracted with several foreign nations to manufacture the 
black beret for our fighting men and women. As a result of 
bipartisan effort, we canceled most of those contracts, 
returned the Army, at least for that contract, to following the 
Berry amendment, and thus restored hundreds of U.S. 
manufacturing jobs.
    We will continue to have more hearings on why our own 
government isn't following our own procurement requirements and 
as we do that, that helps restore jobs to our manufacturing 
sector. When you compare the jurisdiction of the Small Business 
Committee to other similar committees, like Veterans Affairs or 
Science, which have more staff and a higher committee budget to 
oversee agencies with smaller budgets, H.R. 83 simply attempts 
to bring some equity to the situation.
    I see that my time is up here. And I will take any 
questions.
    The Chairman. Thank you.
    We will now have testimony of the ranking member, Ms. 
Velazquez.

  STATEMENT OF THE HON. NYDIA VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Mr. Chairman, Ranking Democratic 
Member Larson, and members of the committee. I am grateful for 
the opportunity to testify before you today regarding the 
budget request for this Committee on Small Business in the 
108th Congress. Mr. Chairman, one of the things that makes our 
economy truly unique is the critical role that small businesses 
play in job creation and overall growth. In times of recession, 
corporate America sheds jobs, while small business creates 
them. In short, small business is big business in America.
    Chairman Manzullo has set out an aggressive agenda to help 
the most important economic driver in this Nation: Small 
business. First, we will undertake the most sweeping overhaul 
of the SBA in over a decade. Our committee also oversees the 
Regulatory Flexibility Act, which requires agencies to consider 
the impact their rules have on small businesses. Last year 
there were several high profile proposals and regulations that 
did not comply with RegFlex from agencies like EPA, CMS, and 
the IRS. And this year I expect to see more. It is these big 
issues that will consume much of our time.
    As the ultimate generalist, our committee is like no other 
in Congress. We have to know about and advise on trade and tax 
policy with the same expertise as the Ways and Means Committee. 
We have to understand worker training and health care as well 
as the Education and the Work Force Committee, and be experts 
on our Nation's financial markets, much like the Financial 
Services Committee.
    What this means is that our committee must assemble a team 
of experts, which takes funds to attract and retain them. Even 
in today's weak economy, whether it is a young lawyer or an 
individual with years of experience, they can all command 
salaries upwards of $100,000. This reality is reflected in the 
fact that the majority of our budget needs are in the salary 
department.
    This budget will also help the committee make up for lost 
ground from previous Congresses when the funding provided was 
clearly insufficient. I fear that if we fall any further 
behind, we will not be able to serve our members, or this 
country's small businesses.
    We are also requesting an increase of three slots, one for 
the minority and two for the majority. This is critical to 
bring on a paid professional staff to focus on entrepreneurial 
development, since more than one-third of the SBA focuses on 
these programs, including the small business development 
centers, women's business centers, one-stop capital shops, and 
the Veterans Assistance Program. Currently, this area is split 
among staff, staff who manage other small business issues such 
as tax, health care, pensions and technology, as well as our 
primary jurisdiction over the Regulatory Flexibility Act.
    It is an immense responsibility that due to competing 
requests doesn't always get the due diligence that is required. 
There is also a need to clarify a misconception that has 
existed since I became ranking Democratic member. One of the 
rationales for the limited number of slots, 31, was that the 
minority's administrative needs are handled through the 
majority's administrative staff. While there is a good flow of 
information between our offices, the fact is that given the 
realities of our operation, we have had to use one of our slots 
for an administrative position, making the need for another 
slot all the more pressing.
    The additional funding and slots will allow us to address 
these issues and will bring the committee in line with other 
committees in terms of staffing, like Veterans Affairs. Even 
with the addition of 3 slots, our aggressive agenda will expect 
us to do more with less. That is why the other requests 
contained in this year's budget are for additional resources 
that are not at the committee's disposal. If we are to get by 
with a low staffing level, then we must have the right tools. 
The budget request includes funds for important research items 
like Lexus Nexus, Congressional Quarterly, and various critical 
industry journals that the committee, due to budget constraints 
has never been able to afford.
    There are also technology upgrades for equipment and for 
our Web sites. Mr. Chairman, I know that you are aware of how 
invaluable the Internet has become for our constituency. Many 
times our Web sites are the best source of information for 
small businesses to gain an understanding of how Federal policy 
impacts them. We do not have a person dedicated to handling Web 
site design and maintenance. This task is not only time 
consuming, but also requires a high level of expertise. Given 
this, we are also requesting funding to hire a consultant to 
revamp and maintain our sites
    Mr. Chairman, in closing, I want to thank you and Ranking 
Democratic Member Larson for this opportunity. If we are going 
to climb out of the current recession, small businesses will 
have to play a critical role. We can help them, but our 
committee needs the resources outlined in this budget request. 
I hope that you both agree. In this way we can best serve the 
backbone of this Nation's economy. Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady from New York and the 
gentleman from Illinois.
    Questions?
    Mr. Larson. Yes. Thank you, Mr. Chairman. Let me compliment 
you on your aggressive agenda moving forward. I share your 
concerns with respect to manufacturing and I especially, again, 
appreciate the manner in which, in talking with staff, the 
minority has been extended the kinds of one-third/two-thirds 
opportunity that is essential for us to function appropriately.
    Representative Velazquez, let me also again compliment you 
on the outreach work that you have done, especially for women 
and minorities. I know how important that is not only to my 
district, but to every district around the country. As both of 
you have stated, your committee is the backbone and will 
provide the impetus for any economic recovery that we 
experience. My question, I have asked this of every person that 
has come before us both from the Chair's perspective, in the 
event you don't get everything that is asked for in the budget, 
is it still your objective to have a one third/two third?
    Mr. Manzulla. Absolutely.
    Mr. Larson. Representative Velazquez, I know last year 
there were some concerns in reading through some of the notes 
that you had with respect to this. You have obviously seen 
changes.
    Ms. Velazquez. Yes, there have been positive changes. And 
my office was consulted and we were able to provide input into 
the whole drafting of the budget process. The only area where I 
need to see some improvement is for the minority staff to be 
able, and myself, to look at the budget submission once it is 
submitted. And that didn't happen. And we were allowed to go 
into the office and look at the budget submission for 2 hours, 
I guess, and by doing that, we were able to catch a mistake 
regarding minority staff of $100,000. And I will suggest that 
next year and the following years, we are allowed to look at 
the budget submission once it has been submitted.
    Mr. Larson. Thank you.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, ranking 
member, it is good to see my Chair and my ranking member, of 
which I serve as a ranking member on a subcommittee for this 
committee. This is an absolutely incredible committee because 
this committee has gone beyond the pale. They are reaching out 
to minorities like never before, thanks to the ranking member 
Nydia Velazquez, and also the sensitivity to the chairman, in 
allowing this type of exchange to happen.
    We are very grateful to both of you for trying to extend 
the manufacturing base. We do know that is where jobs come 
from. And as you have both said so eloquently, the job creation 
is the manner about which small businesses operate, and they 
are the ones who really create more jobs. So, again, Mr. 
Chairman, I am very pleased, I was going to raise the question 
that my ranking member has raised, and now that you seem to be 
pretty much satisfied with the manner by which this process has 
taken place, I would say just, Mr. Chairman, give them what 
they want. That is what I said for the Transportation 
Committee, so I will say that again.
    Mr. Manzullo. If I could add this footnote. Our request 
would bring the Small Business just over the level it was 
funded at in the 103rd Congress, making up for the 34 percent 
cut we received in 1995, the next Congress. So it is really 
restoring back to where we were before. In the last year, we 
held at the full committee level, I think it was 51 or 52 
hearings. With the exception of the first hearing which was the 
organization meeting, those hearings, Mrs. Velazquez and I, I 
think, agreed on almost every issue that we were involved in.
    Ms. Velazquez. Mr. Chairman, if I may, I just would like to 
echo what the chairman is explaining here. We got in, regarding 
the funding level of 1993. Please make a note that our 
committee never recovered from that funding level of 1993. And 
believe me, it is wonderful to hear my members and every Member 
of the House of Representatives go out there and praise small 
businesses but, you know, we need to continue to create growth 
in our economy, and the only way to do that is by providing the 
resources that we need to do our job.
    The Chairman. Any other questions?
    Mr. Brady. Yes Mr. Chairman. I would like to thank the 
chairman and the ranking member for the courtesy and the 
cooperation that they showed me while I was a member on that 
committee. I want to thank you.
    Mr. Manzullo. We miss you guys.
    The Chairman. I want to thank the chairman and ranking 
member. We will move on. Thank you very much. We will move on 
to Mr. Oberstar, ranking member of Transportation, which I 
serve on the committee and enjoyed my time working with Ranking 
Member Oberstar. With that, Mr. Young has been in and said that 
you know, he echoes, or you echo everything he said. So it is 
yours.

   STATEMENT OF THE HON. JAMES OBERSTAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Oberstar. Thank you. We miss you from our committee, 
Mr. Chairman. And I am sorry to be delayed. I got the wrong 
starting time for this event and I checked and they said you 
are running behind. At any rate, I do support the budget that 
the chairman has submitted. And frankly, he called it a modest 
increase, I would call it a meager increase. We need the money 
to provide a cost of living adjustment for our staff and to pay 
as we have done on each side incentive bonuses to reward 
superior performance. We also have to keep our technology up to 
date with the changes that occur so we can process these 
volumes of data that pour into this committee on all the 
programs over which we have jurisdiction, and to conduct both 
Washington and field oversight hearings, which members are 
beseeching us to conduct throughout the country.
    I heard Chairman Manzullo talk about the treatment of the 
minority in the 1993 and 1994 years. Our committee has always 
operated on a basis of fairness, and in fact, before the one-
third rule was adopted, I was administrator of the Public Works 
Committee staff, I just talked to the Republicans and said what 
do you need. And then we went to the House Administration 
Committee and got the funds that they needed to do their job, 
and that the majority needs to do its job. We have continued 
that bipartisan spirit in the Committee on Public Works over 
all the years. We don't have our own budget for travel and 
equipment. That is not new. That preceded the Republican 
majority, but just as in the past where we treated the 
Republicans fairly, they have treated the Democrats fairly.
    So I have no concerns about how those expenses will be 
distributed. But to justify that, just think of where we are, 
we will have $500 billion in authorizations to accomplish in 
the 2 years of this Congress; the $375 billion Federal highway 
and transit program, 45 to $50 billion for aviation; we have an 
$80 billion high speed rail program; passenger inner city rail 
that we reported out of subcommittee doesn't get to the House 
floor last year, we are determined to bring in this year; $5 
billion for Coast Guard, another $4 billion for homeland 
security; 4\1/2\ to $5 billion Water Resources Development Act 
and all the programs that you were familiar with, and Ms. 
Millender-McDonald is familiar with.
    And an interest that you and I share, Mr. Chairman, and 
that is steel. The Buy America provision that we include year 
after year, that I initiated in 1982, has meant 40 million tons 
of American steel going into the Federal Aid Highway Program. 
If we achieve the levels of increase in investment that we are 
seeking to create for the highway and transit system that will 
mean nearly 3 million tons a year of American steel going into 
the Federal Aid Highway Program, every year for the next 6 
years, all American steel, every guardrail, every fence post, 
every I beam, every rebar that you see in highways in America 
is American steel. It is not foreign steel.
    And we have got to tighten those restrictions on our 
transit system to ensure that we get an even higher 
participation in transit. We had lost so much overseas. If we 
go ahead with the high speed inner city rail system, that will 
mean another million to 2 million tons a year of American steel 
going into the rails that are needed to build that system. We 
have a lot at stake in our respective districts as well as for 
the good of this country. All of those programs mean improved 
productivity, reducing congestion, and reducing the cost of 
logistics in our national economy.
    Fifteen years ago, logistics consumed 16 percent of our 
gross domestic product. Today, because of the investments we 
have made in highway and transit system, logistics consume 10 
percent of our GDP. That is a $600 billion savings a year to 
our national economy because of the programs that we have 
crafted in our committee. We need the funding for our staff to 
continue to do that high level professional service to America. 
We thank you for your consideration.
    The Chairman. Thank the ranking member for testimony. 
Questions?
    Mr. Larson. Let me also thank the ranking member and leader 
in the infrastructure issues that face this country. Chairman 
Young, as was pointed out by our chairman, testified earlier 
and spoke eloquently about the bipartisan cooperation and how 
well the committee has worked, and especially with its emphasis 
to both enhance commerce across this country and transport 
Americans to and from work and across this country and whether 
by rail, whether it by air, by water or by automobile or 
highway.
    Again, the committee is to be commended, and Mr. Chairman, 
you are to be commended for your emphasis here. We applaud the 
works and the committee in the way that you are able to obtain 
by partisan cooperation. And I just assume from your remarks 
that you are quite satisfied, however meager, with the increase 
in the budget.
    Mr. Oberstar. Thank you. Yes, indeed.
    Ms. Millender-McDonald. Mr. Chairman, thank you and ranking 
member. Mr. Oberstar, as we have all said before you got here, 
kudos to you, and the Chairman, for the bipartisan way in which 
you run the committee and the efficiency by which you and the 
expertise that you bring to the committee, but the overall 
committee and how it is run is a credit to both of you. I serve 
on the committee and I have enjoyed serving on the committee. 
When you speak about the 4 million tons of steel, and we know 
that a lot of our steel companies are going out of business, 
can we then--are you suggesting that the steel that will be 
included in transportation projects around this country will 
still be U.S. steel, given the fact that a lot of the steel has 
been coming from other countries, especially China?
    Mr. Oberstar. Yes indeed. The Federal Aid Highway Act 
requires American steel to be used in our Federal aid highway 
system. As you drive along the highway system in California, 
look at the guardrails; that is American steel. Look at the 
fence post that enclose the right-of-way; that is American 
steel. The reinforcing rod that goes into the concrete base; 
that is American steel. Look under the overpasses as you go 
along and you see the I beams; that is all American steel. It 
is required. It is part of our law it says it will be American 
steel.
    Ms. Millender-McDonald. That practice will continue in 
light of the fact that a lot of our steel companies are going 
out of business?
    Mr. Oberstar. We won't get a bill out of our committee.
    Ms. Millender-McDonald. I love it. The oversight hearings 
that you speak of, and certainly I would like to put my first 
bid in for one in my district, are you suggesting to us that 
the travel funds have not been extended to the minority side? 
Or can you further explain that?
    Mr. Oberstar. We don't control the separate travel budget. 
And that is--if we make a request of the chairman, he has 
approved for the member to travel on official business as part 
of another delegation. For example we have worked that out. 
That hasn't been a problem. But when we do congressional field 
hearings, they are jointly approved in our committee.
    Ms. Millender-McDonald. So it is applicable?
    Mr. Oberstar. Yes.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. I want to thank your for your time and your 
testimony before the committee and the job you do in the 
committee. Also there was a great bipartisan vote for this 
funding resolution on the floor. We appreciate that. I would 
assume it would have support, I would hope on the measure.
    Mr. Oberstar. You give us an adequate budget, we will get 
an adequate vote.
    The Chairman. That is an adequate answer.
    Ms. Millender-McDonald. Just one thought. Mr. Young stated 
that if the budget does not have the funding that we need to 
move on the various projects, and I know again staff has met 
with a lot of Californians, which we who are here, are 
concerned about in terms of the reauthorization of TEA-21. He 
says that he hopes that we can go outside and sell the 
products, sell the bid for this funding for the transportation 
bill? Is that something that you are and will be, I guess you 
feel that this is something that we should do and will do?
    Mr. Oberstar. Yes, indeed. We have started at the beginning 
of the year. We had a major gathering of all the groups who 
support transportation from transit to rail to aviation, and 
not only the contractors and builders and the public agencies, 
but also the labor organizations and the building trades and 
the steelworkers union, and others came together. And we had 
another gathering about 2 weeks ago, rallied the troops and get 
them to support our $375 billion program.
    We had a news conference just prior to this event 
announcing the results of two separately conducted public 
opinion polls that showed two-thirds of the American public 
support an increase in the highway user fee, if that money goes 
into highways and transit. And that means maintaining the fire 
walls and the guaranteed account to ensure that those dollars 
do go into the purpose for which the user fee is collected. And 
we have seen the benefit of it.
    In the last 5 years because of the guaranteed account, we 
have invested $135 billion in highway and transit programs in 
just 5 years. In the 42 years of the Internet Highway Program, 
we invested $114 billion. We have done more in 5 years than we 
did in 42 years of the Internet Highway Program because of the 
guaranteed account, because of the fire walls, because those 
dollars collected at the pump go into highway projects as you 
leave the gas station. And the people see that they believe it. 
That is a matter of stewardship. And we are good stewards of 
those dollars entrusted to the highway trust fund.
    The Chairman. Thank you. Any other questions? I want to 
thank you for your time again and thank you for what you have 
done for the steel.
    Mr. Oberstar. Thank you, Mr. Chairman.
    The Chairman. We move on to Ways and Means. And we have 
Chairman Thomas, chairman of the Ways and Means, and here for 
ranking member Mr. Rangel is Mr. Stark of California. And we 
welcome the chairman.

   STATEMENT OF THE HON. WILLIAM THOMAS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Thomas. Thank you very much, Mr. Chairman. I have a 
written statement and would request unanimous consent that it 
be placed in the record.
    The Chairman. No objection.
    Mr. Thomas. By the way the room looks real good.
    The Chairman. Especially if you look behind you. A very 
nice piece of art.
    Mr. Thomas. This hearing room was the District of Columbia 
prior to its early demise.
    What my written statement says is that true to the 
commitment when we were in the minority, if we ever became the 
majority, it would be a two-thirds/one-third split. Not just in 
staff, but in total resources. In an attempt to deliver on 
that, when we acquired the committee in the last Congress, 
there were 10 shared staff. We have gotten that down to five, 
and actually only four, although there are five slots, one will 
not be filled and we have reduced that primarily by attrition. 
The request I think is a modest one. I have been amused at some 
of the percentages coming in, having been in this business for 
some time.
    The Ways and Means Committee is requesting over a 2-year 
period an amount that equals to about 12 percent. That is 
primarily in the additional two staff that we are requesting. 
If you examine the workload of this committee in terms of the 
entire revenue code, trade legislation, Social Security, Part A 
and half of part B on Medicare, we produce a significant 
portion of the legislation that is essential. And some would 
say not as essential as we think it is. But in comparison to 
the workload that this committee puts out. In terms of the 
number of staff that we have, the number of members that we 
have and the resources we request of you, I believe that this 
is an extremely reasonable and appropriate budget. We do not 
have at the current time a two-thirds one-third space 
relationship. It is less than 30 percent. We have several 
options available to us, but because of the homeland security 
changes now going on in this building, we do think that before 
this session is out, and hopefully for sure before the Congress 
is out, that we will be able to either reallocate or obtain 
space that moves us essentially into the two-thirds/one-third 
allocation of space as well, then we would be totally two-
thirds/one-third basis for staff resources and space. Regarding 
staff and resources, that amount is allocated to the minority 
in a lump sum, which they can distribute as they see fit in 
terms of their decisions, not in categories that we impose upon 
them. With that, I will await any questions.
    The Chairman. Mr. Stark.

 STATEMENT OF THE HON. FORTNEY PETE STARK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Stark. Thank you, Mr. Chairman. Congressman Rangel 
regrets that he is unable to be here and requested that I 
appear before you on his behalf to fully support the Ways and 
Means budget request. It was approved in our committee by 
unanimous consent, and we were consulted as the budget was 
being developed and had the opportunity for input. As the 
chairman indicated, we think it is about an 11.6 increase for 
the 108th Congress. Our needs are similar to other committees 
as was pointed out. Almost all of this, I think, goes for 
existing salaries and for the two additional employee slots. I 
would join with the Chair, and I know that the question of 
jurisdiction on this is sort of hazy, but space almost becomes 
more important to any of us than the actual staff slots. We are 
fortunate on both sides of the aisle in our committee to have 
Robert Wood Johnson fellows who bring expertise that we 
couldn't begin to afford, but we can't find room for them to 
sit.
    It is literally that bad. To the extent that any of us 
together can work on creative use of space, or redesign of 
space, I think it would go a long way to help us all and help 
all of our staff who work too long for too little money. But I 
would join with the chairman in supporting this request for our 
committee and ask for your serious consideration to support it, 
as well.
    Mr. Thomas. Prior to any questions, I do want to underscore 
the fact that you recently visited our committee room, which is 
a very nice committee room, but frankly the audio system 
desperately needs an upgrade. We have no video whatsoever. I am 
not speaking as the Chairman of the Ways and Means Committee. 
1100 Longworth is the alternate floor for the House of 
Representatives. We have no redundancy and no digital 
capability. If 1100 Longworth were to function as for whatever 
reason, a period of time the floor of the House of 
Representatives, it is woefully inadequate in terms of what 
would be considered appropriate and normal audio and video 
capability.
    I know we are going to begin to move forward, hopefully 
during the August recess in this regard. But it is something 
that concerns me even more now in the current context of 
alternate use sites than it did a year and a half ago. It was a 
fallback that was not contemplated to be really a serious one, 
but now I think you have to look at the fact; what would you do 
if you ran the floor of the House out of that room for 2 or 3 
months. Thank you very much. I will await any questions.
    The Chairman. I will note, I did testify there and of 
course, these mikes are about, are about the same style and 
type of mike, and there is a definite need for improvement. And 
also, of course, when it came to Ways and Means and the size 
and significance of the room and alternative use, we do have 
that study that we actually had to go into because it is a 
little bit more complicated on that room and we would expect 
some things to be able to be done.
    It is going to take--hopefully by the August recess, and we 
will work with you for that.
    Mr. Thomas. Thank the Chair.
    The Chairman. I have no questions.
    Mr. Larson. Thank you, Mr. Chairman. Mr. Chairman, let me 
echo your concerns as has been expressed to us by members of 
the minority on the minority staff on the committee with regard 
to audio visual and other technological advances. Let me also 
commend you and the committee and thank Mr. Stark in 
representing Mr. Rangel for his comments. Obviously you all are 
in sync with where you would like to be as a committee. It 
would be helpful as some of the committees are working on how 
they share technology. One of the things we hope to do on House 
Administration in terms of outreach is to get your input and 
feedback, and having served here and being able to look with 
the splendor at your picture radiating.
    Mr. Thomas. I am just thankful it is still on the wall.
    Mr. Larson. Again, any input that you could provide us 
would be very helpful. And thank you both for testimony today.
    Mr. Thomas. Thank the gentleman. We have plenty of input. 
The problem is we have to find the money and resources.
    Ms. Millender-McDonald. The only thing I would like to ask, 
Mr. Thomas, you spoke about the 12 percent increase for 
staffing. Is that staffing--staffing of what?
    Mr. Thomas. It is not entirely staffing. But as my 
colleague indicated, about 86 to 89 percent of our funds goes 
toward staffing. We are asking to increase the staff. We 
currently have 77 and we would like to add two additional. Any 
of the staff that we add and we are going to fill a vacancy and 
that is three. So it is two to one. Everything is split on a 
two-to-one basis as we add. Some of that also is for equipment. 
We have the periodic need, the gentlewoman needs to know when I 
inherited the Ways and Means Committee, the members did, the 
staff did not have cell phones, obviously Blackberries, and 
there was no way to access the computers from remote locations. 
We have invested a significant amount of money to create a 
greater productivity in our staffs. But some of the computers 
that were there are beginning to run their life cycles and 
therefore require upgrading. That is one area that we are going 
to continue to spend money because I do believe you get the 
productivity back.
    But I do want to underscore my colleague's comments about 
space. We are looking at unfilled elevator shafts that are 
ventilated for an opportunity to fill the space. At one time, 
there was a beautiful glass wall anteway into the back rooms of 
the Ways and Means Committee. That has now been occupied by 
staff because it was space that could be cannibalized. And we 
are desperate in a beautiful building built in the 1930s which 
simply doesn't have space that is easily acquired by us, and we 
are dividing up spaces in ways now that has about reached its 
limits on creativity.
    And we would be looking for some additional sources beyond 
ventilated elevator shafts to accommodate a committee that 
deals with the entire Tax Code, trade, Social Security, et 
cetera.
    Ms. Millender-McDonald. We do understand. That is duly 
noted that space is a tremendous problem. And that is woefully 
needed for your continuing the important work that you do. We 
thank you, Mr. Chairman.
    The Chairman. I just want to close by saying that we 
appreciate the two-thirds/one-third and the way that you set 
that up here is the way we conduct our severals here of turning 
the entire budget over. And I think that was a good thing from 
day one that you did.
    Mr. Thomas. We preached for years that that was a fair 
division. In the 103rd Congress, which is the one just prior to 
the current majority, the resources for the Ways and Means 
Committee Minority were 17 percent of the staff and virtually 
none of the resources. Currently that is now a full one-third 
across the board. That is what we said should have been done. 
When we became the majority, we could have been terribly and 
woefully neglectful if we didn't practice what we preached.
    The Chairman. I want to thank both the gentlemen. I would 
note we have a vote, the picture for the floor and another 
vote. So if we could continue after that second vote with the 
Intelligence Committee. Thank you.
    The Chairman. Committee will come to order, and we will 
proceed with Judiciary. And we have the Chairman, Chairman 
Sensenbrenner.

STATEMENT OF HON. F. JAMES SENSENBRENNER, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. I 
would like to ask that my full statement appear in the record 
and in the interest of time, I will summarize it.
    As you all know, the Judiciary Committee is one of the 
workhorse committees in Congress. We had jurisdiction over 14 
percent of all of the bills that were introduced in the last 
Congress. We reported over 103 bills with accompanying 
legislative reports, of which 80 were agreed to. We were 
responsible for 53 new laws, 47 public and 6 private. The 
Government Reform and Resources Committee had had more 
committee reports and more public laws; however, most of their 
work product were relatively minor issues like boundary 
adjustments in the Resources Committee and the naming of post 
offices in the Government Reform Committee.
    Most of our legislation is really meaty, and it requires 
extensive hearing records and committee reports. And I would 
just draw the attention of members of this committee that the 
report on the bankruptcy bill, which we will be filing 
following it being reported, which will probably be thicker 
than the Washington phone book. All of that requires people, 
and all of that requires equipment. And we are asking for 15 
new permanent staff slots, 10 for the Majority and five for the 
Minority. I have been scrupulous in maintaining the one-third/
two-thirds ratio both in terms of slots and staff, taking out 
certain administrative positions that are really nonpartisan in 
nature, such as the printer, the people who work for the 
Government Printing Office, those that do the payroll and the 
like.
    The equipment line in this budget includes the purchase of 
additional computer softwares and printers first to accommodate 
the additional staff, and secondly, in order to increase the 
productivity of our committee. Again, if you look at the volume 
of paperwork that comes out of the Judiciary Committee, we need 
this additional equipment in order to keep ahead of the game on 
that.
    I would point out that Mr. Conyers and I are in agreement 
with this budget. We would ask for your favorable 
consideration, and I will now be happy to yield to Mr. Conyers, 
and the two of us will answer any questions you may have.
    The Chairman. I thank the Chairman and recognize the 
Ranking Member. Pleasure to have you, Mr. Conyers.
    Mr. Conyers. Good afternoon, Chairman Ney, and to my good 
friend Ranking Member Larson. I am delighted to be here with my 
Chairman on Judiciary James Sensenbrenner to join with him in 
the testimony. I just have to say, he has been an effective 
Chairman. We have been able to do a lot more things than we 
thought we would be able to. But the assignments keep coming 
in, and 9/11, of course, has complicated that considerably.
    Now, to me, it is critical that the slots that the Chairman 
and I seek are granted here because we have never been 
stretched to the limits that we are now currently in the 
committee. And we have just come through a cloning bill. We 
have bankruptcy that is waiting for us to be reported out 
today. We are in recess until we can leave this very important 
hearing. In addition, we have had matters of science and ethics 
that didn't--well, some of it didn't even exist 4 years ago. 
And we have marked up medical malpractice, and it will be 
brought to the floor in a few days, and that is legislation 
that raises significant issues involving our State laws, 
concerns the drug companies and the HMOs as well as 
constitutional law. It is an issue that hasn't been reported 
out of our committee until last year.
    Bankruptcy is a several-hundred-page bill, and it grows 
more complex with each Congress and gets more complicated as it 
touches upon pension questions and international law as well. 
We are also doing some very important work that I am sure this 
committee would appreciate that deals with piracy over the 
Internet. We have the ever-agonizing issues of immigration law 
and now homeland security. This is over and above the issue 
subjects of our jurisdiction, crime, antitrust, administrative 
law, civil rights, reproductive choice, and, of course, all 
constitutional questions and the oversight of the Department of 
Justice itself.
    So why do we need new staff? Because these issues cannot be 
shortchanged at the expense of understaffing. The public debate 
on these questions are seminal, and there are other issues, gun 
safety, crime, tort reform, which are, I think, important 
issues and some which are even growing more important. So the 
Chairman and I pride ourselves on our work, and we just simply 
need more people to help continue the tradition of excellence 
that the committee has enjoyed over the years. It seems to me 
that we have a large assignment of legislative matters than any 
other committee.
    And I have enjoyed working with the Chairman. We have a 
good relationship. I have a good relationship with this 
committee as well. I have enjoyed working with Chairman Ney, 
who I must say played an enormously important role on election 
reform legislation that without him, we wouldn't have gotten 
this bill to the White House for signature. He has been very 
helpful in helping it get funded. And Ranking Member Larson, 
you and your staff have been working closely with us in 
formulating a budget we can all live with, and I am grateful to 
you for that. My other colleagues are all friends of ours. But 
we come here urgently needing the best help that you can bring 
to us, and I thank you very much for this opportunity to share 
a few of these items with you.
    The Chairman. I appreciate the testimony of both of the 
gentlemen, and also it was a pleasure to work with you and have 
your support on efforts you did for the legislation and also 
the follow-up of the money, and we have got a little bit more 
to go. Thank you.
    Questions?
    Mr. Larson. Thank you Mr. Chairman. And I would like to 
also acknowledge what the Chairman has said that, in fact, 
Judiciary is a workhorse committee, and I was honored as a 
freshman to serve with Mr. Sensenbrenner when he was the then-
Chair of the Science Committee. And the long, distinguished 
career of Mr. Conyers is legendary here in Congress.
    Clearly the need that you put before the committee is well-
deserved. In the event as we go through this process--this is a 
question we have asked all the Chairs that have come in, and I 
know Chairman Sensenbrenner mentioned in his opening remarks 
with regard to the one-third/two-thirds. If we are only to get 
12 employees instead of 15, we assume it would still be that 
one-third----
    Mr. Sensenbrenner. It will be.
    The Chairman. Any other questions?
    Ms. Millender-McDonald. Thank you so much. It is good to 
see the Chairman and the Ranking Member today and my first real 
meeting and listening to those Chairs and Ranking Members who 
do so admirably in committees.
    Ranking Member, I was concerned that you--it was mentioned, 
rather, that you would like a little more leeway in purchasing 
supplies and all this. Is this something that has now been 
taken care of in this approach to giving the two-thirds/one-
third in all other types of partnerships with the Chairman?
    Mr. Conyers. I am happy to report to you that it has, and 
that we are working on some very major issues, some that I 
can't even reveal at the hearing, and that we have--I have no 
problems in that regard whatsoever, Ms. Millender-McDonald.
    Ms. Millender-McDonald. Mr. Chairman, I wanted to see where 
we were on that, and I thank you both so much.
    The Chairman. Any other questions?
    I want to thank both of you for your testimony.
    We will move on to Intelligence. I want to thank both 
Members for coming. As I understand it, you have an extremely 
tight time frame; is that correct?
    Mr. Goss. Thank you, Mr. Chairman. That is accurate.
    Mr. Larson. If both the Chairman and the Ranking Member 
would accede, we are more than happy to, through unanimous 
consent, accept your written remarks for the record and go 
directly to questions.
    Mr. Goss. I am very much obliged, Ranking Member, and I 
appreciate that. We have prepared statements and want them 
entered into the record.
    The Chairman. There is not a bunch we can publicly ask you 
anyway. Any questions?
    Mr. Larson. I would only just like to again add and, again, 
I thank you, Chairman Goss, for your extraordinary work on the 
committee, and we are so pleased that Jane Harman with her 
tremendous expertise and background has joined you in what, 
since September 11, has become an extraordinarily important 
committee not only to Congress, but to the entire Nation and, 
dare I say, the globe as well.
    The question we have asked all the Chairs coming in, our 
concern has been over the one-third/two-thirds split. And it is 
our expectation that irrespective of what the ultimate decision 
is, that that will be maintained, whether that be the full 
request or it being a partial request.
    Mr. Goss. That is certainly the case. Ms. Harman and I have 
a close working relationship, as I did with her predecessor. 
There has never been a problem on the one-third/two-thirds. She 
does control one-third of the personnel moneys. And as for 
other expenditures, we do it on a shared basis because we 
operate very largely on a bipartisan basis in this committee 
because it is a national security matter.
    Ms. Harman. If I could add to that, I think I am the fourth 
Democrat to serve as Ranking Member with Mr. Goss. There must 
be something in the water in Florida. But he is correct in that 
the ratio is two-thirds/one-third.
    I would like to point out to the committee that there are a 
lot of able women on the professional staff on both sides on 
the committee, and it functions as a very bipartisan committee, 
something that is extremely important to me.
    Mr. Larson. Your reputations and the integrity you both 
bring to the committee in the process are well known and well 
regarded throughout all of Congress and certainly shared by 
this committee.
    Ms. Millender-McDonald. Mr. Chairman, I would like to 
congratulate my dear friend and the new Ranking Member who 
hails again from California, so I don't know about the Florida 
water, but California is doing quite well itself, and we really 
do know that Jane comes with extraordinary expertise and 
background, so we know she is going to do well on this 
committee.
    And, Mr. Goss, as always, I respect you, and so by virtue 
of the fact we have a lot of women on there speaks volumes for 
you as well. So we thank you for the work you do for us.
    The Chairman. I wanted to note in closing, too, you have a 
critical function as a committee. I think it has been extremely 
well run. And 2 years ago I am happy that decisions were made 
and support came at all levels from the Speaker and also from 
Mr. Gephardt and members of the committee, and their support 
continues throughout both sides of the aisle to put the money 
into this committee that it needed to have. Those resources 
were wisely spent and for, I think, what turned out to be one 
of the most important functions in this Congress for a 
committee.
    Mr. Goss. Mr. Chairman, I would like to thank you and your 
Ranking Member and your committee for the extraordinary support 
and the timely support that you have given us with our requests 
that come, through no fault of our own, for the extraordinary 
circumstances with which we had to deal since 9/11. I feel we 
have used the money wisely, and accountability will show that, 
and I think we are making a very reasonable request for what I 
think is a very critical need for the next year. Thank you very 
much, sir.
    The Chairman. We will now go ahead with the Resources 
Committee, Chairman Pombo and Ranking Member, Mr. Rahall of 
West Virginia. And Mr. Pombo of California.

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Chairman and Ranking Member and 
members of the committee. As the new Chairman on the Committee 
on Resources I am pleased to present a bipartisan request for 
committee operations for the 108th Congress. This request 
represents a fair and honest estimate of our needs and will 
allow us to build on our past successes.
    The jurisdiction of the Committee on Resources literally 
runs from the top of the world, the oil and gas resources of 
the Arctic slope, to the bottom of the sea, the preparation of 
nautical charts. Fishermen and foresters, ranchers and rangers, 
endangered coal miners in Ohio and the endangered willow fly 
catcher in Arizona, wildlife and water, Native American and 
American Somoans all rely on the work of the Committee on 
Resources. With this expansive jurisdiction, it is no wonder we 
are the most active committee on the Hill, holding more 
hearings and markups, 227, and enacting more public laws, 128, 
than any other committee.
    In reviewing the budget from the previous Congress, it is 
clear that the committee on resources needs more resources 
itself both in funds and staff. Last Congress our travel funds 
ran out in the middle of the second session, severely hampering 
our ability to hold field hearings and conduct investigations 
outside Washington, D.C. One of the pledges I made when 
selected to chair the committee was to ensure that we would 
actively solicit the views of local communities and ordinary 
citizens whose lives and livelihoods are affected when we 
develop legislation. These people often cannot come to us, so 
we need to go to them. And if that takes us to the Marshall 
Islands or to Silver Bow, Montana, or even St. Clairsville, 
Ohio, then we need the resources to go there.
    We held our first field hearing last Friday in Flagstaff 
with seven Members traveling from Washington to hear about the 
devastation to our public forests, water and air caused by the 
catastrophic wildfires in Arizona last summer. Over 450 people 
attended, and the testimony we heard was remarkable and moving.
    Communication is also key in reaching out to those who 
cannot afford Washington lobbyists to front their cause. For 
that reason it is imperative that the Committee on Resources 
have teleconferencing ability. Broadcasting committee hearings 
and markups over the Internet as well as posting notices in 
local newspapers, soliciting views and alerting the public to 
committee activities would further allow those outside 
Washington, D.C., to have their voices heard. Under former 
Chairman Hansen the committee began to modernize their 
communications operations. There is much more to be done to 
ensure that we hear from U.S. Citizens across the Nation and 
across the oceans.
    As Chairman, I assure you that Mr. Rahall and I will share 
these resources equitably. We have forged a good working 
relationship, and I want to continue that effort. The Committee 
on Resources will be more productive if we work together as 
leaders even if we might disagree at times on policy.
    Further specifics of our requests were included in the 
budget proposal forwarded to your committee last month, and I 
am happy to answer any questions that you might have.
    The Chairman. Thank you for your testimony.
    Ranking Member Mr. Rahall.

  STATEMENT OF HON. NICK RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Chairman Ney, Ranking Member Larson. 
Let me say that I hope my testimony is going to be the shortest 
in the history of testimony on the Hill. This is the length of 
it, not even a full page.
    Chairman Ney and Ranking Member Larson, I am here to simply 
say that I am in complete agreement with Chairman Pombo and the 
remarks he has just made and with the budget request for the 
Resources Committee that are being submitted jointly here 
today. This budget reflects the same agreement, as you heard 
the Chairman state, between former Chairman Hansen and myself 
that we entered into in the beginning of the last Congress that 
worked so well. And under this budget, the Minority would 
control a full one-third of the staff salary budget. As to the 
rest, our committee does not operate as if there are Republican 
or Democrat copiers or computers. If a piece of equipment 
reaches the end of its ability to function properly, it is 
replaced rather than located in the offices of the Majority or 
the Minority.
    This proposed budget would provide the Resources Committee 
with sufficient resources to consider legislation that is 
sponsored by Mr. Larson, the Coatesville Study Act, which I 
have already contacted Chairman Pombo on. It would provide us 
with the necessary resources to act upon badly needed pieces of 
legislation referred as well by the Chairman that is sponsored 
by you, Mr. Chairman Ney, and myself known as CARE 21.
    That concludes my testimony, and I am open for questions as 
well.
    The Chairman. I thank the gentleman for testifying. The 
Chairman is pretty good. He knows where I live. Now Ranking 
Member should know where I was born.
    Mr. Rahall. Yes. My home State.
    The Chairman. Wheeling specifically.
    Any questions?
    Mr. Larson. I want to thank you, Mr. Chairman, and let me 
also commend Chairman Pombo and also Ranking Member Rahall, as 
they say--Shakespeare said brevity is the soul of wit, and so 
we appreciate your very succinct but focused testimony.
    I commend the Chairman. I do applaud your efforts. We heard 
from Chairman Davis earlier today about the need to get outside 
the Beltway on so many important issues, and particularly on a 
committee that is as valued as yours is across the Nation as 
you protect our precious resources. I think that is a vital 
interest not only to Congress, but to all Americans, so we 
applaud your efforts and think your focus has been reasonable 
and justified.
    The question we have asked all the chairmen as they have 
come in, from the Minority standpoint, and you mentioned it 
already in your testimony, about the adherence to the one-
third/two-thirds prospect. In the event--and we certainly hope 
not--that the funding isn't all that it should be and you 
didn't get all that you asked for, is it still your intent to 
continue that one-third/two-thirds relationship?
    Mr. Pombo. Yes. It is part of our committee rules, and both 
Nick and I have agreed that we will stick to that budget 
request.
    Mr. Larson. I thank the Chairman and the Ranking Member for 
the courtesies that they have shown me and also other Members 
throughout Congress. I would only ask if the Ranking Member had 
anything to add.
    Mr. Rahall. Thank you. Let me just add further what the 
Chairman has said. Certainly I agree with the premise. I would 
also expect, though, that other Ranking Members collectively be 
treated in the same manner, and to their satisfaction I might 
add as well.
    Mr. Larson. I think we can be proud of the efforts of the 
Chairman of this committee because he has really set the tenor 
for Congress in terms of responding to that request.
    Ms. Millender-McDonald. I must agree with you. He has set 
the tone for this committee, and we are most appreciative to 
you and your leadership, Mr. Chairman.
    Only thing I want to do is welcome both of these men, Dick 
and Nick. Those two names alone should add a lot to the 
Resources Committee. But they are both new in their respective 
roles, if I am not mistaken--this one is not new? You left 
Transportation. But from a Californian to a Californian, 
welcome and congratulations for having received the chairship 
of this committee.
    I have the largest Samoan population outside of Samoa, and 
so I would be very interested in some of the legislation, some 
of the things that you are doing, and especially in an 
oversight hearing in my district where not only do I have the 
largest amount of Samoans out of Samoa, but Cambodians and 
Filipinos. And so I don't know whether that stretches that 
wide, but certainly the needs are pretty much the same. And so 
I would be interested in an oversight hearing in my district 
where we can speak to the challenges that the Samoan population 
has here.
    Mr. Pombo. Just in response, I will be more than happy to 
work with the lady in trying to achieve that in a field 
hearing. As I am sure you are aware, we have a number of field 
hearings planned all over the country and, for that matter, all 
over the world in terms of what our jurisdiction is. I believe 
very strongly that the best way to educate Members and to give 
the public an opportunity to address Congress is to get us 
outside the Beltway and get us out into the real world.
    The Chairman. I want to thank the Members for their kind 
comments and just reassure that two-thirds/one-third is a part 
of life here, and a couple of new chairmen including Chairman 
Pombo--he immediately held to that, and we appreciate it.
    I also think taking the committees out on the road, as we 
would say, across the country to be able to have people that 
could come to them versus having to come to Washington is a 
tremendous thing, especially with the critical and important 
issues you have. I know the hearings won't be without 
controversy, but they are an awfully good thing to do. So we 
appreciate it. Thank you.
    The Chairman. And we will move on to Financial Services. 
Chairman Mike Oxley of Ohio and Ranking Member Barney Frank of 
Massachusetts.

    STATEMENT OF HON. MICHAEL G. OXLEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Oxley. Thank you, Mr. Chairman, and let me thank you 
and Ranking Member Larson for hearing us out today. Two years 
ago this committee made an investment in the new Financial 
Services Committee, and I want to thank you for that and for 
what you have given to the committee, and I think the taxpayer 
got their money's worth. We have done a lot more with your 
resources than most other committees. When America needed new 
tools to fight the flow of terrorist money, Financial Services 
Committee delivered the anti-money laundering legislation, and 
it became part of the PATRIOT Act. And we just had an oversight 
hearing yesterday on how that act is working. When we 
discovered Wall Street professionals put greed first and 
investors last, it was our committee that held the first 
hearings on Enron and WorldCom and responded with the first 
legislation in April of 2001 in which we--which ultimately 
became the Sarbanes-Oxley Act. And when the economy suffered 
because of the lack of terrorism insurance, again our committee 
stepped up and passed terrorism risk insurance about 7 months 
before the Senate responded, and we finally got that bill 
signed and passed in the lame duck session.
    We have a lot of other work to do in terms of oversight 
over Sarbanes-Oxley and what is happening out in the world with 
the Nation's investors, modernizing our financial institutions, 
promoting economic growth. We have requested $16.9 million in 
budget authority for this Congress. About 86 percent of that 
would be for personnel compensation.
    We are near the bottom of the rung when we compare the size 
and resources of the committees in overall funding. For 
instance, the Transportation Committee, which is the only 
committee larger than ours, they got a budget of more than 
$2\1/2\ million more than our committee. That works out to 
nearly $24,000 more per Member. And we simply need to compete 
in many respects for top talent with the administration as well 
as with Wall Street and other jobs in the financial services 
sector.
    I want to take this opportunity to thank my new Ranking 
Member, Mr. Frank of Massachusetts. We worked well together 
over the years, and I was pleased to have him ascend to the 
position of Ranking Member and we are going to plan to get a 
lot done in this session of the Congress. To that end, of 
course, our budget guarantees that the Minority will control 
its budget, which will be one-third of both committee funds and 
staff slots. And I know, Mr. Chairman, that has been one of the 
hallmarks of your leadership, and I want to applaud you and 
your new Ranking Member Mr. Larson for continuing on that, 
which I think is good policy and makes a great deal of sense.
    So we once again come before you with our thanks from the 
last time. And our committee was a new committee 2 years ago, 
but we have been tested by fire. And some of the major issues 
that we dealt with last year were something that we hadn't even 
planned on in the initial agenda with the terrorist attack of 
9/11 and, of course, the corporate scandals that occurred. And 
I am quite proud of the work that our committee has done. 
Seventy members, it sounds rather unwieldy, but in the overall 
scheme of things, we were able to pass major legislation on a 
number of fronts, virtually all with large bipartisan 
majorities, that became law and signed by the President. And if 
you look at the output per committee, I suspect ours is right 
up there at the top in terms of legislative output.
    So again, I want to thank you for hearing us and our 
request today.
    The Chairman. I thank the Chair.
    Mr. Frank.

 STATEMENT OF HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Thank you, Mr. Chairman, Mr. Larson.
    I completely concur with what the Chairman has said, and he 
has been extremely fair in our working relationship. It has 
been an excellent one. We have been able to cooperate. 
Cooperation in our job means working together on some issues 
and fairly framing those issues whether it is legitimate 
disagreement, and I think we have been able to do both quite 
well.
    It is a committee with very broad jurisdiction as it has 
now come about. In addition to the areas that the Chairman 
mentioned, we also have a supervisory role with the Federal 
Reserve. It is our job to deal with the Humphrey-Hawkins 
employment aspect. We have got the entire housing jurisdiction, 
which is a very significant one. And I just came back from a 
quick trip to Greece at the request of various people because 
we supervise the U.S. Relationship with the World Bank, the 
International Monetary Fund. So the scope is really quite 
broad, and it really does require significant staff resources, 
because the level of expertise we need to have is high.
    We in particular and others may have this as well, but I am 
struck to the extent to which we are trying to make people who 
have been acquiring expertise in particular areas for a long 
time do things they would rather not do. And it is important 
for us to be able to have an expertise that can go up against 
them in a very wide range whether you are talking about the 
Federal Reserve, the International Monetary Fund, intricacies 
of the securities industry, et cetera.
    I very much support the Chairman's request. We have been 
productive. I am proud to say we are the committee that 
authored the first bill that passed this year. We have a very 
productive markup scheduled tomorrow with some things that are 
very important for the functioning of the banking industry. We 
have some important hearings still coming up. So I fully 
support the Chairman, and I think there was a very legitimate 
argument for even additional resources, given the scope of what 
we have got to do.
    Mr. Oxley. Will the gentleman yield? I think the gentleman 
from Massachusetts will also agree that we have an excellent 
set of subcommittee chairs.
    Mr. Frank. Yes. Absolutely.
    The Chairman. Best and brightest, I assume.
    Mr. Frank. In the housing area very much, or as we would 
say, de la maison.
    The Chairman. Merci beaucoup.
    With that said, this committee is a very active committee, 
and it just handles a wide variety of issues. And it really had 
been down also on the funding scale. Last time when it got 
bumped up, it not only took on additional responsibility, but 
the funding really had been at a lower level.
    Any questions?
    Mr. Larson. Thank you, Mr. Chairman, and thank you, 
Chairman Oxley and Representative Frank, for your candid and 
lucid testimony.
    One of the concerns we have heard raised--and I just have 
two questions, but one has been raised by virtually everyone 
who has come before is the issue of space in terms of the 
committee, and while not a specific jurisdiction, although it 
comes under our committee rules, it is a decision that goes to 
another pay grade other than ours. But nonetheless, again, 
through the Chairman's desire and acquiescence, we are going to 
speak to the leadership directly about those needs. Do you have 
space concerns?
    And again, Mr. Chairman, you eloquently stated in your 
remarks about keeping the one-third/two-thirds relationship. It 
is our concern in the event that people don't get funded to the 
levels they were, we assume that is the case, but we just 
wanted to ask that.
    Mr. Oxley. Absolutely. That is large in our rules, and we 
would certainly respect that regardless of what the funding 
was.
    Mr. Frank. One of the things I was pleased to learn when I 
came to this committee is that the staffs have very good 
working relationships. There really is a good deal they do that 
saves time for us.
    On the space thing, I could not agree more, and I would put 
that as the highest priority. I have just been in a position of 
having to fill some positions, and I have had to tell some very 
able people, people who have come to me from the SEC and 
elsewhere, that I have only one drawback that I have to be 
honest about, and that is the physical working conditions 
stink; that we have these really talented people doing very 
important jobs, and it isn't the Chairman's fault, but we don't 
treat really the extraordinarily hard-working people who work 
for us well enough. And sometimes they are dealing with things 
that you want confidentiality. And I don't think it makes the 
best impression on the people with whom they deal. We ask them 
to meet with people, frankly, to save us from meeting with 
people sometimes, and there is some fairly important people 
that the meeting spaces are not what they should be. So to the 
extent we could increase space, that would be the biggest 
contribution we could make to our functioning.
    Mr. Oxley. I would agree with that. It is also, I think, a 
retention issue. Again, we have some pretty talented folks that 
are constantly, I think, being recruited by Wall Street, by K 
Street and by the administration. And part of that is just a 
quality of life and their working conditions and that doesn't 
help in terms of retention if they don't have a quality 
workplace.
    Mr. Frank. These are first-rate people who I think read 
Dilbert and fantasize how nice it would be.
    Mr. Larson. Again, I would like to compliment this Chairman 
again for his efforts and work also on a concern that we have, 
and, Chairman Oxley, you alluded to that, that with regard to 
the pay levels, Dave Obey often comments we train personnel in 
the House that go onto the Senate or on to the private sector 
because of the pay grade levels there. So along with 
accommodations, it is our focus and this Chairman's focus has 
been to make sure that staff is being paid accordingly.
    The Chairman. And we have the pay that we have built in 
with the cost of living, and, of course, the Chairs and Ranking 
Members can give other pay differentials.
    Also wanted to note this reoccurring theme of the space, 
because with the great support by our Ranking Members and our 
Ranking Member and other Members, we passed the student loan, 
which we now can have some student loans paid back, because the 
Senate had it and we didn't have it. But you have to have the 
space to physically put somebody to help them pay off their 
student loans.
    And the space situation is just in a crisis. I think this 
building was probably built in the 1930s, I think Rayburn was 
built in the 1950s, and in those days not everybody could get 
to Washington, D.C., easily. And on top of it, there wasn't an 
Internet, wasn't the mass communication that we have. Great 
thing about the committees now, people can get here, or you can 
take the committees out on the road, Internet, but all that 
causes is more people to write in or voice their opinion about 
issues and advocacy groups. And staff needs to meet with them 
and look at their concerns, and that is great, but we have 
outlived the ability to be housed in these buildings, and just 
a basic respect for working conditions. And so we have just got 
to do something to find some more space, and we will work on 
that.
    Ms. Millender-McDonald. Mr. Chairman and Ranking Member, 
thank you so much.
    Space has been the operative word here today with all of 
the Chairmen and Ranking Members. Retention is very critical, 
and I would think it is critical to us in our own offices, but 
it should be even more so, given the areas of concentration and 
the issues that come before you. And so I am sensitive to your 
request for more space and space that will be adequate for 
these professionals to use when they are meeting with those 
high-skilled folks out of Wall Street and other places.
    I would like to congratulate our friend Barney Frank for 
coming in as the Ranking Member. We certainly hate to see him 
leave Judiciary, but if he has to land anyplace, it is the 
Ranking membership. And so we welcome you aboard, and good also 
to see you, Mr. Chairman.
    The Chairman. Thank both of you for your time.
    And last on the schedule today is Standards. And we have 
Chairman Hefley from Colorado and Ranking Member Mr. Mollohan 
of West Virginia. Welcome to both.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. Mr. Chairman, I appreciate the time. I want to 
say, though, that Mr. Oxley as he left the room whispered in my 
ear and said, we got all the money.
    As I begin, Mr. Chairman, my second term as Chairman of the 
Committee on Standards of Official Conduct, I am pleased to 
appear before you today in support of our budget request and to 
appear here with the new Ranking Member of the committee, Alan 
Mollohan.
    We appear in support of House Resolution 64, the 
committee's funding resolution for the 108th Congress. The 
Standards Committee is a relatively small committee, as you 
well know, but its responsibilities are broad. We have 10 
members, 5 Republican, 5 Democrat, the one committee in the 
House that is evenly divided, and we work very, very hard to 
see that this is a completely nonpartisan, not a bipartisan, 
committee. None of us serve on this because it is a good 
fundraising committee or you get a lot of glory from it. We 
serve on it for the institution and the value that it has for 
that.
    We also have a staff of 13. We have eight nonpartisan 
attorneys. We emphasize that all the time. We have three 
support staff and two shared professional staff members who 
assist the Chairman and the Ranking Member respectively.
    The committee's jurisdiction is threefold: It is to provide 
guidance and information to House Members and employees on the 
laws, rules and standards that govern their official conduct; 
to administer in cooperation with the Clerk of the House the 
financial disclosure requirements of the Ethics in Government 
Act insofar as they apply to House Members and employees and 
congressional candidates; and to investigate instances of 
possible misconduct by Members, officers or employees and, 
where misconduct is found, to take appropriate disciplinary 
action.
    I consider the committee's advice and education efforts--in 
the form of publications and briefings on the rules and having 
staff readily available to respond to questions of Members and 
House employees--to be a critical part of the committee's 
mission. In fact, I think if we are really doing our job, we 
are helping Members not get in trouble, rather than prosecute 
them after they have gotten in trouble. We want them to come to 
us. We want to be able to advise them on what is appropriate 
and what is not up front, rather than have to deal with it 
after some indiscretion has occurred.
    Prior to the start of the 2002 campaign, in December 2001, 
the committee issued a campaign activity booklet that provides 
a current statement of the House rules and related authorities 
that apply to Members and employees when they engage in 
campaign or political activity. In addition, during the 107th 
Congress the committee issued a dozen general advisory 
memoranda to Members and employees, including one relating to 
the use of official resources in connection with the 
redistricting process, on which there were some problems as we 
were all going through that process.
    Another key part of the committee's advice and education 
efforts is the issuance of private advisory opinion letters in 
response to requests submitted by Members, employees and 
others. In the 107th Congress the committee issued over 700 
private advisory opinion letters. The start of this Congress 
with all of our new Members and employees has been particularly 
a busy time. Already this year, the committee has issued 
approximately 100 advisory opinion letters.
    In addition, in an effort to accommodate all of our 
incoming freshman Members and our staff, our committee 
attorneys have already held two large-scale briefings on the 
ethics rules, open to all House Members and employees, as well 
as numerous briefings for individual offices.
    One result of these advice and education activities is that 
the committee and its staff see on a practically daily basis 
how the ethics rules impact the lives and work of Members and 
House employees.
    I think another basic responsibility of the committee is to 
be alert to instances in which some change in the rules may be 
in order, whether it be lifting a needless restriction, closing 
a loophole, or merely clarifying or simplifying the rules. Some 
changes along these lines can be made by the committee acting 
on its own authority, but other changes can be made only 
through an amendment of the House rules.
    While the committee's responsibilities to monitor and 
review financial disclosure statements require a great deal of 
time and effort, and in the 107th Congress committee staff was 
required to review over 5,000 of them, the other major 
committee responsibility is in the area of investigation of 
possible misconduct. This is an area for which the level of the 
committee's workload is virtually impossible to anticipate. For 
example, in the 107th Congress we were confronted with the 
circumstance of the sitting Member of Congress who had been 
convicted of several felonies, and I can't tell you the amount 
of time both for the members of the committee and the staff 
that this occupied. I hope--and I am sure Alan would back me up 
on this--that never in our lifetime will we have to go through 
that again. That is not a fun experience.
    Turning to the specifics of the committee's proposed 
budget, the largest item by far, on the order of about 85 
percent, is for personnel compensation. Our figures reflect 
roughly a 4 percent cost of living increase in both 2003 and 
2004 and allow for merit increases or bonuses on an average of 
about an additional 4 percent each year.
    The House rules require that our committee staff be 
assembled and retained as a professional nonpartisan staff, and 
that each member of the staff shall be professional and 
qualified for the position for which he is hired; in other 
words, we have mostly attorneys on the staff. In budgeting for 
compensation, it is our intention to attract and retain the 
best people we possibly can for this job, and we do have some 
wonderful people down there.
    The proposed budget also includes a request of $25,000 for 
consultants over each of the next 2 years. We don't use 
consultants very much, and it is my belief that insofar as we 
possibly can, we ought to handle these internal situations 
ourself as a committee and as a staff. But we do feel it is 
prudent to put some money in there just in case we do have to 
call on outside consultants or outside counsel. And I will 
point out, Mr. Chairman, that I believe every year that I have 
been involved in this committee, we do turn money back. We 
don't figure a way to spend the money so we will get more next 
year. We do turn money back that we don't use. If we don't use 
this consultant money, we won't try to do something else with 
it.
    Two other budget items I would like to touch on are 
equipment and supplies. A large portion of the requested 
increases in these categories is for computer-related expenses. 
For example, we understand that House Information Resources is 
establishing an off-site backup of House computer resources. 
Our budget includes $25,000 for additional security mechanisms 
that would be needed for the committee's records. Our request 
for supplies includes software that would upgrade the committee 
Website.
    The figures before you represent our best estimates of the 
committee's needs for the 108th Congress. As has happened on 
occasions in the past, if events result in greater demands on 
the committee, then we would have to come back to you, but we 
hope--sincerely hope that that is not necessary.
    Mr. Chairman, before I conclude my remarks, let me just say 
that your committee and our committee dovetail on a lot of 
things, and we have to have a close working relationship to 
make either one work right for the institution, and I cannot 
imagine a closer working relationship than we have had these 
last few years, and I thank you for that. I think it is to our 
mutual interest to continue that, and as far as I am concerned, 
that will continue from our side of it, and I am sure it will 
for you, too.
    Now I turn it over to our Ranking Member Alan Mollohan.

    STATEMENT OF HON. ALAN B. MOLLOHAN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Mollohan. Thank you, Mr. Chairman, Chairman Hefley, 
Chairman Ney, Ranking Member Larson, Mr. Brady. It is a 
pleasure to appear with the Chairman here today on behalf of 
the budget request for the Committee on Standards of Official 
Conduct.
    I have recently rejoined the ethics committee, this time as 
Ranking Member. During the short term I had been here, I was 
impressed that my predecessor and the Chairman obviously did an 
excellent job with the committee. The Chairman has provided 
exemplary leadership over a long period of time. I find the 
committee to be well led and well staffed. And having reviewed 
the budget request, I find myself in total agreement with the 
Chairman with regard to that request and think it was very 
admirably presented here to the committee, and I would like to 
associate myself with his remarks and with the substance of his 
request.
    I would specifically support his request for the $25,000 
contingency fee for outside consultants, and I also share his 
philosophy that this committee ought to do its work internally 
to the extent that it is possible to do that. I believed that 
the first time I served on the committee, and I continue to 
believe that.
    So I, again, in summary, Mr. Chairman, associate myself 
with my Chairman's remarks and look forward to serving with him 
and, with him, working with you to make sure that the ethics 
committee and the House of Representatives works; works for the 
institution and also works for the Members.
    Thank you for allowing me to appear here today, and I join 
the Chairman in any questions you might have.
    The Chairman. I want to thank both of you for coming here 
today, and we will continue that close relationship we have 
had.
    The other thing I can appreciate is the job that you have. 
It is a tough job. And like we always used to say, who do you 
make angry if you were in House Administration or ethics. Both 
of those committees are good committees, and the thing I have 
been impressed with quite a lot, because I would call when I 
probably became Chair of this committee--our Member services in 
both Minority and Majority here in House Administration field 
constant calls, and their answers are critical, and their 
answers are important. And, of course, we field calls directly 
over to you.
    I also have been very impressed with the staff as I have 
called inquiring, because you need to do that to find out, you 
know, what steps you take to make sure everything is correct. 
And I have always been impressed with the quickness of the 
calls back by your staff and your credibility of the answer. 
Really appreciate it. And I know they get a lot of calls, so we 
have been impressed with your staff.
    Mr. Larson. Thank you, Mr. Chairman, and again let me thank 
both the Chairman and the Ranking Member for appearing today. 
And let me add that given the Chairman's testimony, and as a 
Member of the House having gone through that excruciating 
experience last year, the integrity that you brought to that 
process served the House and the country extraordinarily well. 
I think we are fortunate to have you in that position, and the 
committee has only been enhanced by the addition of Alan 
Mollohan, who, like his father before him, brings a standard of 
ethics and commitment to the United States Congress and to this 
committee that is so vitally important in our ability to 
conduct business in a fair-handed manner, and, as the Chairman 
pointed out, not an attempt to play God here with Members, but 
an attempt to reach out and assist Members of the body so that 
they do the right thing and receive all of the important 
guidance and information that only helps them perform their 
tasks better.
    It is an important committee. I think you are right to 
reserve those funds for consultants. It clearly has been a 
frugal committee. I share your concern about operating 
internally as well, and I think you have made a great case here 
today. Obviously the commitment exists within the committee, a 
question we have asked everyone, about the one-third/two-
thirds, something that this Chairman has been extraordinary on, 
and we look forward to continuing working with you.
    Mr. Hefley. I thank both of you very much for your kind 
words, and we appreciate that very much.
    The Chairman. Any questions?
    Mr. Brady. Thank you, Mr. Chairman. I just need to echo and 
piggyback on the words that were spoken here by my Chairman and 
My Ranking Member. We went through some tough times last year, 
and embarrassment was a good word that could be used, and it is 
pretty hard to embarrass me. And I was leaning toward that 
until you stepped in and conducted yourself, and it was 
needless to say you could have sold a lot of money on 
commercials. Everybody was watching it. And I was proud of the 
way you handled yourself. And now I feel a lot better that a 
friend of mine and someone with the highest integrity in this 
House is joining you. So I wanted to thank you for what you 
have done and look forward to working with you all in the 
future.
    Mr. Hefley. Thank you very much.
    The Chairman. Pleased to have both of the Members here 
today. And for tomorrow, we will continue--of course, tomorrow. 
I want to thank Ranking Member Mr. Brady, Ms. Millender-
McDonald. Mr. Ehlers was here. Thank you for your diligence, 
your patience, and also the thoughtful questions and the time 
you put into this, and, Minority and Majority staff, we 
appreciate it.
    I ask unanimous consent that Members have three business 
days to submit their statements and materials for the record 
and for those statements and materials to be entered in the 
appropriate place in the record. Without objection, the 
material will be so entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes in all matters considered 
by the committee at today's portion of the hearing. Without 
objection, so ordered.
    Having completed our business for today's hearing on 
committee funding, the committee is hereby in recess subject to 
the call of the Chair. Thank you.
    [Whereupon, at 3 p.m., the committee was adjourned, subject 
to the call of the Chair.]


                       COMMITTEE FUNDING REQUESTS

                              ----------                              


                        THURSDAY, MARCH 13, 2003

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:43 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Linder, Larson, Millender-
McDonald and Brady.
    Staff present: Paul Vinovich, Staff Director; Fred Hay, 
Counsel; Jeff Janas, Professional Staff Member; George Shevlin, 
Minority Chief of Staff; Charles Howell, Minority Chief 
Counsel; and Keith Abouchar, Minority Professional Staff 
Member.
    The Chairman. The House Administration Committee will come 
to order for the purpose of receiving further testimony on the 
hearing to consider funding requests of the Committee to the 
U.S. House of Representatives for the 108th Congress.
    Today, we have the Chairman, the gentleman Mr. Goodlatte, 
and Ranking Member, Mr. Stenholm. We can start with the 
Chairman. Present your case and what you need.

   STATEMENT OF THE HON. BOB GOODLATTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Well, thank you, Mr. Chairman and Mr. Larson 
and other members of the committee. We very much appreciate the 
opportunity to come to you this morning to present our modest 
request for the House Agriculture Committee for the coming 
year.
    In the prepared statement, which I will submit for the 
record, we have appended a graph that I think pretty clearly 
illustrates the situation that the committee finds itself in. 
If you will look at that, you will see that the House 
Agriculture Committee with 51 members is the sixth largest 
committee in the House. In terms of the staff of the committee, 
we are, however, the 13th committee. And in terms of the 
budget, we are one behind that, in 14th place.
    So we are very frugal and very proud of the fact that we 
work very hard to accomplish a tremendous amount with a very 
limited budget and very lean and mean staff both on the 
majority and on the minority side.
    The committee has a very aggressive agenda this year; and, 
based upon the activities of the House Budget committee, it 
appears we may be even busier this year than originally 
anticipated. Because if we are to go forward with a 
reconciliation process, that means effectively going back in 
and examining all of the assumptions that we made in last 
year's farm bill and having to reach some new decisions about 
spending requirements. We will certainly do that, but we need 
your assistance in making sure that we have the necessary 
resources to be able to do that.
    In addition, whether that is done or not, the 
implementation of this farm bill is a major undertaking for the 
Department of Agriculture and for the committee having to 
oversee that.
    We are also very much engaged in a number of other very 
important issues. Because of the passage of trade promotion 
authority last Congress, the administration is engaged in a 
wide array of bilateral and multilateral trade agreements. As 
you know, agriculture is our largest sector of our economy, and 
it is our largest export item, and it is an item that has 
significant trade surplus, in contrast to most other areas. 
Therefore, the committee's work to make sure that the interests 
of American agriculture are protected in those processes is 
also something that is going to take a substantial amount of 
staff and member time.
    We are also going to be reviewing--because of the debacle 
we find ourselves in every year with disaster relief packages, 
we are going to have a major overhaul of crop insurance 
programs in the country. That, again, is something that will 
take a great deal of time and effort on the part of our staff.
    Our significant request for this year, the principle 
increase is in the area of new equipment that we need to 
modernize, primarily in computers. If you look at our numbers, 
you will find that is primarily in the first year of this 
Congress. We have a larger increase there because of the need 
to replace a significant amount of equipment in that area.
    In most other areas, I think you will find that our 
requests for increases are very modest and basically just an 
effort to keep up with the rate of inflation.
    I also want to point out that the staff salary category 
contains no more than a 4 percent a year increase, which is 
just about or a little above the cost of living adjustment.
    The equipment category closely follows the House guidelines 
for updating computers and other equipment and contains a one-
time cost in 2003 for equipment to ensure continuity of service 
in the event of an emergency. I know a number of committees are 
doing this; and really, in a coordinated effort to make sure 
that we are capable of continuing to operate in emergency 
circumstances, we have to duplicate and locate in a remote 
location some of our equipment needs.
    At this time I would turn our attention to our ranking 
member who is someone who has served on this committee for a 
very long period of time, certainly longer than I have; and his 
reputation as being a fiscally responsible Member of Congress 
is second to none. So I am the fourth chairman of the Committee 
on Agriculture since the 104th Congress; and, as my 
predecessors have done, I am relying on his gracious wisdom in 
this endeavor before us today to help make our case.
    The Chairman. We have some wisdom from Texas.

STATEMENT OF THE HON. CHARLES W. STENHOLM, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Stenholm. Thank you, Mr. Chairman.
    Let me just say the tradition of bipartisanship on the Ag 
Committee is long and well understood and well appreciated. I 
have been here 24 years, and I have already seen the same 
relationship with Chairman Goodlatte. I have learned Virginian 
reasonably quick. He is a reasonably fast study on Texan. And 
when we get there, why, we have the language barrier taken care 
of.
    I fully support the request of the chairman. I would say 
that--and the division of the resources to the minority is very 
fair. It is the same--basically the same as it was when we were 
in the majority. We treated the Republican minority the same 
way that we are being treated today: It was fair then, it is 
fair today. That is one of the factors that contributes to the 
fact that, where we may not always agree on every issue, we do 
find a way of disagreeing without being disagreeable and 
continue to work on the problems that face American 
agriculture.
    The agenda the chairman has laid out, I fully support. He 
laid out what is a very ambitious agenda, but it is a very 
necessary agenda for the Ag Committee. The oversight 
responsibilities that we have are extremely important, and it 
is important that we have the resources to do that job.
    So I am here to say I fully support the chairman. I would 
appreciate this committee granting to us that which we have 
asked. We believe it to be a very responsible request.
    The Chairman. I want to thank both gentlemen.
    With the support of the Ranking Member, the gentleman from 
Connecticut, Congressman Larson, and the gentleman from 
Pennsylvania, Congressman Brady, I know we will have some 
questions.
    One thing I wanted to ask, and this has been a reoccurring 
theme. You haven't asked for additional staff slots, but what 
is your space requirements right now of the existing staff you 
have? In other words, is it comfortable or jam-packed or--it 
has been a reoccurring theme about lack of space. I wondered 
how you sat with that.
    Mr. Goodlatte. Mr. Chairman, I wouldn't want to 
characterize it as comfortable. I will refer to my staff if 
they have some ideas about additional space.
    But I do want to point out that, in that regard, we are not 
asking for staff position increases. I believe we are the only 
committee in the House that has more members of the committee, 
51, than we have staff, both majority and minority staff 
combined.
    I am advised by our Chief of Staff that we are tight, but 
we can live with what we have.
    The Chairman. I was going to say, if you have too much 
space, we will probably take some away. So, a good answer.
    Mr. Goodlatte. We are right down the hall. I think if you 
take a look, you will not find a lot that you can shoehorn 
into.
    The Chairman. Things have changed. One great thing is that 
the Internet has opened up. People can travel easier than they 
could maybe in the past. There are field hearings. But all of 
that, rightfully so, causes the public to ask questions about 
their government, and they want service. These buildings were 
designed quite a few years ago when you didn't have Internet 
and people didn't necessarily get to Washington as they can or 
maybe didn't have field hearings. So just something that has 
been a reoccurring theme. I wondered how it was.
    I appreciate also the last funding resolution, the 
bipartisan support we had on the votes on the resolution. I 
know there will be a question by our ranking member on some 
allotments, two-third/one-third, but I just hope that we can 
also have the support--if we can hold to the allotments that we 
stress in two-third/one-thirds.
    Mr. Larson. Thank you, Mr. Chairman.
    And congratulations to you, Mr. Chairman, on becoming Chair 
of the Agriculture Committee.
    Mr. Goodlatte. Thank you.
    Mr. Larson. We couldn't agree with you more in terms of the 
sage advice, the wit, and the down-home practicality and humor 
that Mr. Stenholm brings not only to the Agriculture Committee 
but he also brings to the United States Congress as well.
    In talking with our staff, the committee has long served as 
a model for the way other committees should run, and you are 
both to be commended for that. As Mr. Stenholm has pointed out, 
you have an ambitious agenda but one that is very important to 
the constituents whom you both serve and the people all across 
this Nation.
    The questions that we have been rather routinely asking 
every Chair who has come in--and again I want to credit 
Chairman Ney for really setting the tenor for Congress in 
making sure that there was a two-thirds/one-third agreement, 
something historically, as Mr. Stenholm has pointed out, that 
has always been accommodated on the Agriculture Committee but 
not necessarily in all other committees.
    The bipartisan manner in which you conduct business is also 
to be commended.
    Our concern would be that, in the event that even these 
modest requests that many people have asked for don't achieve 
full funding status, is it still your intention to have that 
one-third/two-thirds split?
    Mr. Goodlatte. Well, thank you, Mr. Larson; and I think 
that is a very pertinent question. I think you can tell from 
the comments that we made that that is something that we have 
very carefully followed. It is certainly not new with me. It 
has been a long-standing tradition in the committee, and I hope 
that Congressmen Stenholm can verify that.
    I can tell you that is it my intention that we follow that 
no matter what allocation we receive, that whatever burden we 
have to bear here--and with regard to equipment and so on, I 
think Mr. Stenholm will verify that we go out of our way to 
make sure that they also receive their fair share of things, 
other than just staff, so that that staff is properly equipped 
and able to conduct their business.
    We are very proud of some of the technological advancements 
we put in place in the committee. As you know, our constituency 
reaches the farthest corners of the country, some of the most 
remote areas. So the ability of American farmers and ranchers 
to be able to access information from this committee via the 
Internet is very important to us.
    We are proud that our web site was recently recognized, got 
a silver award from the organization that was handing out 
awards last week for good-quality web sites. We believe we may 
be the only one that got a gold, silver, or bronze award that 
was done in-house, not by an outside consulting firm. So we 
have worked very, very hard to make sure that we are using the 
resources that you make available to us.
    Mr. Stenholm. I agree with the Chairman. I mean, it is a 
fair division. Whatever the resources we have, we have had no 
complaints, anticipate none with the relationship that we have.
    Mr. Larson. Well, again, I thank you both. Your integrity 
and the way you conduct your business is a model, as we said 
earlier.
    I would only point out as well--and you should be 
justifiably proud of the Golden Mouse Award, et cetera. But I 
want you to know that our office received one as well, totally 
produced inside. And I told Brian Mahar, who was responsible 
for that, if I mentioned his name I expect appropriate 
compensation for that as well.
    Mr. Goodlatte. Well, congratulations, Mr. Larson. We 
regretfully stand corrected. We will include you when we boast.
    The Chairman. It may be Brian who expects some more 
compensation for doing that.
    Mr. Larson. They always do.
    The Chairman. The gentleman from Pennsylvania, Mr. Brady.
    Mr. Brady. No questions.
    The Chairman. I want to thank both of you for your time.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Stenholm. Thank you.
    The Chairman. The committee will take a short recess.
    [Recess.]
    The Chairman. The committee will be in order.
    The next committee is the Science Committee. We have the 
Chairman from New York, Congressman Boehlert, and the Ranking 
Member from Texas, Congressman Hall.

 STATEMENT OF THE HON. SHERWOOD BOEHLERT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Boehlert. Mr. Chairman, let me express great respect at 
the outset for keeping to a very rigid schedule. You are right 
on time.
    The Chairman. Scientifically on time.
    Mr. Boehlert. Yes. This is not gratuitous, but let me 
commend your staff. Because my staff reports to me on the 
committee and my personal staff that your administrative staff 
has been very, very receptive to questions. Haven't always 
given us the answer we wanted but have always given us a good 
answer and in a timely manner. So my commendation to them. As a 
former staffer, I know who really does all the work here on the 
Hill.
    Thank you for the opportunity for Mr. Hall and me to appear 
before you today. Let me say at the outset that we are 
extremely cooperative--and we have no disputes over any 
committee budget matters.
    This year, we plan to maintain the two-thirds/one-third 
salary account split that has been the committee's practice; 
and we are going to continue that practice. The minority has 
about one-third of the committee staff and uses its salary 
account as it sees fit, and that is the way I think it should 
be.
    The Science Committee is requesting a 2003 budget 
allocation that would be about 11 percent higher than what we 
received in 2002 and then just a 2 percent increase over 2003 
levels for 2004, and there are a number of clear reasons for 
this requested increase.
    First, the committee will have to allocate substantial 
resources to investigate the tragic loss of the space shuttle 
Columbia. Indeed, the Speaker has already given his blessing to 
an additional staffer for the committee because of this 
responsibility. The investigation will also entail significant 
travel expenses, as the Columbia Accident Investigation Board, 
with which we intend to work closely, is headquartered in 
Houston; and the facilities involved in the maintenance and 
operation of the shuttle are located throughout the country.
    Second, the committee continues to upgrade the staff. To 
take just one example, we have changed our associate counsel 
position from a low-level entry position to a senior position 
to be filled by someone who can carry out the tasks like the 
shuttle inquiry.
    In addition, the committee staff has been able to attract 
more Ph.D.s, attorneys, and individuals with significant 
private sector and government experience over the past 2 years 
and needs to be able to retain these excellent public servants.
    Third, much of our requested increase, $365,000, is slated 
to be used to purchase equipment for an offsite emergency 
office which, unfortunately, we think is a wise precaution in 
these times.
    Finally, let me say that within the next few weeks, as soon 
as two of our four subcommittees Chairs appoint their 
designees, all our majority staff positions will be filled. 
This was not the case in the last Congress as we worked to fill 
the vacancies that we inherited and to build a staff to match 
our priorities. And, incidentally, it is not a criticism of my 
predecessor, Chairman Sensenbrenner, who purposefully left 
vacancies unfulfilled in the latter portion of his tenure to 
give me maximum flexibility.
    Having a full staff will mean that the Science Committee 
will not only use all of its requested salary funds in 2004 but 
will incur additional costs for travel and administrative 
expense that are associated with having more staff and taking 
on even more difficult challenges, the loss of the Columbia a 
case in point.
    In short, Mr. Chairman, I believe we have put forward a 
reasonably well-documented request that will enable the science 
community to continue to play an active role in a wide range of 
issues. I look forward to responding to any questions you or 
Mr. Larson or Mr. Brady might have.
    The Chairman. I want to thank the Chairman for his 
testimony.
    Now, the ranking member.

   STATEMENT OF THE HON. RALPH M. HALL, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Hall. Mr. Chairman, thank you; and I thank John Larson 
for his good job and the work he has done and would ask him to 
put in a good word for me with Ms. Pelosi every chance he gets.
    We do get along. This is the third year that we have worked 
together, and there is harmony there, and there has been 
success. We are little, Mr. Chairman, like all us World War II 
guys were in 1945 in how our marriages lasted so long. You 
know, we got together in 1945 and decided that the men would 
make all the major decisions and the women would make all the 
minor decisions. This has worked for 55 years. But there hasn't 
been a major decision yet. Kind of the way we are working 
together here.
    But--and I am--I kid him a lot, but he is a professional, 
he is sincere, he is cooperative, he is helpful, and I 
appreciate him.
    We want to stress to ensure the independent commission that 
is charged with investigating this thing remains independent. 
We think that the Admiral really wants to do that, and we are 
certainly supporting him on that.
    The Chairman has talked about the future of the space 
program. That is something that we have really got to work 
toward.
    I also salute his efforts to upgrade the experience level 
of the professional staff.
    These are things that we have asked for, and I think he is 
justified in the requests that he has made.
    In summary, he is attempting to put the Science Committee 
on a course to make it one of the really, truly important and 
effective committees in the House. I support that, and I 
support the ratios. I would hope that the ratios would be 
consistent among all committees and we be treated accordingly.
    With that, I yield back my time.
    The Chairman. Well, I thank both gentlemen for their 
testimony. The ratio issue is something that we push; and 
Congressman Bill Thomas and Steny Hoyer, when he was ranking 
member, did some real heavy lifting. There were a couple of 
ones that weren't up to par. Then 2 years ago, as you know, the 
Speaker was insistent, he wanted it done; and House 
Administration got it done. Our ranking member now is insistent 
to keep it there, and we hear that message, and I think it is a 
good thing.
    I wanted to ask a question on space, and I ask this 
question but it has also come up about space accommodations for 
existing staff. The reason I mention it is that these buildings 
were built a lot of time ago; and I think we have field 
hearings and the Internet and people are more active with their 
government advocacy groups, but it also causes, obviously--
people have to have their answers, answers given across this 
country, so we have had to, obviously, have more staff to 
accommodate the constituencies and citizens in the U.S. Are you 
having a space problem of physically where to place people?
    Mr. Boehlert. Well, we are operating in tight quarters. 
But, realistically and honestly, I think they pass the adequacy 
test. But it is difficult.
    The Chairman. The other think is that we had a great 
bipartisan vote a couple years ago with members of the Science 
Committee on both sides of the aisle. We would hope that if we 
hold to the ratios that we could again get bipartisan support.
    Mr. Boehlert. You have that from me, no question about it. 
I think the committee is doing a good job.
    The Chairman. Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman. Indeed, it is an honor 
to have these distinguished gentlemen before us today. I have 
been honored to serve on the Science Committee since I became a 
Member of Congress, and I want to commend the Chairman for his 
enlightened leadership and the manner not only as it relates to 
budgetary concerns but also just in the manner in which you 
treat the members of the minority and, also, the relationship 
that he does have with Mr. Hall. Mr. Hall is--well, he is kind 
of like a Will Rogers of the Congress.
    Mr. Hall. Will Rogers is dead, isn't he?
    Mr. Larson. Well, yes, Mr. Rogers did perish, 
unfortunately, but remains everlasting on our minds, et cetera. 
But was known especially for his down-home humor and his 
practicality and his ability to, when things have a tendency to 
tense up, to lighten up the moment and have people look 
realistically about the responsibility that they have in front 
of them.
    Mr. Hall. Thank you.
    Mr. Larson. While I am doing my level best with Ms. Pelosi 
and him, I do want to say that he is indeed loved by all 
Members on both sides of the aisle for just the genuine kind of 
person he is.
    It is our intent to certainly accommodate the committee. 
They do have outstanding staffs on both sides, and we want to 
commend you for that.
    Mr. Palmer has put in some specific requests. I will have 
to talk about that in behind-closed-door meetings with Mr. 
Hall. But, nonetheless, we think that we should proceed in a 
manner----
    The only question that we have, and we have asked this 
routinely, and that is, with regard to--in the event that we 
don't get all the funding that is desired here, is it still the 
intent to keep that one-third/two-third relationship?
    Mr. Hall. Yes.
    Mr. Boehlert. It is our intention to do that.
    Mr. Larson. Well, we appreciate that.
    Again, your integrity and the manner in which you have 
handled this committee and the outstanding leadership that both 
of you have provided are a credit to the United States 
Congress.
    Mr. Boehlert. Thank you very much for those kind words.
    The Chairman. Mr. Brady.
    Mr. Brady. Nothing.
    The Chairman. I want to thank you both today for your 
testimony.
    Mr. Boehlert. Thank you very much.
    The Chairman. The next committee will be Rules. The 
committee will come to order. The committee will come to order.
    I appreciate the Chairman and Ranking Member, and if you 
would like to give a brief statement.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Well, thank you very much, Mr. Chairman.
    Let me say that it is a great pleasure to be here again 
with my colleague, Mr. Frost; and I am pleased to submit to you 
a bipartisan budget package which passed the Rules Committee by 
a voice vote.
    We intend to continue our long-standing arrangement 
dedicating, as we know, under the rules of the House, a third 
of the Committee's personnel budget to the minority, while 
granting all other requests in a timely manner subject to the 
availability of funds that are allocated from you to this 
committee.
    In my 4 years a chairman of the committee, the minority has 
been granted every request that has been made, whether it be 
equipment, subscriptions, or supplies. We have worked on 
computer issues as well with them, trying to make sure that all 
their needs are addressed; and I suspect that this 108th 
congress will be no different.
    We will also continue to operate within the constraints of 
our existing staff ceiling of 36, with 24 allocated to the 
majority, 11 allocated to the minority, and one shared 
administrative employee. Actually, it is my understanding now 
that we are going to be making a modification. It will actually 
be 24, 12 on the staffing allocation, based on a change that I 
was told yesterday we are going to be making.
    Our committee is asking for a modest overall increase of 
five and a half percent. These increases will be incurred in 
personnel compensation and are necessary to keep experienced 
staff from leaving the job for jobs in the private sector. It 
is also necessary to ensure that the minority has sufficient 
funds within their one-third allocation to provide modest cost-
of-living increases over the next 2 years. Mr. Frost has an 
extremely loyal, very dedicated and experienced staff; and we 
want to make sure that they are compensated accordingly.
    Thanks to the support of this committee and your 
leadership, Mr. Chairman, for our previous fund request, our 
committee has done well in upgrading the office equipment and 
will continue to do so in this Congress.
    Our biggest priorities in the 108th include the purchase of 
a high-speed capacity photocopier for the minority, new network 
servers for both the majority and the minority, modernizing the 
equipment in our subcommittee office, which currently has 
antiquated equipment dating back to the early 1990s--that 
doesn't seem so long ago to me--but antiquated equipment from 
the early 1990s.
    The subcommittee modernization was originally budgeted for 
the 107th Congress but not undertaken as the committee was 
notified that the subcommittee office had been relocated. The 
relocation is now complete, and we hope to begin the 
renovations just as soon as possible. We are planning to 
initiate the majority of equipment purchases and/or upgrades 
during the first session of this Congress.
    Our travel budget has been reduced 50 percent; 
administrative expenses have been reduced by 2 percent.
    I believe it is a very, very fair and balanced budget 
request that we have; and I want to express my appreciation to 
Mr. Frost. I have enjoyed working closely with him as we have 
developed this budget, and I am glad that we have got a package 
that we can both support.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Chairman.
    And, Ranking Member.

    STATEMENT OF THE HON. MARTIN FROST, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Frost. Mr. Chairman, I will summarize my remarks, 
because we have votes.
     It is a pleasure to be here today. Some years ago, I sat 
where you are sitting today. I was the chairman of this account 
subcommittee, and that was a different time. So I can 
understand the problems that you face.
    I would like to acknowledge that chairman Dreier has, in 
fact, given the minority one-third of all the resources of the 
committee and that he has been very accommodating when it came 
to our requests for equipment for the minority; and I join in 
his request to the committee.
    I would like to make some observations, and I am going to 
summarize.
    We have a lot of very experienced staff on our side, and it 
is my view that the committee has not sought enough money to 
compensate staff, and it has put some restrictions on--of 
course, that by its very nature puts restrictions on what we 
can pay very experienced people who have been around for a long 
time. I would--while I am joining with the Chairman, and I do 
support his request, I would hope that at some point in the 
future that we would be able to--your committee would be able 
to allocate more total money for staff, again, knowing that 
this is divided on a two-thirds/one-third basis, so that we 
could compensate adequately the very experienced people that we 
have.
    The Chairman has indicated, and I wasn't aware that we are 
going from 11 to 12 slots, and I appreciate that. We really 
needed two additional slots. But, of course, if we don't have 
enough money to pay staff, the slots are not overly helpful at 
this point.
    The problem that we face is that we have very complicated 
matters before this Congress, and the Rules Committee plays an 
increasingly important role in the consideration of those 
matters on the floor. We just had a somewhat heated debate on a 
rule that is on the floor today.
    We have very good people working for us, and I would hope 
that we would be able to come to the point where we could 
adequately compensate and retain those very good people.
    I do appreciate what the Chairman has done in terms of 
accommodating our equipment needs. The Chairman has certainly 
honored the two-thirds/one-third division of staff, and that 
has been the tradition on this committee even before that was 
the tradition in the House and with other committees.
    The Chairman. I want to thank the gentlemen. Thank you.
    Mr. Larson. Well, given the time--I know that the two-
thirds/one-third rule has always been a floor and not a 
ceiling, and I am hoping that we can accommodate the interests 
and concerns of Mr. Frost and the committee.
    Again, I commend the Chairman for his working relationship 
and his historic perspective of Congress and the House and 
everything that that means. It has been an honor to be 
associated with you, Mr. Chairman, over the years. I can't 
think of anyone who, in terms of a colleague's colleague, 
better typifies the relationship that I have with Martin Frost. 
He is like General Omar Bradley. He has certainly been there 
for the Members and this institution, and it is an honor to 
serve with him as well. It is hopeful that we can work this 
process through.
    The Chairman. The gentleman, Mr. Brady.
    Mr. Brady. I feel the same.
    The Chairman. Well, we want to thank both Generals for 
being here today.
    Mr Dreier. Well, I wasn't called a General, the only 
military guy here.
    The Chairman. Well, we will call you Patton.
    The Chairman. Speaking of Generals, I want to extend an 
apology to our colleague, Congressman Skelton. The bells have 
rung, and he came early. But would you like to--do you want 
to--we can do Duncan afterwards?
    Mr. Skelton. It is up to you.
    The Chairman. We have 10 minutes left. It is up to you. If 
you would like to put a statement in the record.
    Mr. Skelton. I thank you very much. I am sure that Duncan 
is on his way.
    Mr. Chairman, Mr. Larson, thank you. I would like to put my 
statement in the record, if I may.
    The Chairman. Without objection.

STATEMENT OF THE HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. We are a rather unique committee, as two 
members sitting here will testify. We are very bipartisan. We 
have a fully professional staff. A handful are dedicated to the 
minority, but, by and large, most of the staff are fully 
professional.
    For a good number of years the defense budget has been 
rising, but the same number of staff members has been 60, and 
the payment has been, in some cases, limited. If we want to 
keep a good staff, we are going to have to compete with outside 
interests as well as other governmental arms. I hope that--and 
the request, Mr. Chairman, Mr. Larson, is for a 13 percent 
increase. Over the last two chairmen, we haven't had any number 
of increases in the personnel number; and there is an increase 
in authorization for an additional six staff members. The 
authorization today is at 60.
    Mr. Skelton. I really think that the pay, the COLAs that 
are needed, the equipment, supplies, travel funds all require 
the full amount that Mr. Hunter is requesting. I certainly 
agree with everything. He has treated us very, very well. He 
will continue do so I know. We work on not just issues but 
process hand in glove. I would appreciate the request that Mr. 
Hunter has put forward, and I second the motion as much as I 
possibly can.
    I hope this committee will realize that we are a very 
unique, bipartisan effort in Congress and we work that way. The 
demands on the Armed Services now with the potential of Iraq, 
the terrorism war that is ongoing, you don't have any idea the 
amount of work that has increased during that time; and I think 
his request for additional funding is certainly justified.
    The Chairman. I thank the gentleman.
    Unfortunately, we are out of time. I just want to commend 
you and the committee. You do a great job on this important 
issue.
    The gentleman from Connecticut.
    Mr. Larson. It is our intention to fully fund your request.
    Just one quick subnote, that Mr. Taylor and Mr. Abercrombie 
have asked that we have cream for their coffee or milk for 
their coffee. They are a little concerned about the powdered 
stuff.
    Mr. Skelton. We have noted their request, and we will do 
our very best to fulfill your request.
    Mr. Larson. Again, I thank you for the working 
relationship; and, in his absence--I am sure Mr. Hunter will 
stop by later on, but I want to commend you both and especially 
you, Mr. Skelton, for the manner in which, whether it has been 
Mr. Stump or anyone that you have had an opportunity to work 
with, you have done so bipartisanly and in the best interest of 
our country.
    The Chairman. The gentleman from Pennsylvania, Mr. Brady.
    Mr. Brady. I serve with Mr. Skelton. You are one of the 
classiest people in this institution. Thank you.
    Mr. Skelton. Thank you.
    The Chairman. Thank you.
    The committee will stand in recess.
    [Recess.]
    The Chairman. The House Administration Committee is back 
from recess.
    We had the Ranking Member here, who had good and glowing 
things to say about the committee and also the Chairman, so, 
with that, we have the Chairman of the Committee on Armed 
Services, Mr. Hunter.

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman and Mr. Larson. Great 
to be with you, and thank you for taking Ike's statement here 
at the end of the session just before the vote.
    Let me just say, Mr. Chairman, we are asking for an 
increase this year. In years past, as you know, we have turned 
money back. We have essentially the same staffing ceiling since 
1995; and the increases that we are asking, roughly a 13.8 
percent increase, is I think necessary to take care of merit 
pay, adjustments, cost-of-living pay as well as a modest 
increase in the size of our staff.
    I would ask if I could offer my written statement for the 
record and just give you a summary of----
    The Chairman. Without objection.
    Mr. Hunter [continuing]. Why I think this is reasonable.
    First, as Mr. Larson knows, we have taken on a job which 
has become increasingly complex; and to those ends we have 
added a new subcommittee, the Subcommittee on Terrorism, 
Unconventional Threats and Capabilities, which I think is 
extremely necessary in these times. We also now have the 
military operating at high state around the world, a fairly 
significant budget at $399 billion this year, and we have new 
elements of national defense. We have, obviously, the homeland 
security element, which is going to involve us to a large 
degree. We have a new frontier in space. We have missile 
defense emerging into operational states; and, of course, the 
ongoing war against terrorism.
    All of this also is putting an increasing strain on our 
soldiers, sailors, airmen and Marines. We are maintaining this 
volunteer military at a time when it is more and more difficult 
to get these folks back home to make sure that their needs are 
taken care of in terms of their families and personal 
requirements and yet we have been able to make this volunteer 
military work.
    So I think we have an increasing oversight role in Armed 
Services, and we have--Mr. Skelton may have alluded to this, 
but we have got, I think, a unique bipartisan working 
relationship on this committee in that we don't have a ratio of 
minority to majority staff. What we have is a base professional 
staff that handles 99 percent of our issues are bipartisan 
issues, whether you are talking about pay for the troops, 
equipping the troops, military construction, so we have a 
professional staff that is bipartisan and is maintained through 
whether you have Republican or Democrat control.
    Along with that, we allot in this case--Mr. Skelton's 
case--nine professional staff members to the minority so that 
when you have legitimate policy difference within the minority, 
whether it is Republican or Democrat, you have the ability to 
engage in that policy debate and make that policy debate. We 
found that to be very workable. Members of our committee go to 
our professional staff, whether they are Republican or 
Democrat, and receive the same professional response; and it is 
always a response directed to helping folks in uniform and 
doing the right thing for national security.
    So we are asking for this increase. I think it is valid in 
light of the responsibilities that we have in the area that we 
need to look over.
    The other aspect of needing some additional resources is 
this, Mr. Chairman. Frankly, we have got the administration 
recruiting a lot of our professional staff folks. Some folks 
may refer to that as stealing our staff people. We think of 
them as moving on to another position, but we have had I think 
six Senate confirmables have left our professional staff this 
last year.
    We also have industry competing for our folks. They have 
got to know an increasingly sophisticated aspect of many 
systems, which requires that they have a high degree of 
expertise, and it is a degree of expertise which is sought out 
by industry, too.
    So we are competing with industry, and we are competing 
with the administration for talented folks, and that means that 
we have to pay them a decent salary to be able to attract those 
folks and recruit them into the Armed Services staff.
    So that is my pitch, Mr. Chairman. I want to thank you and 
my great friend Mr. Larson, a member of the committee, and Mr. 
Brady, also a great friend, for allowing me to come up and make 
this presentation and put our request in.
    I would like to ask that my written statement be entered 
into the record.
    The Chairman. Without objection.
    I just want to note the importance of your committee all 
year round but especially at this particular time and commend 
you on the bipartisan job that you all have done on that 
committee. I think that you have done a great job, you and the 
Ranking Member and the way the staff has responded to people.
    One thing I wanted to clarify for the record, are you 
asking for five new slots or six?
    Mr. Hunter. We are asking for--let me say we have a 60 base 
now. We are going to 66. We are asking for six new slots; and 
the minority will share, Mr. Chairman, any increase that we 
receive. But we looked over these new areas and we really have 
to work on those that are very difficult. This information 
technology we are spending a ton of money on requires a lot of 
attention, a lot of talent. The war against terrorism is going 
to require a lot of talent, the new things we are doing in 
space and with respect to the newly operational missile 
defenses we are setting up around the world and, lastly, trying 
to make this Pentagon run more efficiently and effectively.
    And I don't want to mention that Mr. Brady has brought up 
several times we need to have better food in the markups, but 
he is going to volunteer that in the next markup.
    The Chairman. Thank you.
    The gentleman from Connecticut.
     Mr. Larson. Thank you, Mr. Chairman.
    Let me echo the sentiments that were expressed by Ike 
Skelton early on about the outstanding working relationship 
that he has with Mr. Hunter. It has been an honor for me, along 
with Mr. Brady, to serve on the Armed Services Committee; and 
the fair-minded manner in which the Chairman treats us not only 
in terms of requests as it relates to the committee but in the 
manner which you treat all the members who serve on the 
committee--you go the extra mile on behalf of the members. And 
it is duly noted by both sides of the aisle, and we commend you 
for that.
    I also think, as you pointed out, the unique relationship 
of the professional staff on the Armed Services committee 
because of its bipartisan nature and the extraordinary pressure 
that the committee is operating under, meeting the demands 
concurrent with the times today, it certainly warrants the 
increase that you have asked for and sought. We hope to be able 
to accommodate everyone's desires and concerns.
    We know as well we are going to hear shortly from the 
Budget Committee. Someone who has forgotten more about defense 
than maybe most of us collectively can remember is John Spratt, 
and he always is touting the importance of making sure that we 
have professional staff and that we are able to get the kind of 
information that we need.
    So, Mr. Chairman, again I thank you. Mr. Skelton was in 
complete harmony with your request, and again I think that is a 
credit to the way both you and he conduct yourselves as the 
people who spearhead our Armed Services Committee.
    Thank you, Mr. Chairman.
    Mr. Hunter. Thank you, Mr. Larson and Mr. Brady, too, for 
your membership on this great team. We have got a great team on 
the Armed Services Committee. I appreciate it.
    Mr. Larson. Thank you, sir.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Brady. Thank you, Mr. Chairman.
    Chairman Hunter, I come from the City of Philadelphia, and 
I come way up here and sit there day in and day out in the 
markup, and you give me pizza and hoagies. I can bring my own 
pizza and hoagies.
    But I am only teasing you. I enjoyed them. When you are 
hungry, everything tastes good.
    I just found out today that we had a Democrat and 
Republican staff. It was never treat that way on that committee 
as long as I had been there. You have a great staff. They treat 
us with respect. As I said about the Ranking Member, I way 
about the chairman, you both are two class individuals, and I 
am proud to serve with you.
    Mr. Hunter. Thank you very much, Mr. Brady. It is great to 
have you on the team. I appreciate it.
    The Chairman. Just to correct the record, Mr. Brady meant 
to say he would like Philly cheesesteaks.
    Mr. Hunter. We are going to let him bring those next time.
    Mr. Larson. I would also like to parenthetically add that 
we did bring up with Mr. Skelton that several members of the 
committee have asked that we now serve milk and cream with our 
coffee in the anteroom just adjoining, and I am glad that Rita 
has indicate she is going to be able to accommodate the staff. 
They will all be here. Proud to hear that Mr. Brady and I have 
been able to deliver that on their behalf, and we thank you in 
advance, Mr. Chairman.
    Mr. Hunter. Thank you. I think there was a delivery started 
this morning.
    Also, Mr. Chairman, we could use more room, obviously. We 
have got space problems, as I believe most folks do. I wanted 
to make that note for the record.
    The Chairmn. I want to thank the Chairman.
    The Chairman. Next, move on to Energy and Commerce. We have 
been talking about budgets, but we have gotten off onto food, 
and I know you are from Louisiana.
    Mr. Tauzin. We are talking turkey here.
    The Chairman. We have the Chairman, Congressman Tauzin of 
Louisiana, and Ranking Member, Congressman Dingell of Michigan. 
We will start with the Chairman.

 STATEMENT OF THE HON. W.J. ``BILLY'' TAUZIN, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Mr. Chairman, first of all, let me thank you 
again and thank this committee generally for the extraordinary 
help that you have given not only our committee but all of the 
committees of jurisdiction in terms of upgrading our rooms and 
our ability to do our job. I think we are much more efficient 
now, and I want to thank you for that.
    Let me also tell you that if you look at a comparison of 
all the funding requests, we are coming to you with an 11 
percent increase over the 2 years I think we have talked about. 
In regards to that, if you compare that request to most of the 
other committees, you will see that we are relatively low in 
our request. A committee is requesting as much as 43 and 40 
percent and 29 and 30 percent.
    I would hope that as a result of all these hearings and as 
a result of your deliberations and your decisions that we don't 
learn that we should have played that game, that we should have 
come in asking for some huge increase in order to get a more 
reasonable increase. What we will try to do, as you will see, 
is ask for increases that are commensurate with the increasing 
workload and the increasing requirements of our committee and 
the incredible burden of hiring competent staff to do the 
difficult, complex job we do for the House and for the country.
    As you know, I want to focus on three areas.
    First of all, I am pleased to be joined by the former 
chairman of the committee, Mr. Dingell, our ranking Democrat on 
the committee, who I think will tell you as much as I can about 
the needs of our committee and why it is important that we 
continue to have your support in supporting the key elements on 
which we base our work.
    First of all, if you want to hire a skilled lawyer in this 
town anywhere on K Street, you are looking at $150,000 right 
now or better. The demand for competent, qualified staff coming 
out of that pool is very difficult to satisfy; and the 
competition being as fierce as it is--in fact, we lose some of 
our best people every year to opportunities on K Street; and we 
have seen some of our very best personnel moving off to--I am 
very happy for them--but taking some very nice assignments 
elsewhere than in government service.
    And that competition doesn't get easier. It gets worse as 
we go along, and I want to make that point to you.
    Second, beginning the last Congress, we have reached a 
bipartisan goal of allocating fully one-third of our committee 
slots and resources as well to our minority. That, as you know, 
was a request of this committee and the leadership. We have 
worked this out, and we have worked it out very amicably with 
our committee, and it is working.
    However, that comes with a price. The majority--we can't 
simply give away resources required to attain them. We would 
cease to function if we did that. We have to have the capacity 
as a majority to organize and get our work done. So making this 
accommodation has put some strains on the ability of the 
majority to get its work done and organize and do it.
    I want to make sure that you understand not only are we 
happy to do it, we thought it was the fair and right thing to 
do, but it has stressed us to some degree.
    Third, our hearing room upgrades. I don't have to tell you 
again. I have said it once, I will say it a thousand times. Not 
only my committee but all the committees have had the benefit 
of upgrades, and I want to thank you for that. We are now 
literally, finally, a high-technology committee. We have 
telecommunications under our jurisdiction, and we were 
operating with egg timers for a long time. We now are finally a 
high-technology committee with high-technology stuff in our 
committee room to do interactive rooms, and we have done them. 
We have done interactive hearings with witnesses as far out as 
California.
    Although, as requested by you, we have not included a 
funding request for the upgrade of the second hearing room, 
which is 2322. We do request that those funds be required--
provided rather. With the House frequently in session now only 
2 or 3 days a week, it is critical we have both of these 
hearing rooms function. If we had the full 5 days, we could 
have hearings scheduled out more appropriately across that 
time. We wouldn't need necessarily to speed up the upgrade of 
the second hearing room. We have no choice any more. So we are 
in dire need of that upgrade, and we hope that you will find 
the funding for that work as well.
    Again, let me thank you for the opportunity to make these 
few points to you; and I yield to my dear friend and the 
Ranking Minority Member, Mr. Dingell.
    The Chairman. Thank you.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, Mr. Larson, members of the 
committee, thank you. I am happy to appear here with Chairman 
Tauzin. I thank you for your courtesy in hearing from us.
    I support the budget that he suggests. I believe it is both 
necessary and desirable that the committee should be funded at 
these levels.
    Mr. Tauzin has treated us fairly with regard to the amount 
and allocation of resources, financial and otherwise; and 
because of the workload facing the committee, I would urge that 
the committee do adopt the budget suggested. I would note that 
it was endorsed by our committee unanimously.
    I ask you to, of course, assist us in upgrading room 2322, 
which is our second hearing room.
    I thank you for your consideration in hearing from us. If 
you have questions, I will be happy to respond.
    Mr. Tauzin. Mr. Chairman, if I could add one other thought. 
Ninety percent of our budget is in compensation of the staff. 
We focus our attention on personnel.
    One final thought, too. That is that, because our committee 
does such extraordinary oversight work--you have seen our work 
on the Enron hearings. You have seen it on the Firestone 
hearings, Red Cross. You have seen it on a number of different, 
very serious, huge national issues. We are busy right now 
investigating national labs and some of the abuse of Federal 
funds to credit cards. Our staff and our members have to--very 
often have to go out to places with our investigators, have to 
travel around the country, and that part of our budget is very 
critical as well if we are going to continue our work.
    The Chairman. The Chair notes you have had a couple of 
years of heavy lifting, and a lot of committees have had that 
happen. 9-11 with House Administration, as you can imagine, the 
security and the anthrax caused an amazing workload; and the 
staff, minority and majority, did a great job, as the members 
did. In your case, I am sure some of that, also, flows in. But 
you had specialty items that came up unexpectedly you had to 
react to.
    I also want to note for the record I can remember 2 years 
ago--and it was tough doing this, but you did it. You took nine 
new slots, and you shifted them to the minority to make that 
whole process occur, and that is tough. You ask for slots, and 
you get them, and you shift them. But it was the fair thing to 
do, and you all agreed on that, and I give you a lot of credit 
for doing that.
    Also, I want to note your staff has given us ideas in 
technology that we now are trying to take conference wide for 
the Democrats and Republicans, ideas of TV channels and digital 
and things that we can do. So we appreciated that, and it is 
going to benefit all the members.
    The other thing, too, is that you are the only committee--
and I know you had something to do with this, obviously--where 
I got a personal thank you from everybody, minority and 
majority, for what we did. So I appreciate the courtesy from 
both sides.
    Mr. Tauzin. I learned that as a child. You guys have been 
awfully good, and I made sure all my members knew that.
    The Chairman. Thanks, and we appreciate also the bipartisan 
vote for the funding resolution. Two-thirds/one-third was 
critical. Chairman Thomas and Ranking Member Hoyer pushed that 
at that time. The Speaker insisted on that. A lot of it was 
done. We came in at the end and wrapped the rest of it up with 
both the Ranking Member and the Chairman's help.
    Our Ranking Member, the gentleman from Connecticut, Mr. 
Larson, was insistent on it, and rightfully so; and we agreed 
with him and his persistence on that. We appreciate getting the 
bipartisan vote. We hope that can happen again, both sides 
voting for the funding resolution on the floor. You both can 
commit to that at this time----
    Mr. Tauzin. I can't speak for John, but certainly you have 
my support, and you know that.
    Mr. Dingell. I will be supporting your budget that you 
submit, Mr. Chairman; and I will be happy to do so.
    The Chairman. Thanks.
    I want to ask you about space because we are hearing about 
tight quarters, space, physical location of staffs. Buildings 
were built a long time ago, and I just wondered if you had any 
comments about any need for additional space.
    Mr. Tauzin. One of the other things I did was to try to 
make additional space available to John as we allocated the 
space that was allocated to our committee. I think Mr. Dingell 
will acknowledge that has happened with regard to housing the 
members of staff that was shifted over to his side.
    But, obviously, space is always a problem, as we are 
working in, as you know, older buildings. Our good fortune is 
to be in the Rayburn Building, which is a more modern-type 
space; and the committees obviously operating in the older 
buildings maybe have even more difficulty than we have. But we 
utilize all the space we have.
    I would love for you to walk by some of the operations. You 
will see that we are stacked up in closets in some cases even 
in the Rayburn building. To the extent I know other committees 
may have more serious problems than we have in that regard, I 
want to echo that it is a problem for us even in a modern 
building. I can imagine how much a problem it is for other 
committees in more ancient buildings.
    The Chairman. Thank you.
    The gentleman from Connecticut.
    Mr. Larson. Thank you, Chairman Ney.
    As we have said to the previous Chairs and Ranking Members 
who have come forward, we want to continue to thank Mr. Ney for 
his service in asserting the one third/two thirds relationship 
that has existed on the committee, as both of you have already 
acknowledged.
    Chairman Tauzin, we want to thank you again for the manner 
in which you have worked with the minority. There can be no 
greater testimony or compliment than to have the dean of the 
House indicate that he endorses your proposal, and that 
certainly is good enough for me, a man whom we hold in such 
high regard and stature in the House of Representatives, and 
rightfully so because of his long-standing service and 
commitment and understanding and respect for this great 
institution, is something that he has made sure that those of 
us who are following him are well aware of. I personally thank 
him for that.
    We have said and you have indicated in your statement, so I 
don't think there is a point in following up on the 
relationship between the one-third/two-third split that we 
obviously think has helped the process.
    Again our kudos and thanks, because the enlightening thing 
for new members--and all three Democrats are new members to 
this committee--is to find out just how much information 
actually--new information and help that so many of our 
committees, especially in the areas of technology and other 
matters, might be able to assist us.
    I would only ask the dean of the House if he has anything 
else to add, or is there anything we should follow up with on 
the committee?
    Mr. Dingell. Thank you, Mr. Larson. I appreciate your 
concern about us, and I am grateful to you for that and also 
for your friendship.
    Our chairman has been fair in allocating resources of the 
committee, and I want to thank this committee for the way in 
which you have addressed our concerns and problems. I 
particularly want to thank you, Mr. Chairman, and you also, Mr. 
Larson, for the fashion in which you have done so.
    We are able to conduct our business well. There are times 
we have certain stresses on us, but I would observe that the 
Chairman has, as I have mentioned, been fair.
    We do confront, as the Chairman has wisely observed here, 
that we do have space problems; and these facilities, the 
buildings, are old. The Cannon Building, I suspect, is 
approaching its 100th birthday. This building was occupied by 
my dad in 1933 when he first came in here. That is a long time 
ago?
    I was the last guy to get into the Rayburn Building when it 
was set up in 1965.
    Mr. Tauzin. Were you here when they burned the Capitol?
    Mr. Dingell. Just after.
    But all of these buildings confront major problems, both 
with regard to design, with regard to safety, with regard to 
the space available per employee; and that is true in your 
personal office as well as it is in terms of committee 
business.
    We face questions of wiring and safety, and I wouldn't be 
at all surprised if were not probably condemned as being unsafe 
for electrical and water and other concerns which we have. The 
elevators, as you might know, ladies and gentlemen of the 
committee, is an abomination.
    To conduct the business of this body in facilities of this 
age is difficult, but I know this committee has been diligent 
in addressing those concerns, and I want to express my 
appreciation for that, too.
    Mr. Tauzin. If I could jump in, Mr. Larson, let me first 
mention something that I think Mr. Dingell will also concur in.
    The nice thing we discovered when we made the adjustment in 
staff and allotments and space, first of all, most of the work 
we do we do in a very bipartisan fashion. We will have some 
great wars once in a while over some good issues, and we may 
have a few this year, but an awful lot of our work is done 
where the staffs are working together. My staff works for John 
as much as his works for me in that regard. We work as a team 
to get good legislation to the floor, and I hope that is true 
of more committees. I know it is very true of ours.
    I find that the quality of the staff that work for the 
minority is as important to me as the quality of the staff that 
works for the majority, and that has worked out very well, and 
I want to thank Mr. Dingell publicly for that.
    Secondly, to let you know that your respect for Mr. Dingell 
is matched completely by my own. I grew up with this man when I 
first came to Congress as the chairman of a committee. I 
learned an awful lot about how to run a committee, how to make 
it work, because I paid attention to him; and I think that is 
paying dividends for our committee today. I have the greatest 
honor and respect for him, and I think that helps us work 
through these asset and allocation issues quite well.
    Mr. Dingell. And I share those feelings, gentleman and 
ladies, for my present Chairman.
    Mr. Tauzin. Finally, there are some great new technologies. 
I just want to make you aware of a couple of them that are on 
the cusp, that are not here yet. But we are investigating one 
new technology that may well be able to distribute broadband 
over the old copper that exists in these buildings. Instead of 
rewiring and putting in fiber and doing all the things we 
have--we might have to do, it might be possible to distribute 
broadband, high-quality digital interactive capacity in a 
building as old as this one and the Cannon building without 
necessarily going through a lot of reconstruction. Before you 
go into reconstruction, I think you need to know more about 
these new technologies.
    Secondly, there are incredibly new wireless technologies on 
the cusp. There are some ultra broadband concepts that FCC is 
just beginning to license in application. One, developed by a 
company called Time Domain in Huntsville, Alabama, if it is as 
good as it promises to be could deliver ultra-wide broadband 
through brick and mortar, through walls, without the necessity 
of even using the current wires and the new fiber that you 
might want to put in those walls.
    In short, there are some pretty interesting things 
happening that I would encourage you to stay in touch with our 
staff on as we learn more about them. We will share that 
information with you because it may keep you from making a 
decision to spend money that you might not have to spend 
because there is a system that eclipses in technology the old 
systems that existed that you might deploy, and to that extent 
we will continue to share that with you.
    Mr. Larson, I appreciate your thoughts on that.
    Mr. Larson. We thank you, Mr. Chairman.
    Also, Mr. Chairman, if you could share with us your great 
culinary expertise as well, that is always welcome.
    Mr. Tauzin. I will tell you how grateful I am for all you 
have done. I will be more than happy to do what I did for 
Martha Stuart. I will come and cook for you----
    Mr. Larson. We appreciate that. We will take you up on 
that.
    The Chairman. The gentlelady from California.
    Ms. Millender-McDonald. Thank you.
    Mr. Chairman, Ranking Member, it is always good to see the 
committee Chairman and the Ranking Member work so well 
together, and this has been since I have been here in 1996. 
While we certainly value the institutional memory and the 
institution of Mr. Dingell, in fact, this institution perhaps 
needs to be relooked at. Mr. Chairman, I would love to see how 
long has it been since we have looked at the wiring and the 
safety of this place. Perhaps there are reports and a thorough 
examination has been done, but I think we need to in light of 
fiberoptics and the great things that are being done now.
    Given the mode that we are in, we cannot be too careful in 
ensuring that the wiring and the safety of these buildings, 
irrespective of the lack of space, be one that we are in front 
of and not behind on. So these two outstanding gentlemen that 
bring so much to the Energy and Commerce Committee can give us 
some suggestions or at least have us work with their staff on 
some of the things that they feel we should be looking at in 
terms of the wiring and just in the complete safety of these 
buildings. Speaking on behalf of the members, we will be 
grateful and much appreciative of that.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Brady. No questions.
    The Chairman. With that, I want to thank both of you. I 
appreciate the work that both of you do and the suggestions and 
how you have been able to tackle a lot of tough topics in a 
good manner. Thank you.
    Mr. Dingell. Thank you for your courtesy; and thank you 
also for your leadership, ladies and gentlemen of the 
committee.
    The Chairman. Next we will go to the Budget Chairman, Jim 
Nussle of Iowa, and Ranking Member, Congressman John Spratt of 
South Carolina.
    The Chair will note that many chairmen have testified they 
need a budget increase because they have got tasks from the 
Budget Committee. So I thought I would let you know that, Mr. 
Chairman.
    Mr. Nussle. I am sorry, I couldn't hear you.
    The Chairman. Many of the chairmen and ranking members have 
said that they now need a budget increase because they have 
tasks from the Budget Committee.
    Mr. Nussle. Well----
    The Chairman. You don't have to comment on that. I just 
wanted to note it.

STATEMENT OF THE HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF IOWA

    Mr. Nussle. We passed our budget last night at about 1:30, 
Mr. Chairman. Mr. Spratt and I conducted our committee markup, 
our annual markup for the budget. And you are correct. But 
since it has not yet passed the floor or gone to conference, 
those tasks are projected tasks dynamically scored for the 
purpose of their testimony before you. So----
    The Chairman. If the gentleman would yield for just one 
second, I want to give you some comfort level that the $5 
million that we need to find has been already agreed to on a 
bipartisan basis. We are going to charge a member of the Budget 
Committee for rent.
    Mr. Nussle. I had a feeling that was going to come up 
today; and, Mr. Chairman, we intend to our part. We think that 
that is true, at a time when there are difficulties throughout 
our budget and when we have men and women in service and we ask 
for sacrifices, that everyone should be willing to do so.
    Our request for the 108th Congress is for an overall 
increase for both sessions of 4.7 percent. That is a 3.26 
percent increase the first year, and a 1.39 percent increase 
the second. It is an average increase which we believe is 
consistent with the rate of inflation.
    We are not requesting an increase in the number of 
available staff positions. Our long-term goal, however, does 
remain to attract and retain good-quality personnel in very 
specialized vocational areas. Another way of putting that is 
that we have a budget responsibility that is equal to, if not 
greater than, the President's at OMB. Our Budget Committees and 
the Congressional Budget Office provide us with those kinds of 
details and expertise, and we want to ensure that those 
positions continue to attract good people.
    Our increase in personnel compensation would go toward our 
continuing efforts to develop specialized staff and keep pace 
not only with our Senate counterparts but also with 
appropriation and authorizing committees.
    Our funding levels in the categories of travel, detailees, 
and consultants remain unchanged from the 107th Congress. This 
request does not assume any funding for detailees from the 
executive branch or any outside consultants. No outside 
consultants are requested.
    We are requesting a modest increase in the committee's 
budget for equipment. The major portion of this increase would 
go toward the installation of the disaster recovery system, 
with the remaining portion being used for software upgrades and 
the annual one-third upgrade of computers, printers, and other 
equipment.
    In preparing my funding request, Mr. Spratt has been 
consulted and the minority staff have been consulted to 
determine their budgetary needs. My practice has been to 
provide the minority one-third of the total budget for 
personnel, as has been requested by this committee; and we have 
lived up to that in all of the budgets that I have had the 
opportunity to request. This translates into providing the 
minority one-third of available staff positions as well as one-
third of the line item for personnel compensation.
    Additionally to that, Mr. Chairman, just to report to you 
and to the ranking member, that it is my policy to upgrade one-
third of the minority's equipment each year as well in addition 
to that, which, I don't believe is something that has been 
requested by this committee, but I think is important for us to 
do.
    Finally, I am unaware of any reasonable requests from the 
minority that have not been accommodated in this budget. Mr. 
Spratt and I worked closely together. We kind of have an 
understanding that, while we have to argue and kick and fight 
and fuss when it comes to the substance of a budget, we should 
operate our committee in a bipartisan, process-oriented way; 
and that means that we operate in fairness, as requested by 
this committee and as commanded by our Constitution and the 
duties we have before us.
    So that is the way I like to operate, and I commend Mr. 
Spratt for the way he operates as well.
    That is my testimony.
    The Chairman. Thank you.
    Ranking Member Spratt.

STATEMENT OF THE HON. JOHN M. SPRATT, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Spratt. Mr. Chairman, thank you very much; and I agree 
with everything that my Chairman has just said.
    If I could digress just one second. I am also on the Armed 
Services Committee, and I sat through Duncan Hunter's 
testimony, and I would like to second what he has said about 
the professional staff on the Armed Services Committee. Not 
only does that committee superintend the authorization of 
billions of dollars, more than any other committee in the 
Congress, really, it also is sitting in on top of a major 
increase in defense right now. And we found in this area that, 
to get good professional help, there is a lot of competition in 
this city, in the government and outside the government, and we 
need good professional and technical help to adequately be 
stewards of the defense budget, which is now $400 billion.
    We have on our committee, the Budget Committee, an 
arrangement whereby we get a third of the personnel resources 
and a third of the budget, and that has been a suitable 
arrangement. It has worked well, and the Chairman has worked 
with us. When we needed equipment, for example, he has worked 
very well with us.
    During the past year, we were evicted from our quarters 
which were in the old Tip O'Neill building back behind here 
which used to be, I think, a Howard Johnson Motel. The 
advantage of being in that building was that we had plenty of 
space, and every staffer had not only his or her own bathroom 
but his or her own bathtub. I don't know if they were used for 
that purpose. In fact, I found that a lot of the bathtubs had 
been converted to file cabinets. But, in any event, we have 
been evicted from that; and the building was razed. Now we are 
tucked away in a little corner between--under the Cannon 
Building.
    I have to say that the Architect of the Capitol and your 
staff were very, very gracious in the way they helped us work 
out this space. But if you want to see the picture of 
parsimony, come see where the minority staff on the Budget 
Committee is located right now. It is very, very efficient use 
of space. So efficient that if we get any additional people we 
are going to have to come back to you and ask for some 
additional help for additional space, because we really don't 
have any more space there.
    Last year, we did ask for additional staff. You weren't 
able to grant it. We have had for years on this committee an 
arrangement of having associate staff, staff of members, 
personal staff who also get supplementary pay from the Budget 
Committee. We are gradually moving away from that process which 
frees up slots for us to put full-time professional staff in. 
As we do it, we may have a couple of positions to fill, in 
which event we will come back to you and ask if we can get your 
assistance in providing additional space for these people.
    We are grateful for what we have got. Let me particularly 
say that the Chairman took the initiative in coming to your 
committee, I am sure, and asking for a number of audiovisual 
aids in our committee room. I think it is as well equipped as 
any. It is a model, really, that other committees, mine 
included, the Armed Services Committee, should come and look 
at. It really makes a difference in conducting a hearing, a 
markup, anything else, to have all of these aids in the room 
both for us and for the people who attend the hearing.
    The bottom line is, I support the request; and I hope that 
this committee will be able to grant it for our Budget 
Committee.
    Mr. Nussle. Mr. Chairman, could I just add one thing in 
echoing Mr. Spratt's comments? And I think it is important for 
you and I particularly to keep this in mind. That while Mr. 
Spratt and his staff are in the minority today--and I am not 
making any predictions, but you never know who might be in 
those offices tomorrow.
    I have tried to help Mr. Spratt with space because I have 
always felt that if you do unto others, they are going to do 
unto you; and we need to keep that in mind as we look for 
space, we provide appropriate equipment and accommodations for 
the minority. It is fair I think that--the arrangement that we 
have in budgets and staff and whatnot. But space in particular, 
we have to remember those could be someone else's offices some 
day, and it is important for us to keep that in mind.
    The Chairman. Well taken.
    When Steny Hoyer, who now is a whip, in the minority, was 
here as Ranking Member, one of the first things we talked about 
and that Congressman Hoyer publicly said, was that if things 
reversed, that he was going to hold to the two/thirds/one-third 
and hold some of the arrangements that we were able to have 
with Congressman Hoyer. And we have had a wonderful beginning 
relationship also with our Ranking Member from Connecticut 
here, Congressman Larson. So I think it is a fairness issue.
    I just want to note a couple things. The one-third change 
in the computers is a great idea. We have always encouraged 
that to be done every year. I have always appreciated, you 
know, the ability of both of you--you have got a tough job. You 
know, we make light in the sense of what we have got to come up 
with, and we will work with that. You have got a tough job.
    The other thing is your requests are reasonable. If you 
also look at the history--and this request is reasonable. If 
you look at the history of the Budget Committee, too, it had a 
fairly flat line; and that is great. But the modest request 
also I think is reasonable, because, as we have technology and 
more people become aware of what Washington does and some 
people do field hearings, that is all good for the whole 
process across the country. But, as you do that, that means 
more people are involved in the process, and more phone calls 
come in, and more work comes in, and the staff needs to respond 
to people across the United States. That creates more work and 
the need for more people.
    So I fully understand that and appreciate it.
    Mr. Spratt. Well, Mr. Chairman, Mr. Nussle did have a self-
interest in it. We did covet the quarters he had, but he was 
very gracious, and so was your staff extremely helpful in 
putting us in this new space.
    The Chairman. Thank you.
    The gentleman from Connecticut.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Let me also echo the sentiments that have been expressed 
here and thank both the Chairman and the Ranking Member for 
your collaborative effort to make sure that the work here in 
Congress gets done in an appropriate manner, and we thank you 
for adhering to the one-third/two-third relationship.
    I am equally struck by the--from listening to a number of 
the Chairs and Ranking Members who have come before us to talk 
about some of the unique things that they are doing in their 
committee. Mr. Spratt alluded to the almost unique relationship 
that exists with the Armed Services staff, and some of the 
quality-of-life concerns, i.e., the type of pay and 
compensation that they receive.
    But I am also struck by the need to have best practices in 
committees. Clearly, in terms of the kind of technology that 
Mr. Nussle has brought forward in the committee, as noted by 
Mr. Spratt, is something that I hope--and knowing our Chairman, 
being forward-thinking and visionary--is something that we hope 
on the Armed Services Committee that we might embrace.
    Obviously, based on your testimony, you are in concurrence 
and agreement with both the funding levels and the split that 
exists. Our only concern--and we have asked this of all the 
Chairs that have come in--is one of, should you not receive 
what you fully anticipate, would you still keep that one-third/
two-third relationship? Again, echoing the Chair's concern that 
he has expressed to every member--and I can't think of anyone 
who has come before us who hasn't had a space concern.
    But those are my two questions for the Chair and the 
Ranking Member.
    Mr. Nussle. The answer is an emphatic yes, and we should 
keep that arrangement, No. 1. Maybe more importantly, I would 
hope that all committees--and this is not just kidding around--
this is serious, we have a lot of work to do--and I know the 
committee funding portion of this is only one part of the total 
that is the operation of Congress, but Congress can and should 
look at itself when it comes to holding the line on spending. 
So if that means the Budget Committee can and should do more, 
we stand ready to attempt to accommodate that.
    Certainly, we are supporting the request that we have. I 
think it is important for our staff in particular.
    Mr. Larson. Very reasonable.
    Mr. Nussle. And they do a great job. But we understand that 
you have got a tough job to do. We know it maybe better than 
most, and we hope you do it well.
    Mr. Larson. Thank you, sir.
    The Chairman. The gentlelady from California.
    Ms. Millender-McDonald. Indeed, we do have a tough job. 
This is why I commend this Chairman and the Ranking Member, 
because it is critical that we continue to have this Committee 
on House Administration to kind of monitor and oversee the 
Chairman and--it is still Chairmen--and Ranking Members who 
come before us. It is critical.
    As a new member, I can appreciate them more than ever 
before because of your coming to us to engage in the dialogue 
of the need for increase in budgetary matters.
    Mr. Chairman, having been a member on the Small Business 
Committee since coming to Congress in 1996, at one time there 
was concerns about whether the Small Business Committee was 
really necessary. In light now of the economic straits that we 
are in, dire straits, and knowing that small businesses are the 
engine that drives the economy, given the creation of jobs, can 
we be assured that the small business will maintain its 
visibility as a committee and that the possibility of its 
budget be maintained and not decreased any further?
    Mr. Nussle. Well, on the Small Business Committee portion, 
that is, of course, your job. And you do it well and you will 
do it well.
    On the issue of committee reorganization in general, you 
are looking at somebody who would be willing to think 
completely and totally outside of the box. Oftentimes, we do 
things around here because they have always been done that way, 
and sometimes forget not only how it first happened but what 
maybe needs to be reformed so it can be done better.
    I think probably the mother of all examples of that was ice 
delivery here in Congress. Many people didn't understand why we 
got buckets of ice. After a little bit of questioning why that 
practice happened, people made, I think, some smart decisions 
about not only saving some money, but doing the smart thing 
with regard to an old practice that--you may not even know what 
I am referring to--it happened about 8 years ago now. But it 
was a practice that started before the invention of the 
refrigerator, you know.
    So I guess when you ask me a question about what the 
committee structure should be, I am willing to reconsider at 
any time the structure of committees in the House of 
Representatives. So I don't want to make any news here today, 
but I would be willing to consider that at many junctures.
    The invention of the Budget Committee is an example of 
that. We have only been around since 1974. I happen to believe 
it is a good invention. We may have some others like the 
Homeland Security Committee that might be a good invention now 
because of the changing times. We shouldn't be stuck within a 
regime just because it has always been done is my only advice.
    Ms. Millender-McDonald. I couldn't agree with you more. In 
fact, I am a proponent of getting outside of the box, because I 
think there is growth when you do that. But I also think that 
those committees that we have should be carefully looked at 
before any type of reorganization, given in light of again this 
economy and the driving force that small businesses do in terms 
of this economy. So we will revisit that at a later time.
    But I see that you have anticipated travel, and one of 
those is port security. Now, down in my region of Los Angeles--
Long Beach is where I really am nested more so--we have two 
ports, the Ports of Los Angeles and Long Beach, that make up 
the largest port system in the country and the third largest in 
the world. With that, we have--about 45 percent of containers 
that come flow through those ports and then travel throughout 
the country. I would certainly like to engage you and the 
Ranking Member in the possibility of having one of your 
hearings or field hearings at the Ports of Los Angeles and Long 
Beach to really see how critical it is and of our having to 
bring in so much containers that come in to go throughout this 
Nation and the security aspects of these containers and the 
ports itself. So I should certainly like to rally for that type 
of travel, if you can find this within your anticipated travel 
time.
    Then, lastly, as the going-out Chair of the Congressional 
Caucus on Women's Issues and as an African-American, I hope 
that when you do your consultant contracts that you be 
sensitive enough to the diversity that we have in this country 
and that some of those contracts will mirror that diversity in 
this country.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    The gentleman from Pennsylvania.
    Mr. Brady. No Questions.
    The Chairman. I again want to thank both of your for your 
time.
    [Recess.]
    The Chairman. The committee will come to order. We will 
continue with International Relations. On behalf of Chairman 
Henry Hyde is Chairman Chris Smith of New Jersey and, of 
course, Ranking Member Congressman Tom Lantos of California.
    We will begin with the gentleman, Mr. Smith.

STATEMENT OF THE HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Smith. Thank you very much, Mr. Chairman. I apologize 
for being a moment late. I was at the Irish-American lunch with 
Brady O'Hearn and the Vice President. So I apologize for being 
late.
    I want to thank you for this opportunity to appear before 
your committee to present our budget. I do this on behalf of 
Congressman Henry Hyde. Our good friend and colleague, the 
Ranking Member, Mr. Lantos will speak, but he as well will 
present a joint budget for the 108th Congress.
    I anticipate that during the 108th congress we will face 
one of the most challenging sessions in decades. As Chairman 
Hyde will point out, and does, the war in Iraq, the continuing 
global war on terrorism, North Korea's development of nuclear 
weapons, the rebuilding of Afghanistan and many other troubled 
spots in the world will ensure that the agenda for this 
Congress will be one of the most ambitious of any committee in 
the House. All of these crises today demand our immediate 
attention in the form of legislation, supplemental 
authorizations, and rigorous oversight.
    In addition, we must continue our normal legislative and 
oversight responsibilities, such as funding for the Department 
of State, legislative and oversight jurisdiction for foreign 
assistance, the United nations, export policy, and sanctions 
measures, including curtailing the threat of weapons of mass 
destruction.
    We must also carry out our responsibilities in receiving 
foreign heads of state and other dignitaries and provide staff 
support for various parliamentary groups.
    I would like to briefly outline two major increases in our 
budget request. The first, the 2003 equipment request, is an 
increase of $228,070 over the 2002 allocation.
    After the events of 9/11, we decided that we were not 
prepared to function as a committee if such a disaster were to 
happen. In that regard, we hope to install a disaster recovery 
system for our computer environment and to provide several new 
file servers for backup at off-site locations.
    The 2004 equipment request also represents our concerns for 
emergency preparedness. We hope to provide most of the staff 
with Blackberry pagers and increase the number of laptops and 
portable printers. It is also our goal to upgrade work stations 
every 3 years to keep pace with technological advances. These 
include installing flat-screened monitors at every location.
    The second major increase is in the personnel category. We 
are requesting funding for three new staff positions, two for 
the majority and one for the minority, in order to ensure that 
the minority continues to be allocated one-third of the staff 
slots, excluding shared administrative staff. Effectively, 
these three new slots are already allocated as follows: One 
slot is for the Speaker-designated position serving as a staff 
for Chairman Bereuter in his capacity as the president of the 
NATO parliamentary assembly; the second slot is for a Pearson 
Fellow assigned to the committee since July, 2000, and who is 
retiring from the Foreign Service; and the third slot is for 
the minority.
    In addition, we have included funds for the 2003 and 2004 
COLAs and a small amount for the majority and minority 
meritorious increases. Also, we need additional monies to fund 
the recent increase in the transit benefits and to reimburse 
the party staff for accrued annual leave.
    Mr. Chairman, it has been a pleasure working with Tom. As a 
matter of fact, Henry Hyde has worked with him so well in the 
last 3 years. I served with Tom both as his ranking for a 
number of years when he was chairman and then when I chaired 
the International Office of Human Rights Committee. He really 
is a very, very fine, outstanding representative. It is always 
good to work with him, and we present this jointly to this 
committee.
    The Chairman. I want to thank the Chairman and Ranking 
Member.

STATEMENT OF THE HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lantos. Mr. Chairman, distinguished members of the 
committee, I just would like to add a sentence or two to what 
my friend Chris Smith has said.
    Let me first reiterate his comment that this is probably 
the most bipartisan committee of the entire Congress. You will 
all be pleased to learn that Henry Hyde is fine and will be 
back in a few days, and we all look forward to his return.
    We fully support the budget as presented by Vice Chairman 
Chris Smith. I personally have a strong view that we should be 
moving towards the Senate formula, where staffing and space 
reflects the reality of the body. Our Republican friends have 
slightly under 53 percent of the membership of the House; we 
have slightly over 47 percent. I think staff and space 
allocation should reflect these realities, and I hope that 
sooner or later this more equitable and fair and just 
arrangement will prevail.
    I need not elaborate on the workload of the committee. You 
all know this, as we all did, that the President's last press 
conference had about two dozen questions, every single one of 
them dealing with international affairs; and I think it is sort 
of self-evident that this load is not only likely not to 
decrease but it will intensify post Saddam Hussein.
    We hope also that you, Mr. Chairman, and distinguished 
members of the committee, will look at the space allocation 
where the International Relations Committee is rather poorly 
treated. Many of our people are in Annex II, and it 
dramatically diminishes the efficiency of our operations both 
on the Republican and the Democratic side. People are running 
back and forth, wasting a lot of time. If you could give up 
more of your own office, Mr. Chairman, we would be greatly 
appreciative and would be happy to absorb it.
    The Chairman. Actually, I will take you back. I think once 
you see it, you won't want it.
    Justs to make a note, it is interesting--the Ranking Member 
mentioned, I actually have given up my office. We moved three 
of my staff into my personal office right here.
    Mr. Lantos. We salute you for that.
    The Chairman. And we did that, actually, this morning. 
Everybody is out of space.
    Mr. Lantos. We could take this room, for instance.
    The Chairman. I will rent it to you once in a while.
    Mr. Smith. Would the gentleman yield? We actually moved one 
of the subcommittees to the Ford Building. That does cause a 
disconnect of sorts, especially since we all work so 
synergistically. So it is a problem.
    The Chairman. I appreciate the testimony of both gentlemen 
today and the working relationship we both have.
    I have learned a lot on international relations over the 
years. I haven't been on the committee, but I have had some 
very, very fine meetings; and I have been involved with, of 
course, the members of the committee. We appreciate you 
testifying on behalf of Chairman Hyde, who has done a wonderful 
job, as the Ranking Member has.
    I do want to speak about the space, though. It is a crisis; 
and it is not only all of you, it is Veterans and--I mean, you 
just keep going down the list; and we have got to address it.
    These buildings--we talked about this today, but I just 
want to reiterate. These buildings were built--we found out 
Congressman John Dingell's father was in this building in 1933. 
In those days, you know, you didn't have Internet, you didn't 
have a lot of advocacy groups. D.C. was maybe even a little 
harder to get to. Now you have got field hearings, you have got 
a lot of advocacy groups, the Internet, more communications 
than in the history of our planet. That is wonderful for public 
policy, but, as you do that and more people are involved in the 
system, the staffs of these committees have to answer to those 
constituencies across the country. That is great, but that 
means that you have got to have more people.
    So the buildings simply weren't designed, any of them, for 
this type of situation. So we have got to work together to get 
more space for everybody. Your problem is shared amongst 
almost, you know, 99 percent of all the committees.
    Thank you.
    Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman.
    Let me associate myself with your remarks, and let me also 
thank Mr. Smith for being here and pinch-hitting for Mr. Hyde. 
We want to also acknowledge and thank Mr. Hyde because of his 
treatment of the minority and particularly Mr. Lantos, whom we 
so much admire for his long-standing work on this committee. 
But Mr. Hyde deserves special kudos.
    I know it is a difficult move to move staff to the Ford 
Annex and in the process grant space to Mr. Lantos in the 
Rayburn Building. That was a class act and a stellar model and 
certainly set an exemplary example of how things should be 
done, but it underscores the Chairman's point and concern as 
well as yours about the need for additional space.
    Our concern has been--and while I might share the opinion 
of the distinguished Mr. Lantos as it relates to the equity of 
the Senate relationship, I again commend this Chairman for 
insisting on the one-third/two-thirds relationship and the 
working arrangement that has been adhered to by all the 
Chairmen who have come before us today.
    I would only ask that in the event people don't get all of 
the request that they ask for, that we still keep that two-
thirds/one-third relationship; and I would ask that of Mr. 
Smith representing the Chair and Mr. Lantos.
    If you care to respond to that.
    Mr. Smith. I can assure you that Chairman Hyde will adhere 
to that. He has an outstanding relationship with Mr. Lantos. 
Just as Tom indicated, the Chairman did have surgery on his 
back in New York. He had some problems with his discs. But he 
should be ready to go back to work next week. So he is 
recovering very well.
    Mr. Larson. We wish him Godspeed and wish him well.
    Mr. Smith. We will tell him you said so. Thank you.
    Mr. Larson. Thank you.
    Ms. Millender-McDonald. Mr. Chairman and Ranking Member, my 
sentiments exactly to Chairman Hyde, a speedy recovery. Please 
extend that statement from me.
    Both of you, the Ranking Member, of which he is my 
neighbor, my friend, my State-mate, it is so great to see you 
here today and in good spirits. But you and the Chairman have 
always been sensitive to me when I have brought my bill on 
mother-to-child transmission of HIV/AIDS as well as my sexual 
exploitation bill, trying to address that issue with women in 
Africa and girls. So I thank you both so much.
    Mr. Smith, in your position of pinch-hitting for the 
Chairman, you can't be quite that great Chairman, but you have 
done a great job today. I thought it was going to be the 
Veterans and then International Relations in which you do an 
outstanding job at the Veterans Services.
    Mr. Lantos, the two dozen questions that the President 
submitted to this committee, is there any way I can get a copy 
of those? I would be interested in those questions and knowing 
perhaps some of the concerns that were raised and the answers 
that came out of this committee.
    Mr. Lantos. Of course.
    Let me just say, we were so delighted with the initiatives 
you took in the international field. We hope you will be 
equally active this session.
    Ms. Millender-McDonald. I certainly will. And thank you 
both so much.
    Mr. Lantos. Thank you.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Brady. Yes.
    Just quickly, Mr. Chairman. I want to have dinner tonight, 
so I will be remiss if I didn't say hello to you for my wife. 
She thinks you are one of the classiest and most distinguished 
Members in Congress, and I am getting to be worried about that 
a little bit.
    I also like your chutzpah by coming into a committee that 
is funding you and asking a member of the majority party and 
chairman of this committee to get a piece of his office. I 
would like to maintain that----
    Mr. Lantos. We are old friends; and since we used that gym 
together, I see him under other circumstances, too.
    The Chairman. With that, we will wrap up the committee.
    Mr. Lantos. Thank you very much.
    The Chairman. Then we will go back to Veterans after 
Homeland Security.
    Next is Homeland Security, Chairman Chris Cox and Ranking 
Member Turner. I appreciate both the Chairman and the Ranking 
Member, the newest people on the block when it comes to 
committee funding.
    As the gentlemen are aware, we put out a temporary 
allocation so that--which we appreciate our Ranking Member 
Congressman Larson's work on that; and we have talked about the 
two-thirds/one/third, which I know our Ranking Member will have 
a question on.
    With that, we will go straight to the Chairman and then our 
Ranking Member.

  STATEMENT OF THE HON. CHRISTOPHER COX, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cox. Thank you very much, Mr. Chairman and members of 
this committee. We appreciate this opportunity to testify 
before you on the budget for the Homeland Security Committee.
    Of course, our Ranking Member, Jim Turner, is also here to 
testify. Jim and I have worked together closely to develop this 
budget and begin the significant task of organizing this new 
committee to oversee the largest reorganization of the Federal 
Executive Branch in my lifetime. Just as those who threaten our 
country make no distinction between Republicans or Democrats, 
our committee will discharge our serious responsibilities with 
bipartisanship throughout this Congress.
    The task facing the Homeland Security Committee couldn't be 
more significant. When the Congress and President Bush created 
the Department of Homeland Security just a few months ago, 
consolidating 22 Federal agencies and over 170,000 Federal 
employees, the purpose was not to reshuffle the bureaucracy. 
The critical mission of this Department--indeed, the most 
important policy of our Federal government--is to make America 
safer, to protect our citizens from a new terrorist attack.
    The Speaker and the full House of Representatives in 
passing H.R. 5 decided that this Department should not be 
subjected to overlapping, redundant, and potentially 
conflicting oversight in authorization from 44 separate 
committees and subcommittees in the House alone. H. Res. 5 
created one authorizing and one oversight committee, the Select 
Committee on Homeland Security. This new committee will act as 
the central point of contact for the Department within the 
House, coordinate the oversight efforts of all House 
committees, and legislate as necessary any changes to the 
Homeland Security Act.
    The constant focus of this committee will be to provide the 
most effective and efficient oversight to ensure that the 
Department of Homeland Security succeeds in its primary 
mission, preventing another attack on the territory and people 
of the United States.
    The extraordinarily important responsibility of the 
Homeland Security Committee, together with our complement of 
over 50 members and its significant interjurisdictional role, 
of course will require staff and resources. Our budget request, 
however, is intended to be frugal. The committee's proposed 
budget of $5 million and change for 2003 and a like amount for 
2004, totalling $11 million for the 108th Congress, would make 
this committee smaller than 11 other committees in the House in 
the 107th Congress. By size of budget, we would rank in the 
bottom half of House committees.
    The major portion of the budget is personnel. The committee 
is currently interviewing experts on bioterrorism, 
cybersecurity, nuclear and chemical weapons, border and port 
security, and infrastructure protection, among other 
specialties. This kind of expertise is necessary to ensure that 
our oversight is informed and effective so that we can assist 
the Department in achieving its mission, rather than bogging it 
down.
    The fiscal year 2003 budget for equipment is $712,000. The 
budget for communications is $269,000. Since the committee is 
starting from scratch, we have significant non-recurring 
capital expenses, as you would expect, for such office 
equipment as computers, telephones, printers, copiers, and the 
like.
    At the heart of preventing terrorism is coordinating our 
Nation's intelligence analysis and sharing threat information 
among Federal, State, and local authorities. We have among our 
committee membership the Chairman and Ranking Minority Member 
of the Intelligence Committee for precisely this reason.
    To permit the committee to properly handle and store 
classified information, the budget includes construction 
expenses for a SCIF, including a vault, secure computer 
equipment, and secure phones. The cost to create a secure 
compartmented information facility will depend on the adequacy 
of the committee's office space, a need that is for the moment 
unmet. We have included an additional $50,000 in our request 
for security costs to upgrade potentially ill-suited physical 
space. Because this may be an inadequate reserve and because 
adequate space has yet to be identified, we ask your 
willingness to consider subsequent requests in this category 
should the need arise.
    The request also includes $735,000 for consultant 
contracts. The committee will seek to draw on the expertise of 
the private sector to assist us in such diverse areas as 
information technology integration, cybersecurity, chemical 
safety, immunology, and infrastructure hardening. In addition, 
we expect to engage special legal counsel for discrete matters.
    The Homeland Security Committee is by definition concerned 
with protecting the population and territory of the entire 
Nation. Therefore, the Select Committee has included $209,000 
for travel to such destinations as Seattle, Atlanta, and Los 
Angeles to evaluate first-responder procedures, examine port 
security, and coordinate with the Centers for Disease Control.
    In the 108th Congress, the total budget for the Committee 
on Homeland Security will be split two-thirds for the majority 
and one-third for the minority. The cost of the very modest 
shared staff--the chief financial officer, office manager, and 
calendar clerk--will be divided equally by the majority and 
minority. This arrangement has been agreed to by both the 
majority and the minority.
    I recognize that every dollar the Congress spends comes 
from the stretched pockets of hard-working American taxpayers. 
We have worked hard, therefore, to ensure that this budget 
accurately represents our minimum requirements to fulfill our 
responsibilities.
    Thank you again for this opportunity to testify, and I will 
be happy, when my Ranking Member, Mr. Turner, is finished, to 
answer any questions. Thank you.
    The Chairman. The gentleman from Texas.

STATEMENT OF THE HON. JIM TURNER, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Turner. Thank you, Mr. Chairman, Ranking Member Larson, 
members of the committee. Thank you for the opportunity to 
testify regarding our budget request for our new committee.
    I want to also thank and acknowledge the support and 
cooperation that I have seen coming from our Chairman. I 
appreciate very much the bipartisan way which he has proceeded 
again to organize this committee. It has been a pleasure to 
work with Chris Cox. He is truly a gentleman, and I think that 
it bodes well for our ability as a committee to move forward in 
a bipartisan way to carry out the extremely important tasks 
that this committee has been given to strengthen our homeland 
defense.
    When I look at our committee, I know that, in coming up 
with our budget request, as the new kid on the block we had a 
somewhat difficult time clearly anticipating what the costs of 
this committee would be. I join with the chairman in making our 
request to you, and I join him today in acknowledging our 
support for the budget request and the numbers that are 
submitted to you. I appreciate very much the committee's 
efforts to try to work with us in this formative period.
    There is no question that a committee of 50 Members of the 
House will have significant responsibilities, and the staffs on 
the committee will have demands made upon them reflective of 
that number.
    It is also very clear to me that, as a committee with the 
jurisdiction that we have been granted to have oversight over a 
new Department that previously consisted of 22 separate 
agencies, that the oversight responsibility of this committee 
will be as great as any committee on this House.
    It is also clear to me that our responsibility to secure 
and protect classified information places additional financial 
burdens on this committee.
    Of course, as a start-up committee, we have a lot of front-
end costs; and, as you know, we have yet to resolve even the 
basic question of where this committee will be housed or where 
its committee hearings will be conducted.
    So we request your indulgence and your assistance as we 
move forward so that, as we try to put this committee together, 
we can ask you to be flexible with us in trying to meet 
whatever unforeseen needs and obligations may be thrust upon 
us.
    With that, Mr. Chairman, I thank you again for the 
opportunity to be here; and we request your support in the 
budget amounts that have been laid out before you.
    The Chairman. Let me just note, on this, already we have 
had, you know, total flexibility with the new committee; and 
the staff of minority and majority here have been involved with 
each other on communicating on start-up issues, you know, 
detailees, all the things that are brand new here. Once we find 
out also the space--and space has been a big issue today. 
Everybody needs more space. And everybody does. We have got to 
find out where you are housed.
    But with the Ranking Member--we appreciate with our Ranking 
Member and both sides of the aisle of this committee we were 
able to take that resolution to the floor for several hundred 
thousand. You needed to have that--whether you spent it all or 
not by March 24th was irrelevant. You needed to have start-up 
ability. But you are a start-up committee, and so we are going 
to continue on this committee, members on both sides of the 
aisle and staff, to continue to work with you as this whole new 
start-up process happens.
    It is an important committee. For us making a decision to--
and I have been asked questions on, you know, on this, on the 
funding. We don't go back in and take homeland security and 
because we have the brand-new funding that we didn't have 2 
years ago, we didn't go back in and remove money from every 
committee to fund it. And we didn't have to do that.
    This is a unique start-up, and that is how I think we have 
to look at it. That way, everybody's budgets are judged fairly. 
And I think that is just important to mention.
    It is an important committee. A couple years ago, we 
weren't entertaining this idea, but the world has changed, and 
we recognize that. Thank you.
    Mr. Larson. Thank you, Mr. Chairman; and congratulations to 
both Mr. Cox and Mr. Turner.
    Let me say from the outset, I think that Speaker Hastert 
and Leader Pelosi have chosen well. I can't think of a more 
important committee, given the circumstances that the Nation 
faces. As Mr. Turner knows, the committee--Mr. Brady and I--he 
served on Armed Services--in terms of the scope, 
responsibility, and a committee that transcends partisanship 
altogether, it is so American at its core in terms of your 
mission. So--for what is going to be a very challenging task, 
you are both to be commended for taking on this responsibility.
    As the Chairman noted, in your remarks as well, the 
overlapping responsibility that you have, and so many senior 
Members of Congress that serve, I have the distinct notion and 
feeling that perhaps one of the hardest things will be managing 
some of the various Members that will be serving there.
    But, having said that and in the best of all spirits--I was 
the Senate president in Connecticut, and we created specific 
select committees to deal with crisis situations--it seems to 
me that we have got to provide the greatest flexibility as it 
relates to this committee. This is something--and I fully 
associate myself with the comments of Mr. Ney and am concerned 
that perhaps we are going to have to fund this committee at 
more than the initial request.
    The Chairman mentioned in his opening statement about field 
hearings in Seattle, Los Angeles, Atlanta, et cetera. What a 
surprise. And so--and because of the nature of this committee 
and also the need--we heard from Armed Services today, and we 
heard Mr. Spratt and Mr. Nussle on Budget. The emphasis here, 
and as Chairman Cox went into, is the very specific kind of 
person you are looking to recruit to this committee and their 
need to not only be in the Beltway but also ferret information 
outside the Beltway, I believe, is going to be very 
challenging. Hopefully, the Congress will have the 
sensibilities to be flexible and to be open to supplemental 
increases as this committee carries out its responsibility 
that, to say the least, is awesome.
    I have spoken at length with Mr. Turner and again would 
echo his sentiments in terms of the cooperation. Our concern on 
the committee has been the one-third/two-thirds relationship, 
no matter what the funding levels end up being.
    I commend him and Leader Pelosi because they feel strongly 
that this is a committee that definitely deserves the supported 
requests. As, hopefully, I have indicated today, any 
supplemental requests that will be needed to carry out your 
assignment is something that we feel strongly about.
    Mr. Linder [presiding]. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    And kudos to the two of you. You have gotten an assignment 
that is absolutely very critical, very demanding, where you do 
not have a game book that someone has preceded you with. But 
the two of you are very able attorneys, so you have the legal 
acumen as well as the discipline that can undertake whatever 
comes to this committee. So, kudos again to both of you for the 
leadership in appointing you to this very important committee, 
important because before 9/11, 2001, we did not even think 
about homeland security. Now we are all very much immersed in 
that concept. So I thank you.
    I will agree with my Ranking Member and the Chair that this 
is a rather modest budget. It seems to me like just to get off 
the ground you would need to have a couple more dollars, while 
I am not touting that. But I would certainly be amenable to 
whatever the Chairman and the Ranking Member suggests as we go 
forth.
    Mr. Cox, I know that with the impressive undertaking that 
you did in 1998 with the special assignment to look into 
China--the technology, the warheads and the missiles, and all 
of those things that were connected in that special committee 
that you chaired and the report that came out in 1999--I was 
quite impressed. So when they said that you would come forward, 
of course it would be a Californian to direct us.
    And, Mr. Turner, you have been on Armed Services, and so we 
know your expertise--I think you served on Armed Services--so, 
your expertise.
    Both of you recognize that this issue and this mission is 
not a defining moment of Republicans and Democrats, but, as the 
Ranking Member says, it is Americans. We are all in this 
together.
    You spoke about the $735,000 in contracts. I hope, being 
the outgoing Chairwoman of the Congressional Caucus on Women's 
Issues, that these contracts and those whom you get will mirror 
this country in terms of women, in terms of minorities, that 
they are very able folks in both categories to help you as you 
launch this very important program.
    Thirdly, as you come into Los Angeles and come into the 
region, I hope you consider coming to the Long Beach and Los 
Angeles Ports that make up the largest part system in the 
country and third largest in the world, providing over 45 
percent of the containers that go across this country emanating 
from those ports. My dear friend and partner in crime, if you 
will, Congresswoman Dana Rohrabacher and I, representing Long 
Beach, would certainly appreciate your thinking about coming to 
this port system to look at the really vulnerable nature of 
ports as we undertake homeland security.
    Thank you both so much for being where you are.
    Thank you, Mr. Chairman.
    Mr. Linder. Thank you.
    Mr. Brady.
    Mr. Brady. No comments.
    Mr. Linder. Thank you both. You have got a big task ahead 
of you. We will let you get on with your jobs.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Linder. Next, we would like to have you join us at the 
table, Mr. Smith, the Veterans Affairs Chairman, and Mr. Evans, 
the Ranking Member.
    We welcome you and thank you for coming this afternoon; and 
we will lead off with the Chairman, Mr. Smith.

STATEMENT OF THE HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Smith. Thank you very much, Mr. Chairman; and let me 
say how great it is to be here. I thank you for this 
opportunity on behalf of myself and my good friend and 
colleague Lane Evans, whom I have worked with for many years, 
almost 20 years on the committees--I have been on it for 23--
and greatly admire his work on behalf of veterans.
    As you know, our committee not only crafts legislation in 
the medical care area and the discretionary care area, but we 
also do a lot in the area of benefits. About half our budget is 
benefits, and the other half is for health care. We do have the 
second largest Federal agency. We employ over 200,000 people. 
We have a budget authority of approximately $62 billion. So it 
is an enormous expanse of commitment on the part of the 
American government to those who have borne our battle as well 
as their widows and to their orphans.
    The VA is making a request today, our committee, and it is 
a joint request, for an increase. We are hoping for $6,776,000 
to allow us to continue to hire and retain what we think is the 
finest staff on Capitol Hill. It will allow us to respond to 
the leadership's call to pursue an aggressive oversight agenda.
    I would just say, Mr. Chairman, that during my first 2 
years as chairman of this committee we have had a very, very 
heavy emphasis on accountability: What is out there? Are we 
doing what we can with the available monies even before we ask 
for new monies when it comes to veterans health care?
    We have discovered all kinds of gaps. We realize that in 
the medical care collection area, for example, when going after 
third-party payers, so much more can and should be done to make 
sure that the insurance companies pay a fair share. When our 
higher income veterans get health care, we go after them 
legitimately to make sure they pay their share of that 
recipient's health care.
    I deployed a staff as well as Lane to go over and look at 
VA health care facilities that are in proximity to DOD 
facilities; and we came back and found out, after going to 
approximately two dozen sites, that there were enormous amounts 
of opportunity for DOD/VA sharing that were unrealized. So we 
proposed legislation for it. The legislation passed, And 
hopefully we will realize those savings.
    But the staff report and the members who have gone on these 
trips as well, including myself, found out that we can get so 
much more bang for the buck. And that means staff travel. We do 
have a request to put our staff travel up to $65,000. We hope 
to do more of that kind of on-site oversight as we go forward 
this year.
    Just for the record, we do have 32 full-time staff. We are 
hoping to increase that to the Speaker's number of 34. We fell, 
especially with this oversight component--and we are doing it 
so vigorously, accountability being a very large part of our 
joint efforts here, especially with scarce funds within the 
VA--that it is important that we have the professional staff to 
do the job right.
    We still have a problem, and you have heard this today, of 
inadequate spacing. That especially accrues to my good friend 
Lane Evans and Michael Durishin and his Democratic staffers. We 
are asking if you can help us to find some additional room to 
house these very valuable staffers. We are trying, we are 
looking, and perhaps you can give us some help on that.
    Just one thing about the people who make up our staff. The 
combined staff of 32 now have over 500 years of Federal 
service. Pat Ryan, who is the Chief Counsel and Staff Director, 
not only came from a rich background within the VA itself, he 
has been on the committee almost as long as I have. I have been 
on for 23 years. He has served very admirably in virtually 
every position, and now he is Chief of Staff and General 
Counsel.
    That is the kind of very professional people that we do 
have. So we are looking to give them merit raises coupled with 
the COLA, which does take some money, because I don't want to 
lose any of these people. They do a great job. And that is on 
both sides of the aisle. We work very well together.
    Lane and I produced some landmark legislation this year, a 
homeless veterans bill that is unprecedented. I have to tell 
you, there are 275,000 veterans on the street on any given 
night. These are mostly men and some women who served honorably 
in the United States Government as our military. They are 
trained, they have capabilities, and they are on the streets.
    We worked on bipartisan legislation. Our staffs did 
yeoman's work. President Bush signed it into law. Now we are 
into the implementation phase to get those people back into 
society and to save them from a ruinous lifestyle.
    The same goes to the G.I. Bill, another historic bill, to 
increase the benefits package for our men and women in uniform. 
We found that it was being underutilized. Fifty percent of 
those who signed up were using it. Why? The benefit wasn't 
enough to make college possible. We increased it by 46 percent. 
There was sticker shock when we first did that. We know now 
that many more hundreds of thousands of veterans will go to 
college as a direct result of that legislation. It was 
bipartisan. Our staff worked it up and worked with us, and it 
takes an enormous amount of work.
    I can go on and on, but we have some challenges, Mr. 
Chairman.
    There is a process very much akin to BRAC with regards to 
veterans health care facilities that comes up. A recommendation 
will be made for closure or radical realignment of health care 
facilities. We want to make sure that anything that is going to 
be closed or enhanced gets the kind of scrutiny that it 
deserves so that no veteran is diminished in his or her ability 
to have access to health care.
    I can go on and on, but we need this request, and we hope 
you will look at it favorably.
    The Chairman. I thank the Chairman.
    The Ranking Member.

STATEMENT OF THE HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Evans. Thank you, Mr. Chairman.
    I welcome the opportunity to join with Chris Smith 
concerning the budget request for the Committee on Veterans 
Affairs. As he has laid out, this is very much a product of 
bipartisan effort.
    Under the request proposed by Chairman Smith, there will be 
a total of 34 committee staff. Of these total staff, 23 will be 
majority staff and 11 will be Democratic staff. Of the 
committee staff request, 33 percent is allocated for Democratic 
staff in the 108th Congress.
    Office space, however, is an entirely different matter. The 
office space now allocated to the Democratic staff is totally 
inadequate. Less than one-fifth is occupied by the Democratic 
staff. It does not, in fact, accommodate the current 10 members 
of the Democratic staff; and I cannot accommodate fellows, 
interns, and others who contribute to our committee. They don't 
have a place literally to park their gear and get the office 
space that they deserve.
    I talked to the Chairman. He is very sympathetic--we 
appreciate that, Chris--and we will be glad to work with him 
for a reasonable solution. That solution has thus far been 
elusive. Unfortunately, the staff of the superintendent has not 
even been able to identify space available. So I ask you for 
your assistance, Mr. Chairman and Ranking Member Larson. I look 
forward to working with you on that request. It is a committee 
request, and I urge your consideration of a favorable response.
    Thank you, Mr. Chairman.
    The Chairman. I want to thank both gentlemen.
    Space is--and I am aware of the dilemma you have. We have 
talked with your staff, and space is a crisis. We have been 
hearing this everywhere. It is an absolute crisis in proportion 
around the buildings. People need to have availability to have 
some kind of space. They serve constituents all across this 
country that want an answer from their government, and so we 
were going to speak with the leaders to attempt to do 
something. As I understand, yours is a bad, bad situation with 
the space.
    Let me just thank both of you. I really don't have any 
questions. I think the budget requests have been very, very 
responsible by the Veterans' Committee. I just want to thank 
you for service to the country. You continue to serve your 
country and do what you do on this committee.
    I was on Veterans' Committee, and I was--one of the 
greatest things I think you can do--we wouldn't be here, we all 
know that, if it wasn't from the Revolution forward and the men 
and women today putting themselves in harm's way to make sure 
we are here. Your committee is a valuable, valuable part of 
this institution, obviously.
    Thank you.
    Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman; and thank you, Mr. 
Smith, for pulling double-duty today.
    Let me thank you as well for not only your testimony and 
your service but the passion you bring to your job. It is very 
heartening to listen to you and hear it and a tribute to the 
manner and the responsibility that you assume.
    The Ranking Member, as you have pointed out, is a man who 
brings tremendous stature and empathy and heartfelt concern. 
Your explanation of the bipartisan cooperation is indeed 
something that all committees should aspire to and adhere to.
    I am concerned about the space issues. As we outlined, I 
feel very fortunate on this committee to have a Chairman who is 
equally concerned. It is truly a Member's Member who reaches 
out to try to help solve these problems and has even given up 
his own space to accommodate people, which I think speaks 
volumes to the kind of Chairman he is.
    Notable in our concern as well as the Members and the staff 
whom we want to accommodate is that your committee especially 
has so many of the greatest generation who are disabled, who do 
come to call upon you who don't have appropriate access. That 
is why it is so incumbent upon this committee to try to 
accommodate the requests that Mr. Evans has so eloquently laid 
out before us, and I assure you we will work to those ends. You 
have a very modest request before the committee, and I can't 
think of a more worthy group of Americans needing of our 
attention and concern than veterans, and I want to thank you 
both for your service to the country.
    The Chairman. The gentleman from Georgia.
    Mr. Linder. I do want to say thank you. I started here 10 
years ago serving on the Veterans Committee. I know the work 
that you do, and I just want to say thank you.
    The Chairman. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Just quickly, I want to echo and also thank you for the job 
that you are doing for the people that fought so hard for us at 
one time and now maybe are not in the position to fight as hard 
for themselves, especially for the homeless. And, also, the 
education. I am a product of the G.I. Bill.
    I just appreciate again, to echo--my Ranking Member has 
said it best, with passion, and, again, that passion is for the 
people that fight for us while we are here and life is 
comfortable and they are in harm's way. I feel really good that 
the both of you are doing the job that you are doing so well 
and want to continue to support as best as I can.
    Mr. Chairman. Again, I want to thank both of you gentleman 
for what you are doing for the veterans.
    Mr. Smith. Mr. Chairman, thank you so much. Mr. Larson, 
members of the committee, thank you.
    Mr. Evans. Thank you, Mr. Chairman.
    The Chairman. I ask unanimous consent that members have 3 
business days to submit their statements and materials for the 
record and those statements and materials to be entered in the 
appropriate place in the record.
    Without objection, those materials will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee on today's portion of the hearing.
    Without objection, so ordered.
    I want to thank all the members for being here, listening 
to a very important part of the hearing process. Now we will 
put the pen to the paper and work together to keep the 
institution moving.
    Having completed our business for today in this hearing on 
committee funding, this committee is hereby adjourned.
    [Whereupon, at 1:56 p.m., the committee was adjourned.]

</pre></body></html>
